<html>
<title> - H.R. 2170, H.R. 2171, H.R. 2172 AND H.R. 2173</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
           H.R.  2170, H.R.  2171, H.R.  2172 AND H.R.  2173

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                       SUBCOMMITTEE ON ENERGY AND
                           MINERAL RESOURCES

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                        Thursday, June 23, 2011

                               __________

                           Serial No. 112-45

                               __________

       Printed for the use of the Committee on Natural Resources






<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov





                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
66-952 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Charles J. ``Chuck'' Fleischmann, 
    TN
Jon Runyan, NJ
Bill Johnson, OH

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                 David Watkins, Democrat Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON ENERGY AND MINERAL RESOURCES

                       DOUG LAMBORN, CO, Chairman
               RUSH D. HOLT, NJ, Ranking Democrat Member

Louie Gohmert, TX                    Peter A. DeFazio, OR
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
John Fleming, LA                     Jim Costa, CA
Mike Coffman, CO                     Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Dan Benishek, MI                         CNMI
David Rivera, FL                     Martin Heinrich, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Paul A. Gosar, AZ                    Betty Sutton, OH
Bill Flores, TX                      Niki Tsongas, MA
Jeffrey M. Landry, LA                Vacancy
Charles J. ``Chuck'' Fleischmann,    Edward J. Markey, MA, ex officio
    TN
Bill Johnson, OH
Doc Hastings, WA, ex officio
                                 ------                                












                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, June 23, 2011..........................     1

Statement of Members:
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     6
        Prepared statement of....................................     7
    Holt, Hon. Rush D., a Representative in Congress from the 
      State of New Jersey........................................     4
        Prepared statement of....................................     5
    Lamborn, Hon. Doug, a Representative in Congress from the 
      State of Colorado..........................................     2
        Prepared statement of....................................     3
    Markey, Hon. Edward J., a Representative in Congress from the 
      State of Massachusetts.....................................     8
        Prepared statement of....................................     9
    Noem, Hon. Kristi L., a Representative in Congress from the 
      State of South Dakota......................................    10
        Prepared statement of....................................    11

Statement of Witnesses:
    Dougherty, P.J., Vice President, Strategic Marketing 
      Innovations................................................    33
        Prepared statement of....................................    35
    Holtrop, Joel, Deputy Chief, National Forest System, U.S. 
      Department of Agriculture..................................    16
        Prepared statement of....................................    17
    Huntley, Chase, Director, Renewable Energy Policy, The 
      Wilderness Society.........................................    51
        Prepared statement of....................................    52
    Lyons, Jim, Senior Director for Renewable Energy, Defenders 
      of Wildlife................................................    45
        Prepared statement of....................................    47
    Pool, Mike, Deputy Director, Bureau of Land Management, U.S. 
      Department of the Interior.................................    12
        Prepared statement of....................................    14
    Taylor, Chris, Chief Development Officer, Element Power, on 
      behalf of the American Wind Energy Association.............    37
        Prepared statement of....................................    39
    Thomsen, Paul A., Director of Policy and Business 
      Development, Ormat Technologies, Inc.......................    41
        Prepared statement of....................................    42

Additional materials supplied:
    Bureau of Ocean Energy Management, Regulation and 
      Enforcement, Statement submitted for the record............    67
    List of documents retained in the Committee's official files.    73

LEGISLATIVE HEARING ON H.R. 2170, STREAMLINING FEDERAL REVIEW 
        TO FACILITATE RENEWABLE ENERGY PROJECTS; H.R. 2171, TO 
        PROMOTE TIMELY EXPLORATION FOR GEOTHERMAL RESOURCES 
        UNDER EXISTING GEOTHERMAL LEASES, AND FOR OTHER 
        PURPOSES; H.R. 2172, TO FACILITATE THE DEVELOPMENT OF 
        WIND ENERGY RESOURCES ON FEDERAL LANDS; AND H.R. 2173, 
        TO FACILITATE THE DEVELOPMENT OF OFFSHORE WIND ENERGY 
        RESOURCES.
                              ----------                              


                        Thursday, June 23, 2011

                     U.S. House of Representatives

              Subcommittee on Energy and Mineral Resources

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:03 a.m. in 
Room 1334, Longworth House Office Building, Hon. Doug Lamborn 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Lamborn, Thompson, Rivera, Gosar, 
Flores, Landry, Fleischmann, Johnson, Hastings [ex officio], 
Holt, Costa and Markey [ex officio].
    Also Present: Representatives Wittman, Labrador, and Noem.
    Mr. Lamborn. The Subcommittee will come to order. The 
Chairman notes the presence of a quorum, which under Committee 
Rule 3[e] is two Members. The Subcommittee on Energy and 
Mineral Resources is meeting today for a legislative hearing to 
hear testimony on four bills: H.R. 2170, Hastings, Washington, 
the ``Cutting Federal Red Tape to Facilitate Renewable Energy 
Act''; H.R. 2171, Labrador, Idaho, ``Exploring for Geothermal 
Energy on Federal Lands Act''; H.R. 2172, Noem, South Dakota, 
``Utilizing America's Federal Lands for Wind Energy Act''; and 
H.R. 2173, Wittman of Virginia, ``Advancing Offshore Wind 
Production Act''.
    Under Committee Rule 4[f], opening statements are limited 
to the Chairman and Ranking Member of the Subcommittee. 
However, I intend to recognize full Committee Chairman Hastings 
and Ranking Member Markey for opening statements, if they wish 
to make one. In addition, I ask unanimous consent to include 
any other Members' opening statements in the hearing record, if 
submitted to the clerk by close of business today.
    [No objection.]
    Hearing no objection, so ordered.
    Furthermore, I ask unanimous consent that Representative 
Kristi Noem of South Dakota, Representative Raul Labrador of 
Idaho, and Representative Rob Wittman of Virginia, all members 
of the full Natural Resources Committee be allowed to sit on 
the dais and participate in today's hearing.
    [No objection.]
    Hearing no objection, so ordered.
    Finally, it is the intention of the Chairman to recognize 
these Members, the authors of the bills before us today, for 
short opening statements about their legislation. In addition, 
the Chairman will remind all Members and the witnesses here 
today that Committee Rule 3[d] requires that Members and 
witnesses shall limit remarks to the subject matter under 
consideration. It is the intention of the Chairman to enforce 
this provision should the discussion today veer too far from 
the subject matter of this hearing and the jurisdiction of this 
Committee.

 STATEMENT OF HON. DOUG LAMBORN, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Mr. Lamborn. I now recognize myself for five minutes for an 
opening statement.
    Today, the Subcommittee is considering a package of bills 
designed to make building renewable energy projects easier on 
Federal lands. Last month, the Committee heard from a host of 
renewable energy advocates, that one of the most important 
changes that could be made to help them advance new electrical 
power generation is to help provide certainty in the process of 
permitting projects.
    This comes as no surprise to those who follow energy 
development on Federal lands. Time and time again, we see 
massive delays in projects. It does not matter if the project 
is a Navajo-owned coal plant, offshore drilling by Shell, or a 
wind project in Nantucket Sound. Federal rules, regulations, 
and bureaucratic red tape slow, stall, or sometimes directly 
destroy critical projects. It can easily be said that these 
projects are ``not as shovel-ready as expected.''
    Just this week, news articles were highlighting the 
President's announcement from last October, where he declared, 
just like President Carter, he would put solar panels on the 
White House roof in the spring. Surprising to only the 
environmental groups that supported this decision, spring has 
come and gone and yet the White House has yet to move forward 
with installing panels. The reality is that government red 
tape, frivolous lawsuits, and bureaucratic bungling slow or 
stop domestic energy projects.
    President Clinton, writing earlier this week, made this 
exact point. He said, ``don't blame the people in the White 
House for problems in getting shovel-ready projects off the 
ground. Sometimes, it takes two or three years or more for the 
approval process. We should try to change this. Keep the full 
review process when there are real environmental concerns; but 
when there aren't, the Federal Government should be able to 
give a waiver to the states to speed up start times on 
construction projects.'' I agree with President Clinton on 
this. We need to streamline projects.
    But this effort is not just about the President's failed 
stimulus package. The U.S. Chamber of Commerce published a 
recent study titled, ``Progress Denied: The Potential Economic 
Impact of Permitting Challenges Facing Proposed Energy 
Projects.'' This study, which I will submit for the record 
today, had a number of critical findings to it. Of the 350 
projects that they examined, the study found that building 
those projects that were stalled ``could produce a $1.1 
trillion short-term boost to the economy and create 1.9 million 
jobs annually. Moreover, these facilities, once constructed, 
continue to generate jobs once filled because they operate for 
years or even decades.'' Based on their analysis, the two 
authors estimate that in aggregate, each year, the operation of 
these projects could generate $145 billion in the economic 
benefits and involve 791,000 jobs. Let me state that again, the 
construction of these would have a short-term boost to the 
economy of $1 trillion and create nearly two million jobs.
    The four bills we are considering today are small steps 
toward achieving our goal of making renewable energy projects a 
reality on our Federal lands. Leaving aside conventional energy 
for the time being, the development of renewable energy on 
Federal lands holds great promise, while at the same time 
offering us tremendous opportunity for job creation and 
domestic energy security.
    It has come as no surprise that there are critics of these 
bills. Groups with names like Wild Lands and Diversity, who 
claim they support renewable energy, but in reality believe 
that energy production and Federal lands are incompatible. 
Groups who challenge traditional and renewable energy projects 
every step of the way with protests and frivolous lawsuits that 
add years to the permitting and construction process. And as we 
heard at our last hearing, years more in planning can be the 
death of renewable energy projects and a huge blow to 
implementing a national strategy of all-of-the-above energy 
critical to America's future.
    Americans are desperate for new jobs and our construction 
industry has been particularly hard hit by the economic 
downturn. This package of bills will help streamline the 
process, give developers more certainty over their time lines, 
facilitate construction projects, and put more Americans back 
to work.
    I want to thank all of our witnesses for being here today. 
I look forward to hearing their testimony and I now recognize 
Ranking Member Holt. And I pledge that if he is not here at the 
time we start, he will have an opportunity soon after he gets 
here, if not immediately--let us see if this is--ah, perfect 
timing. Ranking Member Holt, as soon as you are situated, you 
are welcome to give an opening statement of up to five minutes 
and welcome.
    [The prepared statement of Chairman Lamborn follows:]

          Statement of The Honorable Doug Lamborn, Chairman, 
              Subcommittee on Energy and Mineral Resources

    Today the Subcommittee is considering a package of bills designed 
to make creating domestic energy easier on federal lands. Last month, 
the Committee heard from a host of renewable energy advocates that one 
of the most important changes that could make to help them move new 
energy generation forward is to help provide certainty in the process 
of permitting projects.
    This comes as no surprise to those who follow energy development on 
federal lands. Time and time again, we see massive delays in projects, 
it doesn't matter if the projects is a Navajo owned coal plant, 
offshore drilling by Shell, or a wind project in Nantucket sound. 
Federal rules, regulations and bureaucratic red tape slow, stall or 
sometimes directly kill critical projects. It can easily be said that 
these projects are ``not as shovel-ready as expected.''
    President Clinton writing earlier this week made this exact point, 
he said, ``I don't blame the people in the White House for problems in 
getting shovel-ready projects off the ground; sometimes it takes three 
years or more for the approval process. We should try to change this: 
keep the full review process when there are real environmental 
concerns, but when there aren't, the federal government should be able 
to give a waiver to the states to speed up start times on construction 
projects.''
    But this isn't just a story of the failure of the President's 
stimulus package. The U.S. Chamber of Commerce published a recent study 
titled, Progress Denied: The Potential Economic Impact of Permitting 
Challenges Facing Proposed Energy Projects. This study, which I will 
submit for the record today, had a number of critical findings to it. 
Of the 351 projects that they examined the study found that building 
those project that were stalled would, quote, ``could produce a $1.1 
trillion short-term boost to the economy and create 1.9 million jobs 
annually. Moreover, these facilities, once constructed, continue to 
generate jobs once built, because they operate for years or even 
decades. Based on their analysis, Pociask and Fuhr estimate that, in 
aggregate, each year the operation of these projects could generate 
$145 billion in economic benefits and involve 791,000 jobs.''
    Let me state that again, a TRILLION DOLLAR BOOST TO OUR ECONOMY AND 
NEALRY 2 MILLION JOBS.
    The four bills we are considering today are small steps in 
achieving our goal of making renewable energy projects a reality on our 
federal lands. The development of renewable energy on federal lands 
holds great promise, while at the same time offering us tremendous 
opportunity for job creation and domestic energy security.
    It has come as no surprise that there are critics of these bills. 
Groups with names like wildlands and wilderness, groups and 
organizations who believe that energy production and federal lands are 
incompatible. However, a national strategy of all of the above energy 
is critical to America's future.
    American's are desperate for new jobs and our construction industry 
has been particularly hard hit by the economic downturn. This package 
of bills will help streamline the process, give developers more 
certainty over their timelines, move forward construction projects, and 
put more American's back to work.
                                 ______
                                 

STATEMENT OF HON. RUSH HOLT, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF NEW JERSEY

    Mr. Holt. Thank you, Mr. Chairman. Good morning. Over the 
first six months of this Congress, we have seen what I would 
have to call a hostility to clean energy investments growing 
within the majority, and it is on full display now in the 
Appropriations Committee. Last week, the Committee passed an 
energy bill that is a couple of billion dollars below the White 
House request for investments in research and development, 
energy efficiency, advanced technology vehicles, renewables 
such as solar, wind, geothermal, biomass, and it is 40 percent 
below current funding levels.
    In this Committee, the hostility to renewable energy is 
exceeded only by the hostility to the environment. With many 
legislative options available for increasing renewable energy 
development on public lands, the majority has chosen a path of 
minimum benefit to renewable energy and maximum environmental 
conflict. I regret that. Some on the Committee would set up a 
false choice, making Members who care about renewable energy 
and the environment to choose only one. Fortunately, we can 
safely reject the bills before us today because they are bad 
for both.
    Were these bills to become law, they would not bring more 
renewable energy on line from our public lands. In fact, they 
stand a very real chance of doing the opposite. The bills cut 
the public comment periods and reduce the planning options for 
renewable energy projects. I would tell everyone to prepare 
should these become law, prepare to see more lawsuits and more 
delay as a result. They create new and duplicative permitting 
processes. So, I would say prepare to see more project 
applications rejected right from the start.
    Overall, they could well lead to fewer watts of renewable 
energy production and that is why none of the industry groups 
that represent solar, wind, offshore wind, geothermal and so 
forth, support these bills. These bills do not reflect the 
recommendations of the 10 witnesses who have testified on this 
subject so far before the Committee. In fact, only one witness 
recommended anything remotely resembling what we have in these 
bills and that recommendation did not go as far as suggesting a 
complete waiver of NEPA, of the National Environmental Policy 
Act.
    If the majority were serious about legislation to 
accelerate renewable energy development on public lands, they 
would find strong bipartisan support, from me and most of the 
Democrats on the Resources Committee. Unfortunately, the path 
they have chosen is a path showing no interest in working to 
actually get renewable energy on line or in allowing Democratic 
bills to be considered as part of the hearing. Instead, the 
majority has decided to use public support for clean energy as 
a lever for dismantling environmental protections, something 
that I, speaking for myself, but I think for many other people, 
cannot support.
    There is another way. Democrats requested two relevant 
renewable energy bills to be included in this hearing. One of 
the bills, introduced by Mr. Heinrich, would do exactly what 
the wind and solar industries have recommended in the hearing 
earlier this month. It would take the permit fees paid by the 
wind and solar companies and funnel the money back into state 
and Federal agencies doing the permitting, thereby ensuring the 
adequate human resources for these agencies to be allocated to 
the projects. Oil and gas industries already enjoy this kind of 
dedicated funding mechanism.
    The other Democratic bill, introduced by our Ranking Member 
Mr. Markey, would increase the percentage of renewable energy 
electricity that the Federal Government would be required to 
purchase. Currently, the government must procure 7.5 percent of 
its electricity from renewable sources by 2013. The Markey bill 
would continue to ramp this up through 2025, at which point 25 
percent of the Federal electricity would have to come from 
renewable sources. I ask the Chairman that this Committee hold 
a legislative hearing on these two bills as soon as possible. 
They could work.
    The American people are overwhelmingly in favor of moving 
forward on clean energy and there is much this Committee can do 
to further that objective. I look forward to working with the 
majority to advance these policies.
    Thank you.
    [The prepared statement of Mr. Holt follows:]

 Statement of The Honorable Rush D. Holt, Ranking Member, Subcommittee 
 on Energy and Mineral Resources, on H.R. 2170, H.R. 2171, H.R. 2172, 
                             and H.R. 2173

    Over the first six months of this Congress, we have seen a 
disturbing hostility to clean energy grow within the Republican caucus. 
It is on full display right now in the Appropriations Committee. Last 
week, the committee passed an energy bill that is nearly $1.9 billion 
below the White House request for investments in research and 
development, energy efficiency, advanced technology vehicles, and 
renewables such as solar, wind, geothermal, and biomass. That is a 40 
percent cut below current funding levels.
    In this committee, Republican hostility to renewable energy is 
trumped only by their hostility to the environment. With many 
legislative options available for increasing renewable energy 
development on public lands, Republicans have chosen the path of 
minimum benefit to renewable energy and maximum environmental conflict.
    Ideally for Republicans, they would set up a false choice, making 
those members that care about both renewable energy and the environment 
choose between the two. Fortunately, we can safely reject these 
Republican bills before us today because they are bad for both. Were 
these bills to become law, they would not bring more renewable energy 
online on our public lands. In fact, they stand a very real chance of 
doing exactly the opposite.
    These bills cut public comment periods and reduce planning options 
for renewable energy projects. Prepare to see more lawsuits. They 
create new and duplicative permitting processes. They increase the 
likelihood of project applications receiving wholesale rejections. They 
could well lead to fewer megawatts of renewable energy production.
    That is why none of the industry groups that represent solar, wind, 
offshore wind, and geothermal companies support these bills.
    These bills do not reflect the recommendations of the 10 witnesses 
we've had testify before the full committee on this subject. In fact, 
only one witness recommended anything remotely resembling what we have 
before us today, and that recommendation did not go as far as 
suggesting a complete waiver of the National Environmental Policy Act.
    If the majority were serious about legislation to accelerate 
renewable energy development on public lands, they would have strong 
bi-partisan support from me and most of the Democrats on this 
Committee. Unfortunately, the majority has shown no interest in working 
with us on renewable energy or in allowing Democratic bills to be 
considered as part of this hearing. Instead, the majority has decided 
to use public support for clean energy as a lever for dismantling 
environmental protections. That is something I cannot support.
    There is another way. Democrats requested two relevant renewable 
energy bills be included in this hearing.
    One of these bills (H.R. 2176), introduced by Mr. Heinrich, would 
do exactly what the wind and solar industries recommended in the 
hearing earlier this month. It would take the permit fees paid by the 
wind and solar companies and funnel the money back into the federal and 
state agencies doing the permitting, thereby insuring that adequate 
human resources from these agencies are allocated to the projects. The 
oil and gas industries already enjoy this dedicated funding mechanism.
    The other Democratic bill (H.R. 2196), introduced by Mr. Markey, 
would increase the percentage of renewable electricity that the federal 
government would be required to purchase. Currently, the government 
must procure 7.5% of its electricity from renewable sources by 2013. 
The Markey bill would continue this ramp up through 2025, at which 
point 25% of federal electricity would have to come from renewable 
sources.
    I would ask the chairman that this committee hold a legislative 
hearing on these Democratic bills as soon as possible.
    The American people are overwhelmingly in favor of moving forward 
on clean energy, and there is much this committee can do to further 
that objective. I will continue to look forward to working with the 
majority on advancing policies which do that.
                                 ______
                                 
    Mr. Lamborn. I now recognize full Committee Chairman 
Hastings for five minutes for his opening statement.

 STATEMENT OF HON. DOC HASTINGS, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    Mr. Hastings. Thank you, Mr. Chairman, and once again thank 
you for your courtesy allowing me to be here at your 
Subcommittee hearing. It is often said that there is no silver 
bullet to achieving energy security and I certainly agree with 
that statement. Any long-term energy policy must include all 
types of American energy, from oil and natural gas, to 
alternative and renewable forms of energy, such as wind, solar, 
nuclear, and hydropower. This all-of-the-above energy approach 
is a cornerstone of House Republican's American energy 
initiative in an ongoing effort to advance legislation that 
will expand all types of American energy production to create 
jobs and to stop this Administration policies that are raising 
energy prices.
    Republicans recognize that energy diversity is essential 
for energy security. That is why I am very proud that this 
Committee has not only advanced legislation to expand American 
oil and natural gas production, but is now turning our focus to 
critical minerals and renewable energy projects on Federal 
lands and waters.
    The full Committee has held two hearings examining 
roadblocks to renewable energy production on public lands. We 
heard over and over again from representatives of the renewable 
energy industry about the need for certainty. Let me repeat 
that, we heard over and over again from those in that industry 
about the certainty as they proceed forward with their 
projects. They currently have to navigate through a twisted 
maze that involves conflicting answers from different agencies, 
different government agencies, bureaucratic hurdles and endless 
litigation. It is sad, but true, that too often the biggest 
obstacle to renewable energy production is the Federal 
Government.
    The four bills we are discussing today take steps to 
correct that. They all share a common goal of streamlining 
regulatory hurdles and creating a simpler, clearer path to 
develop renewable energy projects on Federal lands. For 
example, environmental review should be focused on the specific 
areas where the renewable energy project will be located. Small 
temporary structures to test onshore and offshore wind to 
determine the best location to put a windmill should not be 
bogged down in red tape, and each geothermal exploration hole 
should not have to go through a separate approval process when 
they are often on the same tract of leased land.
    Now all of these are commonsense proposals that will cut 
years off the time it takes to develop these projects. In other 
words, it provides a certainty to these industries we are 
talking about. These bills are necessary in order to encourage 
a timely and efficiently production of renewable energy on our 
Federal lands and water, in order to create jobs and expand all 
types of renewable energy production.
    And I thank the Chairman and this Subcommittee for holding 
the hearing on these important bills and I yield back my time.
    Mr. Lamborn. Thank you. I now recognize full Committee 
Ranking Member Markey of Massachusetts for five minutes for his 
opening statement.
    [The prepared statement of Mr. Hastings follows:]

Statement of The Honorable Doc Hastings, Chairman, Committee on Natural 
        Resources, on H.R. 2170, H.R. 2171, H.R. 2172, H.R. 2173

    Thank you Chairman Lamborn for holding this hearing today,
    It's often said that there's no silver bullet to achieving energy 
security--and I agree. Any long-term energy policy must include all 
types of American energy, from oil and natural gas to alternative and 
renewable forms such as wind, solar, nuclear and hydropower.
    This all-of-the-above energy approach is the cornerstone of House 
Republicans' American Energy Initiative, an on-going effort to advance 
legislation that will expand all types of American energy production to 
create jobs and stop Obama Administration policies that are raising 
energy prices.
    Republicans recognize that energy diversity is essential for energy 
security.
    That's why I'm proud this Committee has not only advanced 
legislation to expand American oil and natural gas production but is 
now turning our focus to critical minerals and renewable energy 
projects on federal lands and waters.
    The Full Committee has held two hearings examining roadblocks to 
renewable energy production on public lands. We heard over and over 
again from representatives of the renewable energy industry about the 
need for certainty. They currently have to navigate through a twisted 
maze that involves conflicting answers from different agencies, 
bureaucratic hurdles and endless litigation.
    It's sad but true that too often the biggest obstacle to renewable 
energy production is the federal government.
    The four bills we are discussing today take steps to correct that. 
They all share a common goal of streamlining regulatory hurdles and 
creating a simpler, clearer path to develop renewable energy projects 
on federal lands.
    For example, environmental reviews should be focused on the 
specific areas where the renewable energy project will be located,
    Small, temporary structures to test onshore and offshore wind to 
determine the best location to put a windmill should not be bogged down 
in red tape.
    And each geothermal exploration hole should not have to go through 
a separate approval process when they are on the same tract of leased 
land.
    These are all common sense proposals that will cut years off the 
time it takes to develop these projects.
    These bills are necessary in order to encourage the timely and 
efficient production of renewable energy on our federal lands and 
waters in order to create jobs and expand all types of renewable energy 
production.
                                 ______
                                 

 STATEMENT OF HON. EDWARD MARKEY, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF MASSACHUSETTS

    Mr. Markey. Thank you, Mr. Chairman, very much. The 
President has announced that he is going to begin, in 
conjunction with other countries in the world, to deploy oil 
from our strategic petroleum reserve. I think that is a very 
important development, in order to ensure that the price of oil 
does not continue to impact our economy and our country. Iran 
and Venezuela have asserted their power within OPEC. Unilateral 
reliance upon Saudi Arabia to increase supply has failed. The 
President is sending a clear signal with his deployment of the 
strategic petroleum reserve that the American consumers will 
not be held hostage to Iranian and Venezuelan dictators or to 
events which are occurring in Libya and in Yemen that has taken 
oil off the global market. So this is a very important 
development this morning, which I think will really help to 
stabilize the price of oil and not have the same kind of 
dramatic impact which it has had over the last four or five 
months since the beginning of the Libyan conflict.
    Now over the past two years, the 1603 renewable energy 
grant program has supported 10,000 megawatts of wind, solar, 
geothermal, and other renewable energy projects through more 
than 7,000 separate awards. It has led to $22 billion in clean 
energy investments, more than 70 percent of which came from the 
private sector. Just last Friday, the Energy Department 
announced a $150 million loan guarantee to a Massachusetts 
company called 1366 Technologies, that is using technology 
developed at MIT to radically reduce the cost of making silicon 
wafers for solar cells. Earlier this month, construction broke 
ground on the largest solar power plant in the world in 
California. This project on public land received fast-track 
permitting at the Interior Department and was awarded a $2 
billion loan guaranteed by the Department of Energy.
    These success stories are part of the Recovery Act. These 
renewable energy programs come out of what you call workhorse 
legislation. They successfully pulled billions of dollars of 
private capital off the sideline, and are now putting thousands 
of people to work, and putting millions of watts of clean 
energy electricity production in the ground. These Recovery Act 
programs are scheduled to expire by the end of the year or 
sooner. Again, these are workhorse programs.
    That is not what we are here to talk about today. The 
Republicans oppose workhorse legislation when it comes to 
renewable energy. We are here today to judge some show horse 
legislation. The four Republican bills under consideration 
today deal entirely with weather towers and needless 
evisceration of environmental protections. They will not bring 
more renewable energy on line on our public lands. In fact, 
they stand a very good chance of doing exactly the opposite. 
These bills are a recipe for more lawsuits, more rejective 
projects, and fewer megawatts of clean energy production.
    Instead of thinking big picture and figuring out how to get 
more wind towers and solar concentrated towers in the ground, 
Republicans are sidetracked with weather towers. Now, I fear 
the only reason that they are even interested in those is 
because the opportunity it presents to rein in environmental 
laws. Once they hobble environmental laws for renewable energy, 
they may be hoping it will be a lot easier to do the same for 
the industry they really care about, the oil and gas industry.
    So instead of show horse legislation, maybe we should call 
this Trojan horse legislation. If the Republicans are genuinely 
interested in passing good renewable energy legislation that 
creates jobs and helps get more renewable energy deployed on 
public lands, Democrats are eager to work with them in a 
bipartisan fashion to get those renewable projects on the 
books. But the fact remains that there are many other 
approaches to encouraging renewable energy development on 
public lands, approaches that are actually recommended in the 
multiple hearings we have had on this subject, approaches that 
could actually gain the endorsement of the industry they are 
intended to help.
    It was in that spirit that the Democratic side requested 
that the Committee consider two of our Members' relevant bills 
as part of this hearing, one by Mr. Heinrich and another by 
myself. Neither has been included in the hearing today. 
Therefore, I reiterate my request to the Chairman of the full 
Committee for a legislative hearing on these Democratic bills, 
as well, and as soon as possible, so that we can get a 
comprehensive view of what it takes to be successful in the 
renewable's area.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Markey follows:]

Statement of The Honorable Edward J. Markey, Ranking Member, Committee 
on Natural Resources, on H.R. 2170, H.R. 2171, H.R. 2172, and H.R. 2173

    First of all, I'd like to commend the White House for finally 
deciding deploy the strategic petroleum reserve. . .
    Over the last two years, the 1603 [sixteen-oh-three] renewable 
energy grant program has supported 10,000 megawatts of wind, solar, 
geothermal, and other renewable energy projects through more than 7,000 
separate awards. It has led to $22 billion in clean energy investments, 
more than 70 percent of which came from the private sector.
    Just last Friday, the Energy Department announced a $150 million 
loan guarantee to a Massachusetts company called 1366 Technologies that 
is using technology developed at MIT to radically reduce the cost of 
making silicon wafers for solar cells.
    Earlier this month, construction broke ground on the largest solar 
power plant in the world in California. This project on public land 
received fast-track permitting at the Interior Department and was 
awarded a $2 billion loan guarantee by the Department of Energy.
    These success stories are Recovery Act success stories. These 
renewable energy programs came out of what you call work horse 
legislation. They successfully pulled billions of dollars of private 
capital off the sideline and are now putting thousands of people to 
work and putting millions of watts of clean, renewable electricity 
production in the ground. These Recovery Act programs are scheduled to 
expire by the end of the year or sooner.
    Again, those are workhorse programs. That's not what we're here to 
talk about today. Republicans oppose workhorse legislation when it 
comes to renewable energy. We're here today to judge some show horse 
legislation.
    The four Republican bills under consideration today deal entirely 
with weather towers and needless evisceration of environmental 
protections. They will not bring more renewable energy online on our 
public lands. In fact, they stand a very real chance of doing exactly 
the opposite. These bills are a recipe for more lawsuits, more rejected 
projects, and fewer megawatts of clean energy production.
    Instead of thinking big picture and figuring out how to get more 
wind towers and solar concentrating towers in the ground, Republicans 
are sidetracked with weather towers. I fear the only reason they're 
even interested in those is because the opportunity it presents to rein 
in environmental laws. And once they hobble environmental laws for 
renewable energy, they may be hoping it will be a lot easier to do the 
same for the industry they really care about, the oil and gas industry.
    So instead of show horse legislation, maybe we should call this 
Trojan horse legislation.
    If the chairman is genuinely interested in passing good renewable 
energy legislation that creates jobs and helps get more renewable 
energy deployed on public lands, Democrats are eager to work with him 
in a bipartisan fashion.
    The fact remains that there are many other approaches to 
encouraging renewable energy development on public lands. Approaches 
that were actually recommended in the multiple hearings we've had on 
this subject. Approaches that could actually gain the endorsement of 
the industry they are intended to help.
    It was in that spirit that the Democratic side requested that the 
committee consider two of our member's relevant bills as part of this 
hearing, one authored by Mr. Heinrich (H.R. 2176) and one by myself 
(H.R. 2196). Neither has been included today. Therefore, I reiterate my 
request to the chairman of the full committee for a legislative hearing 
on these Democratic bills as soon as possible.
    Thank you and I reserve my time.
                                 ______
                                 
    Mr. Lamborn. You are welcome. I now recognize full 
Committee member and H.R. 2172 author, Representative Noem of 
South Dakota for five minutes for her opening statement.

  STATEMENT OF HON. KRISTI NOEM, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF SOUTH DAKOTA

    Mrs. Noem. Thank you, Mr. Chairman, and thank you, Chairman 
Hastings, for your leadership on this issue. Although this bill 
has nothing to do with horses, of which I am a big fan of, it 
does have everything to do with giving our American energy 
policy some more horsepower and getting our economy going in 
this country again.
    The Utilizing America's Federal Lands for Wind Energy Act 
is just one part of the Committee's initiative to cut 
unnecessary bureaucratic red tape for renewable energy 
development. My bill will speed up the production of clean, 
renewable energy--American energy--by streamlining the process 
to develop onshore wind power on Bureau of Land Management and 
U.S. Forest Service lands. Currently, it can take the industry 
up to four years to even decide if a location is going to be 
suitable for a wind project. My bill can reduce that by up to 
two years in the initial process by streamlining the National 
Environmental Policy Act or NEPA process. This bill sets a firm 
time line for issuing permits on Federal land. It streamlines 
the regulatory requirements for installing temporary towers to 
test and to monitor the weather.
    Requiring burdensome, duplicative reviews for these 
temporary structures is unnecessary. It slows down production 
of this clean energy source, especially in this harsh economic 
climate. With gas prices around $4 a gallon, it is important to 
have an all-of-the-above American energy policy. Wind energy is 
certainly in that category.
    Our Nation has a vast energy, wind energy supply that we 
can utilize here in resources here at home. We need to make 
sure that we are using our Federal lands for commonsense clean, 
renewable energy production.
    My home State of South Dakota is a perfect example. We are 
blessed with enormous potential for producing wind power. The 
United States Department of Energy has indicated that there are 
excellent to outstanding areas for wind production throughout 
our state.
    In fact, South Dakota is also home to nine Indian 
reservations and there is a lot of potential for wind 
development in Indian country. They often have to go through a 
lengthy process for renewable energy development. This bill 
could serve as a model for streamlining the process for wind 
development on Indian land.
    In 2003, the first utility scale Native American wind 
turbine was installed on the Rosebud Sioux Indian reservation 
in my state. That was after an eight-year preparation. This 
wind turbine is now generating energy for businesses on this 
reservation. They are able to sell their excess green energy to 
local power cooperatives and create jobs in an area where the 
unemployment is around 80 percent. This is just one example of 
how wind power can benefit local communities and it can create 
jobs. It is our job to ensure that excess government 
regulations do not get in the way.
    I look forward to hearing from the witnesses and their 
perspective on these bills. Thank you, Mr. Chairman.
    [The prepared statement of Ms. Noem follows:]

Statement of The Honorable Kristi L. Noem, a Representative in Congress 
                     from the State of South Dakota

    Mr. Chairman, I ask unanimous consent to make an opening statement 
and that my statement be submitted for the record.
    Thank you Mr. Chairman. And thank you Chairman Hastings for your 
leadership on this issue. The Utilizing America's Federal Lands for 
Wind Energy Act is just one part of the Committee's initiative to cut 
unnecessary bureaucratic red tape for renewable energy development. My 
bill will speed up the production of clean, renewable American energy 
by streamlining the process to develop onshore wind power on Bureau of 
Land Management and U.S. Forest Service lands. Currently, it can take 
an industry up to 4 years to even decide if a location is suitable for 
a wind project. My bill could reduce that by around 2 years in the 
initial process by streamlining the National Environmental Policy Act 
(NEPA) process.
    This bill sets a firm timeline for issuing permits on federal land 
and streamlines the regulatory requirements for installing temporary 
towers to test and monitor weather. Requiring burdensome, duplicative 
reviews for these temporary structures is unnecessary and slows down 
production of this clean energy source. Especially during a tough 
economic climate and gas prices around $4 a gallon, it is important to 
have an ``all of the above'' energy approach, and wind energy is 
certainly in that category. Our nation has a vast amount of resources 
here at home, and we need to make sure we are using our federal lands 
for common sense, clean, renewable energy production.
    My home state of South Dakota is a great example. We are blessed 
with enormous potential for producing wind power. The U.S. Department 
of Energy has indicated that there are ``excellent-to-outstanding'' 
areas for wind production throughout the state.
    South Dakota is also home to 9 Indian reservations, and there is a 
lot of potential for wind development in Indian Country. They often 
have to go through a lengthy process as well for renewable energy 
development. This bill could serve as a model for streamlining the 
process for wind development in Indian land. In 2003, the first 
utility-scale Native American wind turbine was installed on the Rosebud 
Sioux Indian Reservation in my state. That was after an eight-year 
preparation! This wind turbine is now generating energy for businesses 
on the reservation. They are able to sell their excess green energy to 
local power cooperatives and create jobs in an area where unemployment 
is around 80%.
    This is just one example of how wind power can benefit local 
communities and create jobs. It is our job to ensure that excess 
government regulations do not get in the way. I look forward to hearing 
from the witnesses on their perspective on these bills.
    Thank you Mr. Chairman.
                                 ______
                                 
    Mr. Lamborn. You are welcome. We will now hear from our 
first panel of witnesses. I would like to invite to the witness 
table, The Honorable Mike Pool, Deputy Director of the Bureau 
of Land Management, accompanied by Mr. Walter Cruickshank of 
the Bureau of Ocean Energy Management, Regulation and 
Enforcement, and The Honorable Joel Holtrop, Deputy Chief of 
the U.S. Forest Service.
    Like all of our witnesses, your written testimony will 
appear in full in the hearing record, so I ask that you keep 
your oral statements to five minutes, as outlined in our 
invitation letter. Our microphones are not automatic, so you 
need to turn them on when you are ready to begin. After four 
minutes, the yellow light will come on. You are probably 
familiar with that. In fact, we talked about that a few days 
ago. So, Mr. Pool, you may begin.

           STATEMENT OF MIKE POOL, DEPUTY DIRECTOR, 
                   BUREAU OF LAND MANAGEMENT

    Mr. Pool. Thank you, Mr. Chairman, members of the 
Committee. I appreciate the opportunity to come before you 
today to testify on behalf of the Department of the Interior on 
the renewable energy bills before you today. As Deputy Director 
of the BLM, I am here to provide departmental views on these 
bills and answer any questions related to BLM. With me is 
Walter Cruickshank, Deputy Director for the Bureau of Ocean 
Energy Management, Regulation and Enforcement, who will answer 
any questions you may have on the offshore wind legislation.
    The bills exempt certain Federal actions from compliance 
with the National Environmental Policy Act, the cornerstone law 
guiding environmental protection and public involvement 
associated with public lands. The Department opposes these four 
bills. Since the beginning of his tenure, Secretary of the 
Interior Ken Salazar has made the development of a new energy 
frontier on America's public lands one of his top priorities. 
As Deputy Director of the BLM, I share this priority and I am 
happy to tell you that both the BLM and BOEMRE are implementing 
the Secretary's Smart from the Start program, through approving 
development for onshore wind, solar, geothermal, and for 
offshore wind, ocean wave, and ocean current energy. Our goal 
is environmentally responsible development of renewable 
resources on the public lands with a fair return to the 
American people for use of their resources.
    Guiding all of BLM's management actions, including 
renewable energy development, is the agency's open and public 
land use plans, coupled with full environmental review and 
public involvement under NEPA. This remains a vital tool as we 
work to protect our Nation's environment and revitalize our 
economy. H.R. 2170 would narrow the scope of environmental 
review for renewable energy projects, wind, solar, geothermal, 
biomass, tidal, or kinetic forces used to generate energy. NEPA 
analysis would be limited to a proposed action and a no-action 
alternative. The public comment would be limited to 30 days.
    The Department of the Interior opposes H.R. 2170. It 
restricts the development and consideration of a range of 
alternatives and reduces the analysis of complex, challenging 
issues to a limited yes or no choice. There may be unintended 
consequences to H.R. 2170. Agencies may be forced to select a 
no-action alternative if a proposal has resource conflicts that 
cannot be addressed through alternatives.
    H.R. 2171 established criteria for geothermal exploration 
test projects and exempts a proposal meeting those criteria 
from NEPA compliance. The Department opposes H.R. 2171 because 
it is inconsistent with sound and longstanding NEPA 
requirements for Federal actions. The bill offers no exemption 
for extraordinary circumstances, which are red flags to let the 
public and the agency know what NEPA reviewed would still be 
warranted. BLM believes in the absence of an exemption for 
extraordinary circumstances may result in renewable energy 
development that impacts the environment.
    H.R. 2172 would affect onshore wind power on BLM and Forest 
Service land by removing the requirement to complete NEPA 
analysis for met towers. The Department opposes H.R. 2172 
because it is also inconsistent with sound and longstanding 
NEPA requirements for Federal actions. BLM policy provides for 
categoric exclusions from NEPA review for met towers. It also 
provides an exception for extraordinary circumstances when NEPA 
review is still required. The BLM applies CXs only when 
appropriate. Blanket use of CXs without regard for 
extraordinary circumstances, as under H.R. 2172, could 
significantly impact public health and the environment.
    H.R. 2173 would exempt certain Federal actions relating to 
offshore wind production from compliance with NEPA. The 
Department opposes this bill because of conflicts with section 
8p of the Outer Continental Shelf Lands Act, eliminating the 
Secretary's ability to consider environmental impacts of 
renewable energy projects on the Outer Continental Shelf.
    The 30-day deadline for public review in H.R. 2173 is 
simply not sufficient to consider public comment, conduct 
mandatory consultations with other agencies, tribes, and state 
officials, and perform engineering and safety reviews. The 
result would be permits being denied unnecessarily.
    Thank you for the opportunity to testify. I would be happy 
to answer any questions.
    [The prepared statement of Mr. Pool follows:]

  Statement of Mike Pool, Deputy Director, Bureau of Land Management, 
                    U.S. Department of the Interior

Introduction
    Thank you for inviting the Department of the Interior to present 
testimony on several bills pertaining to the development of renewable 
energy resources on our nation's onshore public lands: H.R. 2170, the 
Cutting Red Tape to Facilitate Renewable Energy Act; H.R. 2171, the 
Exploring Geothermal Energy on Federal Lands Act; and H.R. 2172, the 
Utilizing America's Federal Lands for Wind Energy Act.
    These bills were introduced little more than one week ago, so the 
Department of the Interior has not had time to conduct an in-depth 
analysis of them, but we appreciate the opportunity to outline our 
general views at this time. The bills exempt certain Federal actions 
from compliance with the National Environmental Policy Act (NEPA)--the 
cornerstone law guiding environmental protection and public involvement 
in Federal actions. The Department opposes these three bills.
Background
    Since the beginning of his tenure, Secretary of the Interior Ken 
Salazar has made the development of the New Energy Frontier on 
America's public lands one of his top priorities. The Department's 
renewable energy strategies are guided by the fundamental belief that 
renewable energy for America will allow us to diversify energy sources 
and ultimately reduce our reliance on fossil fuels.
    As Deputy Director of the Bureau of Land Management (BLM), I share 
this priority. I am happy to tell you that the BLM is committed to 
giving priority to renewable energy projects that are ``smart from the 
start.'' The BLM is working with local communities, state regulators, 
industry, and other Federal agencies to build a clean energy future. 
Our goal is environmentally responsible development of renewable energy 
resources on the public lands with a fair return to the American people 
for the use of their resources.
    Guiding all of the BLM's management actions--including renewable 
energy development--is the agency's land use planning process. This is 
an open, public process in which the agency's proposals for managing 
particular resources are made known to the public in advance of taking 
action. The BLM's plans are analyzed and frequently critiqued by 
members of the public and stakeholders, and the BLM must address all 
comments on agency proposals and make available to the public its 
responses.
    Similarly, the BLM is committed to providing the full environmental 
review and public involvement opportunities required by NEPA for all 
agency proposals for BLM-managed lands. As noted in the Presidential 
Proclamation commemorating the 40th anniversary of the act, NEPA, was 
enacted to ``prevent or eliminate damage to the environment and 
biosphere and stimulate the health and welfare of man.'' It established 
concrete objectives for Federal agencies to enforce these principles, 
while emphasizing public involvement to give all Americans a role in 
protecting our environment. America's economic health and prosperity 
are inexorably linked to the productive and sustainable use of our 
environment. That is why NEPA remains a vital tool as we work to 
protect our Nation's environment and revitalize our economy.
    Under land use plans and environmental analyses informed by public 
involvement, the BLM is leading the nation toward the New Energy 
Frontier with active solar, wind, and geothermal energy programs. In 
2010, the BLM approved the first nine large-scale solar energy projects 
on public lands. These projects will have an installed capacity of 
3,600 megawatts, enough to power close to 1 million homes, and will 
create thousands of jobs. Additionally, the BLM has 29 authorized wind 
energy projects on the public lands with a total of 437 megawatts of 
installed wind power capacity. Geothermal energy development on the 
public lands, meanwhile, with an installed capacity of 1,275 MW, 
accounts for nearly half of U.S. geothermal energy capacity.
H.R. 2170, ``Cutting Red Tape to Facilitate Renewable Energy Act''
    H.R. 2170 would narrow the scope of environmental review for 
renewable energy projects, defined as wind, solar power, geothermal 
power, biomass or tidal or kinetic forces used to generate energy. 
Under the bill, NEPA analysis would be limited to a ``proposed action'' 
and the ``no-action alternative''--rather than the range of 
alternatives that are generally evaluated during NEPA review. Members 
of the public would be limited to 30 days after the publication of a 
draft NEPA document to conduct their review and send comments to the 
Federal agency.
    The Department opposes H.R. 2170, as it unnecessarily restricts the 
scope of analysis in the NEPA process. This restriction on the 
development and consideration of alternatives to a proposed agency 
action would reduce the analysis of complex, challenging issues to a 
limited ``yes-or-no'' choice. It would impair the Federal government's 
ability to accurately assess the likely impacts of a Federal action and 
to employ the consideration of alternative means to avoid, minimize 
and/or mitigate adverse impacts. Furthermore, reducing the timeframe 
available for review and public comment to 30 days, especially for 
complicated, multi-state, utility-scale environmental impact 
statements, could significantly reduce the public's ability to weigh-in 
on critical matters affecting them. The BLM relies on this public 
participation to improve the analysis of actions on public lands.
    Properly developed alternatives inform decisions by allowing the 
decision-maker to evaluate ways to resolve resource conflicts in 
complex projects. Addressing a reasonable range of alternatives under 
NEPA provides opportunity to address issues that arise in public 
scoping and reduces the likelihood of litigation. Alternatives analysis 
also provides more opportunities for the BLM to work with applicants to 
address possible alternative means to reduce environmental impacts.
    Through the development and consideration of a reasonable range of 
alternatives, the BLM can work with applicants to explore proposals 
using different technology or project layout alternatives with the 
applicant. To accomplish this, the BLM has recently provided guidance 
on defining a reasonable range of alternatives in development of 
renewable energy projects on public lands, based on lessons learned 
from fast track renewable energy projects in 2010. This policy 
recognizes that the BLM must consider the applicant's interests and 
objectives to inform its decision.
    There may also be unintended consequences to this legislation. The 
inability to consider other alternatives may lead the BLM to select the 
no-action alternative more frequently if a proposed project presents 
resource conflicts that cannot be addressed through mitigation.
H.R. 2171, ``Exploring Geothermal Energy on Federal Lands Act''
    H.R. 2171 establishes criteria for ``geothermal exploration test 
projects'' and exempts a proposal meeting those criteria from NEPA 
compliance. The bill authorizes a geothermal leaseholder proposing to 
drill such a test project to notify the Secretary of their proposal 30 
days prior to the start of drilling. The Secretary is allowed 10 days 
within which to review the proposal and determine if it meets the 
criteria for exemption from NEPA, or to identify the reasons why the 
proposal does not meet the criteria and thus would not be exempt from 
NEPA. If the latter, the Secretary is required to notify the proponent 
of specific deficiencies and to give the leaseholder the opportunity to 
meet the criteria and thereby become exempt from NEPA.
    The Department opposes H.R. 2171 because it is inconsistent with 
sound and long-standing NEPA requirements for Federal actions. 
Furthermore, its NEPA-exempt framework contains no exception for 
``extraordinary circumstances''--i.e., circumstances when NEPA review 
would still be warranted. The BLM believes the absence of an exemption 
for extraordinary circumstances may result in geothermal development 
that may pose an impact to the environment. The BLM is ensuring that 
development of geothermal resources on the public lands is implemented 
in an environmentally responsible manner. NEPA review is an important 
component of this responsible development.
H.R. 2172, ``Utilizing America's Federal Lands for Wind Energy Act''
    H.R. 2172 proposes to streamline the process to develop onshore 
wind power on BLM and U.S. Forest Service (FS) land by removing the 
requirement to complete NEPA analysis for weather testing or monitoring 
devices. The bill also reduces agency decision-making timeframes for 
the site applications.
    The Department opposes H.R. 2172 because it is inconsistent with 
sound and long-standing NEPA requirements for Federal actions. 
Furthermore, its NEPA-exempt framework contains no exception for 
extraordinary circumstances. While BLM policy (IM 2009-043, December 
19, 2008) currently provides for ``categorical exclusions'' (CXs) from 
NEPA review for wind-related weather testing or monitoring devices, it 
provides an exception for certain extraordinary circumstances when NEPA 
review is still required. The BLM currently applies CXs only when 
appropriate. Blanket use of CXs without regard for certain 
extraordinary circumstances, could significantly impact public health 
and the environment.
    The BLM believes the absence of an exemption for extraordinary 
circumstances may result in wind energy development that may pose a 
threat to aviation safety and to the environment. Under H.R. 2172, an 
exclusion from NEPA could preclude consideration of a condition such as 
the proposed height of a met tower that may have impacts on aviation 
operations and Federal Aviation Administration safety requirements, or 
could preclude consideration of potential bird impacts from guyed 
versus non-guyed met towers. An absolute exclusion from NEPA for 
weather monitoring and testing devices would be inconsistent with 
consideration of site specific environmental impacts for installations.
Conclusion
    Thank you for the opportunity to present testimony on these three 
pieces of legislation. The Department of the Interior looks forward to 
continuing its work toward standing up a renewable energy program and a 
portfolio of projects that reflect the incredible resource potential of 
America's public lands.
                                 ______
                                 
    Mr. Lamborn. Thank you. Mr. Holtrop.

           STATEMENT OF JOEL HOLTROP, DEPUTY CHIEF, 
                      U.S. FOREST SERVICE

    Mr. Holtrop. Mr. Chairman and members of the Subcommittee, 
thank you for the opportunity to share the agency's views on 
three renewable energy bills currently before you. Renewable 
energy plays an important role in strengthening America's 
energy independence and in fulfilling the agency's mission, and 
the Forest Service supports the goal of facilitating its 
development. We also acknowledge the need to streamline 
procedures for approving and implementing the development of 
these resources.
    In recent years, the Forest Service has addressed the 
challenge of contributing to the Nation's renewable energy 
needs in a multitude of ways. For example, we host over 16,000 
megawatts of installed hydropower generating capacity. In 
geothermal, we currently permit leases producing equivalent 
electricity for 60,000 homes. In wind energy, we have 15 active 
permits for testing sites and for solar, we have roughly three 
million acres of national forest system land that have been 
identified as suitable for solar energy development. Biomass 
energy production presents an especially important opportunity 
for us because biomass for energy can be a byproduct of most of 
our vegetation management work, including hazardous fuels 
reduction, habitat improvement, and timber production. In 
Fiscal Year '10, nearly 3.3 million green tons were harvested 
on national forest system lands for energy production.
    Carrying out these renewable energy efforts takes place 
under a complex body of requirements and policies that has 
evolved over decades, and we support efforts to achieve 
improvements in our process. However, the Forest Service cannot 
support the three bills before you today because we are 
concerned that the approaches they put forth could have 
unintended consequences that actually undermine progress toward 
these goals.
    Regarding H.R. 2171 and 2172, we note that geothermal and 
wind testing projects meeting the criteria for the proposed 
NEPA exclusion would also meet the eligibility criteria for 
existing categorical exclusions that the Forest Service is 
already authorized to use, and we have routinely used them to 
expedite projects of this nature. However, the provisions for 
categorical exclusions give us the discretion to undertake a 
more detailed analysis when certain conditions exist in the 
area, such as important cultural or archaeological sites or 
sensitive habitats. This helps us ensure necessary protections 
and gives us the opportunity to work with project proponents to 
improve their proposals when such concerns exist.
    On the other hand, the requirement proposed by these bills 
to exclude such analysis for all covered projects without 
exception could lead to unanticipated resource damage in some 
cases and increase the likelihood of litigation in many more. 
This would ultimately cause further complications and delays in 
our permitting process and could also increase resistance to 
efforts to promote renewable energy development. For these 
reasons, the Forest Service cannot support this legislation.
    H.R. 2170 poses similar concerns. Its proposed requirement 
to limit analysis for renewable energy proposals to only a 
single proposed action and a no-action alternative would 
mandate the broad use of shortcut procedures that frequently 
are not appropriate to apply. Currently, the agency has 
discretion to determine whether this proposed action, no-action 
approach is appropriate. The expectation remains that we are to 
analyze multiple alternatives, unless the proposed action, no-
action approach is justified. Indeed, it is our experience that 
analysis of multiple alternatives usually produces better 
decisions that garner greater acceptance across a broader range 
of stakeholders, and provides additional opportunities to work 
with proponents to improve environmental mitigations.
    Furthermore, we are concerned that broad prohibitions on 
analyzing or considering input on multiple alternatives may 
increase the likelihood of appeals and litigation, cause delays 
and implementation, or lead the agency to more frequently 
select the no-action alternative.
    We believe there are other approaches that would have 
greater promise for meeting the goals of facilitating renewable 
energy. One such alternative is to authorize the judicious use 
of categorical exclusions under specific circumstances, rather 
than the approach proposed in these bills requiring broader 
exclusions or limitations on NEPA more generally. Another 
approach is to expand the use of pre-decisional administrative 
review, which improves resolution of stakeholder concerns, 
produces better decisions, and gets more work done on the 
ground.
    Thank you for this opportunity to discuss proposals to 
improve the ability of the Forest Service to meet the Nation's 
renewable energy needs. I would be pleased to answer any 
questions you may have.
    [The prepared statement of Mr. Holtrop follow:]

 Statement of Joel Holtrop, Deputy Chief, National Forest System, U.S. 
Department of Agriculture, Forest Service, on H.R. 2170, H.R. 2171, and 
                               H.R. 2172

    Mr. Chairman, Members of the Subcommittee, I am Joel Holtrop, 
Deputy Chief of the U.S. Forest Service. Thank you for the opportunity 
to share the Agency's views on three renewable energy bills currently 
before you for consideration.
    Recognizing the important role that renewable energy can play in 
strengthening America's energy independence and in fulfilling the 
agency's mission, the USDA Forest Service (USFS) supports the goal of 
the proposed legislation to facilitate the development of renewable 
energy resources on lands within the National Forest System (NFS). We 
also acknowledge the need identified in these bills to streamline 
procedures for approving and implementing the development of these 
resources. However, we are concerned that the approaches contained in 
H.R. 2170, 2171 and 2172 could have unintended consequences that 
ultimately serve to undermine progress towards those goals.
    In recent years the USFS has addressed the challenge of 
contributing to the nation's renewable energy needs in a multitude of 
ways. Hydroelectric power, although not addressed by the proposed 
legislation, represents one of the agency's largest contributions to 
the nation's renewable energy needs: NFS lands host over 16,000 MW of 
installed hydropower generating capacity, the second most among federal 
agencies. Regarding geothermal power, as of April 2011 there were 137 
geothermal leases producing equivalent electricity for 60,000 homes on 
approximately 155,000 acres of NFS lands. In wind energy, as of May 
2011 the agency has received at least 18 inquiries for meteorological 
testing projects to explore wind energy production; of these, 11 
progressed to the proposal or application stage, and of those 11, five 
have gone on to receive permits while the remaining six are currently 
in processing. And for solar energy, although we have received no 
formal applications for utility or other large-scale commercial solar 
facilities to date, we do anticipate some applications for solar energy 
facilities in the future on some of the roughly 3 million acres of NFS 
land that have been identified as suitable for that purpose.
    Biomass energy production presents an especially important 
opportunity for the NFS to increase America's energy independence while 
also meeting many other objectives at the core of our mission, such as 
restoring healthy forests, supporting local economies and communities, 
and improving water quality. This is the case because biomass products 
are harvested for energy production in connection with vegetation 
management projects undertaken for a wide variety of purposes, 
including hazardous fuels reduction, habitat improvement, timber 
production, salvage, pre-commercial thinning, maintenance of roads, 
campgrounds, and various rights-of-way, and other purposes. In FY2010 
nearly 3.3 million green tons were harvested on NFS lands for energy 
production, in the form of small-diameter trees and shrubs, tree-
harvest debris and other woody plant matter.
    Approval and implementation of these renewable energy efforts, like 
that for most other USFS activities, takes place under a complex and 
wide-ranging body of requirements that has evolved over decades of 
legislative action, administrative policy and judicial review. In some 
cases, negative unintended effects of the accumulated direction 
continue to impact the agency's ability to fulfill its mission. We 
support efforts to achieve improvements in this respect. However, we 
are concerned that the approaches put forth in these bills could 
inadvertently lead to increased appeals, more frequent litigation, and 
missed opportunities for constructive input that will ultimately serve 
to undermine progress toward that goal. We believe other approaches 
have greater promise and we would welcome the opportunity to explore 
them further.
    I will now point out some specific concerns regarding the proposed 
legislation.
    H.R. 2171: H.R. 2171 would exclude ``the drilling of a well to test 
or explore for geothermal resources on lands leased by the Department 
of the Interior'' (DOI) from provisions of the National Environmental 
Policy Act of 1969 (NEPA) requiring preparation of an environmental 
impact statement. Projects would be excluded when they result in no 
more than 5 acres of total disturbance, require no new road 
construction, and are to be completed within 45 days including 
restoration of the site to pre-existing condition, among other 
criteria.
    In most cases, DOI's Bureau of Land Management (BLM) has the lead 
for preparing NEPA documentation for geothermal projects on NFS lands 
leased by the DOI, with the USFS participating as a cooperating agency. 
However, an interagency agreement pursuant to Section 225 of the Energy 
Policy Act of 2005 (P.L. 109-58) requires coordination between the two 
agencies on surface management issues relating to geothermal activities 
on NFS lands.
    As it applies to NFS lands, the projects meeting the criteria set 
forth in this legislation would also meet the eligibility criteria for 
an existing categorical exclusion (CE) from NEPA documentation 
requirements found at 36 CFR 220.6(e)(8), for short-term mineral, 
energy, or geophysical investigations, as long as specified 
extraordinary circumstances do not exist.
    We support the use of existing statutory and administrative CEs in 
situations where their application is determined to be appropriate. To 
help in making this determination, the regulations specify several 
resource conditions that the agency must consider in determining 
whether extraordinary circumstances warrant further analysis and 
documentation in an EA or EIS, and therefore preclude the use of a CE 
(36 CFR 220.6(b)). These provisions are important in helping to protect 
Congressionally designated special areas, Native American religious or 
cultural sites, archaeological sites, habitat for certain categories of 
sensitive, threatened or endangered species, and other special 
landscape features.
    Conversely, we are concerned that the proposed legislation would 
preclude the agency from documenting an EIS for any project meeting the 
specified criteria, thereby removing protections for extraordinary 
circumstances that are otherwise provided by the regulations for CEs 
and increasing the possibility of unanticipated resource damage. We 
also have a more general concern that broad-scale efforts to exclude or 
otherwise limit documentation of environmental analysis may generate 
uncertainty and skepticism that has a negative effect on stakeholder 
collaboration, increasing the likelihood of appeals and litigation as a 
result.
    Given the above concerns, we cannot support this bill and concur 
with the DOI position to oppose this bill.
    H.R. 2172: H.R. 2172 would exclude certain meteorological site 
testing and monitoring activities associated with wind and solar energy 
production from NEPA. Projects would be excluded when they result in no 
more than 5 acres of total disturbance, require minimal off-road access 
and no new road construction, and are to be decommissioned within 5 
years including restoration of the site to pre-existing condition, 
among other criteria.
    Projects meeting the criteria set forth in this legislation would 
also meet the eligibility criteria for an existing categorical 
exclusion (CE) from NEPA documentation requirements found at 36 CFR 
220.6(e)(3), as long as specified extraordinary circumstances do not 
exist. Approving the construction of a meteorological sampling site is 
explicitly mentioned as an example where this CE can be applied.
    As mentioned earlier, we support the use of existing statutory and 
administrative CEs in situations where their application is determined 
to be appropriate, including the regulations that help make that 
determination by specifying the extraordinary circumstances that 
preclude such use. These protections are helpful in many respects, 
including those that sometimes exist for wind testing proposals, like 
visual impacts from ridge top development and the potential impacts on 
migratory birds and bats.
    Similar to our concerns regarding H.R. 2171 above, a requirement to 
exclude documentation of environmental analysis may lead to 
unanticipated resource damage in some cases, and a chilling effect that 
increases the likelihood of appeals and litigation.
    The legislation also sets forth a requirement that issuance or 
denial of permits for such projects take place within 30 days after 
receipt of receiving an application, and that any denial clearly state 
the deficiencies resulting in that decision and provide opportunity for 
remedy. By contrast, USFS regulations at 36 CFR 251.58(c)(7) require 
grant or denial of an application such as this one that is subject to a 
processing fee within 60 days from receipt of the processing fee. This 
provision raises concerns about whether the proposed legislation's 
shorter timeline is consistent with agency capacity.
    Although we support the goal of streamlining procedures for 
development of renewable energy resources on NFS lands, we cannot 
support this bill given the above concerns.
    H.R. 2170: H.R. 2170 requires that a Federal agency shall consider 
and analyze only the proposed action and the ``no action'' alternative 
when reviewing any proposed renewable energy project on Federal lands, 
including proposals to produce energy from solar power, geothermal 
power, wind, biomass or other sources. The bill further requires, in 
complying with NEPA, that consideration of public comments be limited 
to those that specifically address the proposed action and/or the no 
action alternative rather than other potential alternatives.
    We acknowledge that there are cases where it can be appropriate to 
limit alternatives to a proposed action and no action alternative. 
Examples include certain land exchanges where a willing seller is 
interested in a specific parcel, or various types of special uses 
involving unique landscape attributes, or certain vegetation management 
projects where there is broad-based support for urgent action and an 
effective treatment clearly presents itself. In the latter case, 
legislation can play a critical role in establishing effective 
parameters that guide decisionmaking and maintain public support, as is 
the case with hazardous fuels projects and the Healthy Forests 
Restoration Act of 2003 (P.L. 108-148).
    However, in all these cases the agency has limited discretion to 
determine whether this approach is appropriate; the expectation remains 
that we are to analyze multiple alternatives unless the proposed-
action/no-action approach is deemed justifiable. Indeed, it is our 
experience that analysis of multiple alternatives often produces better 
decisions that garner greater acceptance across a broader range of 
stakeholders, and provides additional opportunities to work with 
proponents to improve environmental mitigations. Furthermore, we are 
concerned that broad prohibitions on analyzing or considering input on 
multiple alternatives may have a negative effect, generating 
uncertainty and skepticism that increases the likelihood of appeals and 
litigation. This can cause delays in implementation even if the agency 
position is most frequently upheld, or lead the agency to more 
frequently select the no-action alternative.
    Although we support the goal of streamlining procedures for 
development of renewable energy resources on NFS lands, we cannot 
support the proposed legislation given the above concerns.
    Conclusion: Thank you for this opportunity to discuss proposals to 
improve the ability of the U.S. Forest Service to meet the nation's 
renewable energy needs. This concludes my prepared statement, and I 
would be pleased to answer any questions you may have.
                                 ______
                                 
    Mr. Lamborn. All right. Thank you for your testimony, as 
well. We will now begin questioning. Members are limited to 
five minutes for their questions. I now recognize myself for 
five minutes for questions.
    Director Pool, you state that the Administration is opposed 
to H.R. 2170 because it would reduce to a yes or no question 
the decision about how and where to place renewable energy 
projects. The cost of draft environmental impact statements are 
beginning to exceed $7 million, which can be more than $10,000 
per page. This tremendous cost includes considering a 
reasonable range of alternatives.
    The problem facing renewable energy developers is that 
projects can go anywhere. There are 22 million acres, for 
instance, of solar resources in the Southwest and as a solar 
developer, most of those acres could be considered as a 
reasonable alternative. Can you tell the Committee how 
frequently BLM is sued about decisions based on inadequate 
consideration of reasonable alternatives?
    Mr. Pool. Yes. as it relates to litigation associated with 
our authorizations. What we have discovered, especially over 
the last several years, if we do quality work up front in 
response to the National Environmental Policy Act, and we have 
indeed improved upon our collaborative models, working with the 
proponent, working with the environmental community, working 
with state entities, county entities, the more work we do up 
front, where everybody is involved and have a great 
understanding as to what is being proposed, and I am referring 
to utility scale type applications on public lands, when they 
are at the table and they are being consulted and we value 
their input, and we do that quality work up front, then on the 
back end of these processes, it usually moves very 
expeditiously and we are less prone to litigation. If we fail 
to complete our requirements under the National Environmental 
Policy Act and other statutes, including the Endangered Species 
Act, the Bald Eagle Legal Protection Act, the National 
Environmental Historic Protection Act, among many others, that 
is when we become vulnerable to litigation.
    So, we have clearly demonstrated, I think, a good example 
under the Secretary's leadership, for the first time in public 
land history, we authorized last year nine utility scale solar 
projects in Nevada and California and we hope to approve 10 
more solar projects at the end of this fiscal year. The 
projects we approved last year was roughly 3,600 megawatts.
    So, I guess what I am saying, NEPA has been around for 
many, many years. It is what we utilize as a tool in 
authorizing all proposed actions on public lands. With each 
passing year, we learn more in terms of improving upon 
collaborative models. And we have discovered, these are public 
interest determinations. These are the American public's public 
lands. And so, we take into account very carefully their views, 
whatever segment of the society they represent: conservation, 
industrial development, other state, county considerations. 
When we take that information into account and weigh it very 
carefully, and it is the NEPA that guides us through those 
processes----
    Mr. Lamborn. OK, Mr. Pool, let us talk about alternatives--
--
    Mr. Pool. Yes.
    Mr. Lamborn.--the process of looking at alternatives. Of 
those nine projects that you just mentioned, how many of them 
are under construction and how may are still tied up in 
litigation?
    Mr. Pool. I do not have the exact dates on the 
construction. I would be glad----
    Mr. Lamborn. Is it three under construction, does that 
sound right, and six tied up in litigation?
    Mr. Pool. We have four tied up--under construction now.
    Mr. Lamborn. So the other five are tied up in litigation?
    Mr. Pool. I think that----
    Mr. Lamborn. The consideration of so-called reasonable 
alternatives.
    Mr. Pool. Oh, well, let me be specific about that. What a 
range of alternatives does, when we start scoping out with the 
proponents in what we call the pre-application phase, it gives 
us a preliminary indication in reference to our land-use plans 
and other scientific information that has been presented to BLM 
to look at the possible suitability of that project. Now, we 
are consulting much earlier than we used to do with the Fish 
and Wildlife Service and the Park Service because of visual 
proximities. What a range of alternatives affords BLM and 
working with the proponent is that we weigh the environmental 
analyses through a range of alternatives such that at the end 
of the process, when we evaluate the environmental impacts for 
each alternative and the needed mitigations, then we can 
extract from that range of alternatives to issue a record of 
decision.
    Mr. Lamborn. OK. Mr. Pool, that may be the theory, but the 
reality is that that is a loophole for people to bring lawsuits 
and tie things up for years.
    Mr. Pool. We do not view it that way, Chairman. What we 
have discovered with some of these recent projects, with 
everybody participating in the collaborative process, is that 
many times when we elect to approve these projects, taking into 
account the environmental analyses and the mitigations and 
working with the proponent, we have adjusted the configuration 
of some of these facilities. We have altered the project, the 
site locations, because the mitigations, as addressed in a 
range of alternatives, not just no action or proposed action, 
allows us greater utility, but working with the proponent, as 
well as the conservation community, and our state and county 
stakeholders to really give a full overview of that site 
consideration.
    So, in our view, by having a range of alternatives with 
public input affords us, I think, a much more sustainable 
decision on the tail end of the process. And in many cases, 
having a range of alternatives, we have made adjustments in 
terms of site locations. We have reconfigured, for example, the 
number of wind turbines.
    Mr. Lamborn. OK. Well, we have run out of time. Thank you 
for your answer.
    I would like to recognize the Ranking Member Mr. Holt for 
five minutes of questions.
    Mr. Holt. Thank you, Mr. Chairman. To move along, I would 
like to ask the witnesses just to answer briefly, maybe one 
word, if appropriate, because I wanted to get through a series 
of questions. Mr. Pool and Mr. Holtrop, the BLM and the Forest 
Service already have the authority to grant categorical 
exclusions under NEPA for site testing of wind and other 
renewable projects, is that correct?
    Mr. Pool. That is correct.
    Mr. Holtrop. Yes, that is correct.
    Mr. Holt. And Mr. Pool and Mr. Holtrop, it is my 
understanding that the BLM and the Forest Service have been 
exercising its authority to grant categorical exclusions. You 
have talked about this now in your testimony. How many 
categorical exclusions have been issued for wind-testing 
projects on BLM land since FY-08 versus projects that have gone 
through environmental assessment? It is about 80 percent, is it 
not?
    Mr. Pool. We have authorized about 149 CXs and about 32 
environmental assessments.
    Mr. Holt. So, yes, far more than three-quarters of them 
have.
    Mr. Pool. Right.
    Mr. Holt. Mr. Holtrop, how many categorical exclusions has 
the Forest Service issued for wind-testing projects?
    Mr. Holtrop. Fifteen out of 15 project proposals.
    Mr. Holt. And environmental assessment?
    Mr. Holtrop. To date, all of them have been used as a 
categorical exclusion.
    Mr. Holt. Mr. Pool, has the BLM required an environmental 
assessment for a solar site-testing application?
    Mr. Pool. A solar site-testing application?
    Mr. Holt. For solar. I think the answer is no.
    Mr. Pool. I was just going to say no, but I want to be 
sure.
    Mr. Holt. Yes, OK.
    Mr. Pool. My expert says no, too.
    Mr. Holt. So, you already have the authority to grant 
categorical exclusions. Now, H.R. 2172 would, in effect, then 
prevent your agencies from taking a more thorough look at a 
project when there are extraordinary circumstances. I believe 
that is what each of you has said, Mr. Pool and Mr. Holtrop.
    Mr. Pool. That is correct.
    Mr. Holtrop. That is correct.
    Mr. Holt. So, H.R. 2172 really is not only unnecessary, but 
might tie the Agencies' hands. Would you see it that way?
    Mr. Pool. I believe it would, yes.
    Mr. Holt. OK. Now the majority claims, Mr. Pool, that this 
legislation is necessary to streamline the permitting process 
for renewable energy. But, as you have said, and I just want to 
get this clearly in the record, if the legislation were 
enacted, could it not have the opposite effect and slow down or 
even prevent by leading the agency to select the no action 
alternative, even if with longer review, the project might have 
been approved?
    Mr. Pool. That is our position, yes, sir.
    Mr. Holt. Do you believe that H.R. 2170 would lead to more 
lawsuits and, hence, possible delays in renewable projects?
    Mr. Pool. I believe any action that would shortchange the 
NEPA process would indeed result in more lawsuits.
    Mr. Holt. OK. And I would comment that although some people 
want to avoid the comment period, the comment period actually 
is a way of avoiding lawsuits, but that is just my comment.
    Let me talk with Mr. Cruickshank for the minute-and-a-half 
that I have remaining, for the Bureau of Ocean Energy. The 
current system in place provides the agency can issue leases to 
companies, so that their claim is not jumped by other companies 
during the testing; is that correct?
    Mr. Cruickshank. That is correct.
    Mr. Holt. And the testing can cost millions of dollars, I 
believe.
    Mr. Cruickshank. Yes, that is true.
    Mr. Holt. So, 2173 appears to set up a wholly new process 
of permitting for site testing, which would appear to add an 
additional layer of permitting review for onshore--for 
offshore, I beg your pardon, renewable energy projects. Do you 
see it that way at the Bureau?
    Mr. Cruickshank. We would actually like to see some 
clarification on the bill. We think that is one likely 
interpretation, they would add an additional process to what we 
have in place now.
    Mr. Holt. So it could add actually additional hurdles. In 
the last few seconds that remain, Mr. Pool, would you care to 
talk about the importance of the public comment period, and do 
you find that useful to your agency in the environmental 
reviews you have had?
    Mr. Pool. Almost certainly. I think it is this wonderful 
opportunity the American public has. They can participate in 
the process, Congressman. Many of these projects are in close 
locations to their communities. It is not uncommon for them to 
express concerns about the visual resource impact in these 
rural areas. And so, it just affords them to express their 
views and we take those into consideration.
    Mr. Holt. Thank you.
    Mr. Pool. And it does create a much stronger decision 
process on the tail end.
    Mr. Lamborn. OK, thank you. I would like to recognize 
Representative Fleischmann of Tennessee.
    Mr. Fleischmann. Can you tell me what the Bureau of Land 
Management, BLM, is attempting to take in order to streamline 
the process?
    Mr. Pool. Congressman, usually in terms of when development 
on public land, the companies will come in and they will seek 
testing periods, so to speak, and what we call met towers. They 
will test the wind volumes typically a minimum of three years, 
could go longer. And then depending on the information that is 
recorded, then they make their determination as to whether or 
not they want to invest in that particular location.
    Let us assume that they do and then they will come back to 
the Bureau and they will file what is called a right-of-way 
application. Accompanying that is a plan of development, and 
this is more precisely, for example, how many turbines they 
would like to install in that particular area. We evaluate the 
proximity of that location in relationship to other laws. More 
recently, for example, with the passage of the Bald and Golden 
Eagle Protection Act, there are various guidelines that the 
Fish and Wildlife Service has issued. For eagles and wind 
turbines, there is a lot of compatibility in the same thermals 
that they both enjoy. But, our goal is not to create a high 
instance of take with wind turbines and the close proximity to 
eagle territories, a high density of nesting and, therefore, we 
work both with the proponents and we work with the Fish and 
Wildlife Service on those mitigations, so as to accommodate 
these projects within reason.
    Mr. Fleischmann. A follow-up question, and maybe Mr. 
Holtrop would like to also address this. My big concern is the 
lawsuits that sometimes will--often do--impede the process. Do 
either of you gentleman have any idea how much these delays 
cost companies that are trying to implement either wind energy 
or offshore wind?
    Mr. Pool. You know, I cannot quantify the delays. But, as I 
mentioned in my comments, that if we do some quality up front 
work with the proponents, with our other Federal agencies, in 
terms of these site locations, and we start to identify those 
resources conflicts and issues early on and we make other 
members of the public part of that process, through scoping, 
through public comment periods related to an EIS, we seem to be 
less prone to litigation, if we follow those steps: good 
environmental analyses, public input, and working with the 
proponent on these mitigations that I just mentioned earlier. 
And that is what the public desires to see. They do have value 
to input, both the conservation community, other state entities 
that we work with, and counties. So, we factor all of that in 
and we think if we really optimize the collaborative model 
along those lines, that we greatly reduce litigation risks.
    Mr. Holtrop. I would like to also add that I also am not 
able to quantify the effect from a time standpoint or an 
expense standpoint to the companies of these proponents that 
litigation would lead to and I am sure that it is significant. 
I am sure that there is an issue associated with that. I think, 
like my colleague, Mr. Pool, we are also interested in finding 
ways to avoid that whenever that is possible. I think the fact 
that there are litigation for projects such as this when that 
happens is reflective of the fact that we have a broad range of 
resources we are managing our public lands for, one of which is 
appropriate use of renewable energy resources. And we believe 
that the complexities of all of those values and resources that 
we are managing, we need to have that full set of tools 
available to us, to work with the public in an effective manner 
and in doing so, I think we can reduce the amount of litigation 
by engaging the public early on.
    Mr. Fleischmann. OK. I understand your positions, but both 
of you all would agree that these costs can be extremely 
burdensome on companies that are trying to invest and develop 
these technologies. I guess I am looking for a yes or no.
    Mr. Holtrop. I would assume that that is the case.
    Mr. Pool. Yes, I would assume that is true.
    Mr. Fleischmann. OK. Thank you, gentlemen. I yield back.
    Mr. Lamborn. Thank you. I would like to recognize the 
Ranking Member from Massachusetts for any questions he may 
have.
    Mr. Markey. Thank you, Mr. Chairman, very much. Mr. 
Cruickshank, the Outer Continental Shelf is a shared resource. 
As the bill's sponsor knows, the Navy uses the Virginia OCS 
extensively to practice maneuvers. There are many 
telecommunication's wires strung along the ocean floor there, 
as well. Planes fly through the area. Could not the time frames 
in this bill requiring the Interior to decide on a permit 
within 30 days potentially hinder consultation with the U.S. 
Navy, the Federal Communications Commission, the Federal 
Aviation Administration, and other agencies about whether the 
proposed site and structure could hinder the activities of 
those agencies?
    Mr. Cruickshank. Yes, sir. We believe 30 days is too short 
to allow us to fully consult with all of those agencies over 
what their concerns and issues might be.
    Mr. Markey. Now have you been talking to the Navy and the 
Federal Communications Commission about this provision at all, 
about this potential for having a deadline?
    Mr. Cruickshank. Not about this specific provisions as yet. 
We have just gotten the bill recently, so we have not worked 
through entirely. We have touched base briefly to know their 
concerns, but we have not gone into great depth with them yet.
    Mr. Markey. So there are basically just time constraints in 
terms of consultation, and 30 days is an awful lot of pressure 
to put on people to make a decision about the next century's 
use of an ocean off of a coastline of a state and I just think 
that it is an unrealistic time frame, which they are proposing.
    Now in his questions, the Chairman mentioned the number of 
lawsuits currently ongoing with renewable energy projects on 
public lands. Do these lawsuits halt the consideration process 
at your agencies? Mr. Pool?
    Mr. Pool. And let me just preface, if I may, Congressman, 
in reference to the Chairman's earlier question. We have had 
one injunction filed on just one of our solar projects. When 
people seek injunctive relief through a temporary restraining 
order, we adjudicate the merit of that TRO that has been filed 
and what is typically challenged is the quality of our NEPA 
process: did we consult with our Federal agencies, did we carry 
out our Native American consultations. And we feel very 
confident that for all of these projects, that we have clearly 
executed our responsibilities under the National Environmental 
Policy Act.
    Mr. Markey. Mr. Pool, if this bill was to become law and a 
geothermal test were to be proposed outside of Yellowstone Park 
that would tap the geothermal wells that produce Old Faithful 
and other famous geysers, would the Interior Department have 
grounds to review the project, as long as the project's 
technical specifications fit within the terms described within 
this bill?
    Mr. Pool. Oh, most certainly. Yes, we would evaluate any 
project, geothermal project, that may be in close proximity to 
Yellowstone or one of the BLM wellness areas or other park 
service units, so as not to impact those park attributes.
    Mr. Markey. Under current law. How about under the law they 
are proposing?
    Mr. Pool. I do not think it would work for us. I think the 
current system we have now, the laws we have in place would 
help facilitate the right decision.
    Mr. Markey. So what would this bill do, in terms of your 
ability to evaluate the impact on Old Faithful?
    Mr. Pool. I think the time frames are unrealistic, in terms 
of working through the NEPA process and the consultation 
process that we have before us.
    Mr. Markey. So if you had to make a decision in 30 days?
    Mr. Pool. That would be impossible.
    Mr. Markey. Impossible?
    Mr. Pool. Yes. Because of our consultation requirements, 
they currently are a regulatory standard for--environmental 
impact statement, for example, it is a minimum, minimum 45-day 
public comment period. And depending on the magnitude of the 
project, some of our utility scale solar projects, the company 
has actually come back and requested more time and we have 
granted up an additional 45 days, a full 90 days. And we think 
that we are honoring the public's request to further analyze 
all the information that has been provided and allow them to 
have information to be well informed and that is a good public 
process.
    Mr. Markey. So this bill could kill Old Faithful?
    Mr. Pool. Well----
    Mr. Markey. If there was a company that really wanted to 
drill and have their own geothermal, you would really have a 
tough----
    Mr. Lamborn. It is time for our next----
    Mr. Markey.--time to----
    Mr. Lamborn. It is time for our next witnesses.
    Mr. Markey. Anyway, I just thought that it is important for 
us to understand the consequences.
    Mr. Lamborn. OK. Mr. Thompson of Pennsylvania.
    Mr. Thompson. Thank you, Mr. Chairman. Thanks for putting 
this hearing together. Thank you, gentlemen, for your 
testimony.
    First of all, I want to get some clarification from you 
all, my colleague who just made some comments about century-
long impacts. And as I have read these three bills, I wanted to 
get yours, as you have read them, obviously, based on your 
comments, your interpretation. The way I read these bills, we 
are not talking about century-long impacts here. We are talking 
about temporary structures for measurement. We are not talking 
about permanent structures. So would you agree that we are not 
talking about things that have a century-long impact? We are 
talking about temporary structures for measurement within each 
of these three bills.
    Mr. Pool. That is correct, if you are referring to the 
testing, met towers, so to speak.
    Mr. Thompson. Correct.
    Mr. Pool. Yes. Oftentimes, Congressman, and as pointed out 
earlier, we have authorized 80 percent of those actions through 
what we call a categoric exclusion. I mean, the company just 
does not come in and get their freelance on public lands. Our 
goal is to work with them and find the right location for their 
met towers.
    Mr. Thompson. So, if you would, tell me the criterion for 
the--and 80 percent is impressive and actually 100 percent with 
the Forest Service, I think, is pretty impressive. It almost 
speaks to the support of these three bills, just not your 
words, but your actions of what you have done. Tell me about 
the 20 percent that have not been excluded from the NEPA?
    Mr. Pool. Those are what we call extraordinary 
circumstances and these are our departmental guidelines. We do 
not have full understanding of every acre of public land. We 
develop the land-use plans. We build in scientific information. 
But, given the 250 million acres that we manage, sometimes we 
lack additional on-the-ground data. So, oftentimes, when the 
company wants to place met towers, we will discover that they 
are in close proximity of critical habitats associated with 
wildlife species, we are trying to better conserve. There has 
been issues associated with the height of met towers that may 
conflict with Federal Aviation guidelines, may conflict with 
adjacent military installations when they conduct their aerial 
testing and training. There has been issues raised on some of 
these where the Native American community has raised concerns 
about sacred sites in that proximity. So based on that new 
information and to fully flush out getting that met tower 
placed, we will elevate that to a little bit higher 
environmental standard.
    Mr. Thompson. OK, thank you.
    Mr. Holtrop. If I could also?
    Mr. Thompson. OK.
    Mr. Holtrop. My interpretation of H.R. 2171 and 2172, 
referring to your first question, is the same as what you are 
interpreting it. These are for testing, for exploratory 
purposes. H.R. 2070, on the other hand, I think is intended to 
also apply to the development of these projects, and it could 
have long-term implications--at least that is my 
interpretation.
    And then also just like Mr. Pool, while for wind energy 
test projects, in all cases to date, we have been able to 
utilize the existing categorical exclusion. If there were 
extenuating circumstances, those would be the types of 
opportunities we would be looking for in needing to have the 
ability to do a more thorough analysis at that point, if there 
were those types of extenuating circumstances. To this date, 
that has not been the case.
    Mr. Thompson. I just want to kind of pursue this 
categorical exclusion from NEPA, which sounds like it is 
working and a good idea from your testimony. In 2009, the 
Forest Service specifically attempted to apply NEPA to oil and 
gas processes in the national forest, the Allegheny National 
Forest that I represent. Ninety-seven percent of it is--some 
service rights are privately owned and held, even though the 
State Department of Environmental Protection effectively and 
thoroughly has long maintained this process. To both panelists, 
do you believe that the Service or the BLM would attempt to 
further apply NEPA to other forms of energy production or 
frankly would--or is your success with this categorical 
exclusion from NEPA something you intend to apply to the search 
for the exploration in the production of other energy?
    Mr. Holtrop. The categorical exclusion is an exclusion from 
needing to document an environmental review in the form of an 
environmental impact statement or an environmental assessment. 
It is not authority to not do an environmental analysis of the 
project. It has to do with the documentation and review process 
needs that are associated with it. We have explicit categories 
that we have worked with the Council on Environmental Quality 
to determine what types of actions are authorized for us to 
utilize categorical exclusions for and if any type of project 
fits within one of those categories, we pursue that as an 
efficiency measure, if that is the appropriate way to go.
    Mr. Thompson. Thank you. Thank you, Mr. Chairman. My time 
has expired.
    Mr. Lamborn. All right, thank you. Mr. Gosar of Arizona.
    Dr. Gosar. Mr. Pool and Mr. Holtrop, give me a time frame 
for these processes with and without a categorical exclusion? 
Tell me the time frame from start to implementation.
    Mr. Pool. Congressman, for BLM, we have about 80 CXs we use 
for all of our programs and the application of those CXs can 
vary from one jurisdiction to the next, depending on the 
program activity. But, it is designed to accelerate the 
approval process. And my more recent example, for our 
geothermal activity, and Nevada is a big geothermal state, that 
we were able to process a CX in less than six weeks, for 
example.
    Dr. Gosar. So, from all processing, permitting, NEPA, six 
weeks?
    Mr. Pool. That is correct, because the extraordinary 
circumstances involve a variety of disciplines that we have in 
the field offices. It is not just one person and so----
    Dr. Gosar. And how are they subjective to litigation in 
those fast tracks?
    Mr. Pool. For CXs?
    Dr. Gosar. Yes.
    Mr. Pool. Not to my knowledge.
    Dr. Gosar. Forest Service, time frame?
    Mr. Holtrop. It is a broad question that you are asking.
    Dr. Gosar. We are going to define this very quickly.
    Mr. Holtrop. OK. So, if we are talking about wind energy 
proposals for the met towers, for just determining whether 
there is sufficient wind energy there for further development, 
of those projects that I have mentioned that we have used a 
categorical exclusion on, the length of time it has taken us to 
complete those projects has ranged to a little under two 
months, to usually done within a year's time and in one case, 
it took us 21 months and I believe that was because of 
iterations with the proponent.
    Dr. Gosar. When you said that you have fewer litigations 
when you do the proper analysis, particularly the NEPAs, talk 
to me about the time frame about the NEPAs. What is the average 
time frame with NEPAs going on right now, and is that 
satisfactory in your viewpoint? Is it salient to keep it the 
same way?
    Mr. Holtrop. We are generally able to complete an 
environmental assessment in an average time of less than a year 
and an environmental impact statement in about a year-and-a-
half. That is about how long it takes use on average for 
environmental impact statements and environmental assessments 
across all of the variety of programs that we have. Obviously, 
if there are some more complex issues that we are dealing with, 
with greater public interest, those tend to take a longer 
period of time.
    Dr. Gosar. Mr. Pool?
    Mr. Pool. Yes. It can vary; but usually on the high-level 
projects, we try to target an 18-month turnaround time; and 
that factors in a scoping period, a series of meetings, and 
working with the public. Sometimes the draft environmental 
impact statement can take several months to produce because the 
amount of information that is required, all of the scientific 
information, the analysis, the alternative analysis. Then, as I 
mentioned earlier, we will open up the EISs to a minimum of 45 
days and oftentimes the public will say, because of the volume 
of these documents, ``we need more time.'' Then from there, we 
develop the final EIS and then we prepare an ROD.
    And I just want to clarify one thing, Congressman. When you 
asked me about whether or not the CXs were open to litigation, 
I think anything that we authorize is subject to litigation.
    Dr. Gosar. Yes.
    Mr. Pool. What I wanted to say is that to my knowledge, and 
we have been using CXs at BLM for 30 years, I cannot reflect on 
any one time where we issued a CX that was litigated.
    Dr. Gosar. Well, I am just really curious because in 
Arizona, in District 1, the average NEPA life or the average 
time for a NEPA is 5.9 years. And so, I am getting some very 
different figures from you two gentlemen, because the process 
in Arizona, particularly in District 1, is broken and there is 
a problem, particularly when we are struggling to find out how 
extreme wings of environmental communities, who have not gotten 
along, actually using equal access to funding to justify filing 
litigation. And we would love to know what has been used for 
litigation in that kind of funding for litigations within all 
of these parameters that you are talking about. We would like 
to have a report on that.
    But, we are having a problem here and what I am hearing 
from you is not what is happening in real life, in real time, 
on the ground in my district. So, I would like to have better 
follow through as far as what is impeding our process out 
there, OK. Thank you.
    Mr. Holtrop. I would be more than happy to come and meet 
with you, if you would like. I would like to get to the bottom 
of that myself.
    Mr. Lamborn. All right. Now, I would like to recognize 
Representative Johnson of Ohio.
    Mr. Johnson. Thank you, Mr. Chairman. Thank you for holding 
this important hearing on these four bills that we are hopeful 
is going to cut through the bureaucratic red tape that is 
impeding our ability to unleash our renewable energy resources 
on Federal lands. You know, we have heard time and time again 
from this Committee, from companies that have wanted to go 
forward with renewable energy projects, but they cannot because 
of a flawed, failing permitting process. Interestingly, the 
Bureau of Land Management seemed to notice that red tape was 
getting in the way of these projects; so in order to ensure 
that the so-called stimulus program dollars would be spent on 
renewable projects, they created a fast-track program to get 
permits approved for these projects. Surprisingly though, only 
35 percent of these fast-track projects were able to be 
approved in time to receive the funding from the stimulus 
program. Go figure.
    Thankfully, these four bills cut to the heart of the 
problem and speed up the permitting process on Federal lands, 
so that we can get on about doing what the stimulus program was 
designed to do in the first place, which is create jobs and 
make America more energy secure. The U.S. Chamber of Commerce 
estimates that nearly 1.1 trillion in investments are currently 
being held up due to the permitting process. Now, granted, not 
all of these projects are on Federal lands, but a large portion 
of the held-up projects are. If the bureaucrats would get out 
of the way and allow these projects to go forward, nearly 1.9 
million jobs would be created. It is mind boggling to me that 
we are letting this private funding in the private sector sit 
on the sidelines, while unemployment hovers around 10 percent. 
Unfortunately, but not surprisingly, Mr. Pool, you testified 
today that BLM and the Department of the Interior are opposed 
to all four of these bills.
    Let me ask you my first question, Mr. Pool. Regarding BLM's 
decision to fast track certain projects in an effort to move 
the permitting process along and take advantage of the so-
called stimulus program, was there a formal process that BLM 
used to decide which projects qualified for the fast-track 
process and, if so, could you briefly describe that process?
    Mr. Pool. Yes, sir, I would be glad to do that. It is a 
two-way street, that the companies, based on the load centers 
in the United States, and California being one of the premiere 
load centers, that is where we had a lot of interest. We have 
had it for a number of years. Also, the State of California has 
a high renewable portfolio standard that the state has set 
through the state legislature. Other states do not have that. 
So that is one dynamic that really accelerates renewable 
development in California.
    In terms of accelerating the processes to the R funding and 
also the stimulus incentives that is available to industry, we 
really accelerated our hiring staff, we developed renewable 
project offices, and that helped us to really get geared up to 
help move forward in an expeditious way many of the 
environmental requirements, including various studies. So----
    Mr. Johnson. I am sorry for interrupting you, because we 
only have a limited amount of time. I am really not hearing 
much about the process, the formal process. I am hearing a lot 
of other stuff, but I am not hearing about the formal process 
that you went through to identify these projects. Would you 
agree that a 35 percent approval rate, given what the stimulus 
program was designed to do, is that in your mind acceptable?
    Mr. Pool. Well, as I mentioned earlier, industry has a lot 
of influence in terms of those priorities.
    Mr. Johnson. No. Is that acceptable? Do you think 35 
percent approval rating is acceptable?
    Mr. Pool. I think that what we achieved, this 
Administrative achieved in advancing renewable development on 
public lands was remarkable, as I mentioned earlier.
    Mr. Johnson. Is 35 percent approval rating on permits 
acceptable?
    Mr. Pool. I think it was a good----
    Mr. Johnson. That is a yes or no question, Mr. Pool.
    Mr. Pool. Well, I cannot----
    Mr. Johnson. Is it acceptable or not?
    Mr. Pool. Congressman, I do not know what 35 percent. I am 
just saying that what we have accomplished----
    Mr. Johnson. It is a good batting average, if you are 
playing baseball, but when you are talking about America's 
unemployment rate and energy security, I submit to you that it 
is not very good.
    Mr. Pool. And what I am trying to say is that that is an 
arrangement between the investments the company elect to make 
and when they elect to make it, in light of the stimulus 
funding, the added resources that we, BLM, were provided, to 
really accelerate these projects.
    Mr. Johnson. Well, I think the private sector has indicated 
their commitment to these investments; $1.1 trillion IN 
investments are being held up by this flawed permitting 
process. Mr. Chairman, I am out of time; but, hopefully, it 
will come back around again.
    Mr. Lamborn. That certainly could happen. At this point, I 
would like to recognize Mr. Labrador for five minutes.
    Mr. Labrador. Thank you, Mr. Chairman. Thanks for holding 
this hearing. Mr. Pool, you are here testifying against all 
four bills; correct?
    Mr. Pool. That is correct.
    Mr. Labrador. And I assume that you read the bills, 
correct?
    Mr. Pool. That is correct.
    Mr. Labrador. And you understand the bills?
    Mr. Pool. Yes.
    Mr. Labrador. So, we should probably trust your opinion, 
your analysis, and your conclusions on these bills, because you 
have actually read the bills and understand them; correct?
    Mr. Pool. Correct.
    Mr. Labrador. Well, you just had a colloquy with the 
Ranking Member earlier about my bill, which is H.R. 2171. And 
in his words, and you agreed with this, this bill would 
destroy--that we are attempting to destroy Old Faithful and you 
agreed with that, correct?
    Mr. Pool. Well, I am not sure if I really understood the 
Old Faithful analogy; but, in terms of, you know, authorizing 
and leasing for geothermal development of public land, we do 
take into account through the NEPA process adjacent provinces 
like Yellowstone and other critical environments.
    Mr. Labrador. But according to him, we would be drilling or 
we would be actually exploring on Old Faithful and you agreed 
with that. Now, let me just read part of the bill, because I am 
not sure that you have read it. According to the bill, the 
definition of a geothermal exploration test project, it means 
the drilling of a well to test or explore for geothermal 
resources on lands leased by the Department of the Interior, on 
lands leased by the Department of the Interior, for the 
development and production of geothermal resources. Also, the 
NEPA exclusion shall not apply with respect to a project that 
the NEPA shall not apply with respect to a project that the 
Secretary of the Interior determines under subjection C, which 
is a geothermal exploration test project. So a geothermal test 
exploration project has to be on lands leased, correct? Do you 
agree with that?
    Mr. Pool. That is correct.
    Mr. Labrador. So tell the Committee, is any land adjacent 
to Old Faithful currently leased by BLM?
    Mr. Pool. I do not know the proximity of any leased lands 
in Wyoming to Yellowstone currently. I do not have that 
information.
    Mr. Labrador. Thank you. So would the BLM lease lands that 
would impact Old Faithful?
    Mr. Pool. I do not think we would.
    Mr. Labrador. You do not think it. Then this bill, which 
only impacts lands leased for geothermal development, would 
have absolutely no impact on the case presented by the Ranking 
Member; correct?
    Mr. Pool. Would you state that again, please?
    Mr. Labrador. This bill would in no way affect any lands 
that are leased that are close--not that are leased, but that 
are close to or adjacent to Old Faithful; correct?
    Mr. Pool. Only based on the proximity of those leases that 
we have granted.
    Mr. Labrador. But there are currently no leases granted and 
you cannot foresee the BLM granting any leases, correct?
    Mr. Pool. We would not grant leases that would impact----
    Mr. Labrador. Old Faithful.
    Mr. Pool.--Yellowstone National Park.
    Mr. Labrador. So why in the world did you agree with the 
Ranking Member's characterization that this would actually 
impact Old Faithful?
    Mr. Pool. Well, I think it was in the context of the 
shorter time frame, you know.
    Mr. Labrador. No, he said that we are destroying, our plan 
is to destroy Old Faithful and you seemed to agree that this 
bill would destroy Old Faithful. Is that an accurate 
conclusion?
    Mr. Pool. My response was in the context of leasing and 
proximity of Yellowstone that would impair the values of 
Yellowstone is something we would not do.
    Mr. Labrador. It is not something you would do; but under 
my bill, it could not be done because it would have to be lands 
leased and you just told us that there are no lands leased at 
this time and that BLM would not lease any lands. So, I am 
having a hard time understanding how you----
    Mr. Pool. Well, let me clarify. We have a lot of lands 
currently under lease with geothermal development.
    Mr. Labrador. But none at Old Faithful--none that would 
impact Old Faithful, correct?
    Mr. Labrador. Or any other significant jurisdiction where 
we have high entries or space that need to be protected and 
conserved.
    Mr. Labrador. Thank you. So your conclusion and his 
conclusion were wrong and I am having a hard time understanding 
why would we trust anything else that is coming from you or 
from the other side. Thank you, very much.
    Mr. Pool. Congressman, I did want to clarify one point, if 
I may.
    Mr. Labrador. No, thank you.
    Mr. Pool. OK.
    Mr. Lamborn. We will now shift to Representative Landry of 
Louisiana.
    Mr. Landry. Mr. Chairman, I would yield the balance of my 
time to Mr. Johnson.
    Mr. Johnson. I thank my colleague for yielding. You know, I 
get so frustrated coming to these hearings and hearing the same 
rhetoric out of the Administration over and over and over 
again. Mr. Chairman, I may be new to Congress; but having been 
born and raised on the farm and spending 27 years in the 
military and being a businessman myself, somewhere along the 
way God gifted me with a little bit of commonsense. In the 
first 230 plus years of our Nation's history, we have been the 
Nation of innovation, ingenuity, seeing the glass as half full, 
and going after opportunities, but there is a disturbing 
pattern that I have noticed coming from this Administration and 
the Department of the Interior. It seems to me that from the 
top to the bottom, we have a culture of no. No permeates 
everything that this Administration and the Department does. No 
to unleashing America's natural resources. No to renewable 
energy projects. And no to energy independence and energy 
security.
    You know, I do not really have anymore questions because I 
do not think we are going to get any good answers. But, I thank 
the Chairman for bringing these important bills to the 
Committee and I look forward to voting in favor of them in the 
future. And with that, I want to yield back the balance of my 
time to Mr. Labrador. Do you have any other?
    Mr. Labrador. I do not have any other questions.
    Mr. Lamborn. OK. In that event, we will go to the gentleman 
from Texas, Mr. Flores, if he has any questions.
    Mr. Flores. I do not.
    Mr. Lamborn. OK. Then that concludes this panel. Thank you 
for being here. Thank you for your testimony. Thank you for the 
answers to the questions.
    [Witnesses excused.]
    Mr. Lamborn. I would like to invite up the second panel 
now, consisting of PJ Dougherty, Vice President of Helios 
Strategies; Chris Taylor, Chief Development Officer of Element 
Power; Paul Thomsen, Director of Policy and Business 
Development for Ormat Technologies, Inc.; Chase Huntley, 
Director of Renewable Energy Policy for the Wilderness Society; 
and Jim Lyons, Senior Director, Renewable Energy for Defenders 
of Wildlife.
    As you come forward, let me repeat what I said to the 
earlier panel. Your written testimony will appear in full in 
the hearing record, so I ask that you keep your oral statements 
to five minutes, as outlined in our invitation letter to you. 
Our microphones are not automatic, so that you have to activate 
them when you begin speaking. You have five minutes. After four 
minutes, the yellow light comes on and after five minutes, the 
red light comes on.
    At this point, I would like to ask Mr. Dougherty to begin. 
Thank you for being here.

          STATEMENT OF PJ DOUGHERTY, VICE PRESIDENT, 
                       HELIOS STRATEGIES

    Mr. Dougherty. Chairman Lamborn, Ranking Member Holt, other 
members of the Subcommittee, it is a pleasure to be here with 
you today to discuss the development and deployment of 
renewable energy technologies on Federal lands. Thank you, 
along with your staff, for your efforts on this legislation.
    I am currently employed with Strategic Marketing 
Innovations, Inc. It is a leading government relations and 
Federal marketing firm here in Washington. We represent 
numerous clients in the clean energy and renewable energy 
arena.
    My testimony is based on nearly 20 years as a senior 
official at the U.S. Department of Energy with the focus on 
clean energy technology development and practices. I also work 
very closely with other Federal and state agencies and industry 
across the country during my time at DOE. In general, these 
bills before us today would take a significant step toward 
increasing development of renewables on Federal lands. They are 
measured in their reach and scale to allow timely testing and 
resource assessments, while still ensuring protection of the 
environment. In short, these bills would add predictability to 
the clean energy project planning and development processes.
    However, I have several recommendations on how they could 
be improved, which are discussed in more detail in my written 
statement for the record. In relation to H.R. 2170, I would 
recommend adding language advocating for an adaptive management 
approach, similar to that contained in S-630, the Marine 
Hydrokinetic Renewable Energy Promotion Act of 2011, which is 
pending floor action in the Senate. This language would ensure 
the intent of H.R. 2170 as applied to how many different sizes 
of pilot projects across the different technologies. I would 
also recommend replacing tidal or kinetic forces with marine 
and hydrokinetic energy, which is the statutory definition used 
in EISA 2007 to refer to ocean, tidal, and wave technologies.
    In relation to H.R. 2171, I would recommend the 
Subcommittee work closely with the Department of Energy and the 
geothermal industry to determine if the well depth limit 
language is adequate to meet the goals of the legislation.
    In regards to H.R. 2172, this bill is noteworthy in that it 
would protect the data collected, plus protecting the 
investment of the project proposer. I would recommend the 
Subcommittee consider modifying this language to allow a two-
track system of data collection and disclosure based on whether 
or not Federal funds are used to collect that data.
    In relation to H.R. 2173, I would recommend the 
Subcommittee rename this bill the Offshore Renewable Testing 
Act, as it does include other technologies beyond offshore 
wind. The Subcommittee should also clarify that wave and ocean 
energy technologies are qualified under the definition of 
offshore energy resources and that the bill applies to the 
collection of water energy flows, as well as meteorological 
data.
    Finally, I would also recommend engaging the offshore wind 
development community and Department of Energy's wind and water 
program, to determine that the language related to areas 
affected at the seabed is adequate to achieve the goals of this 
legislation.
    While these bills will play a significant role in removing 
barriers to project development and spur investment, the 
Federal role, in my view, goes beyond regulation. It includes 
adopting proper policies, stimulating R&D investment, and 
making process improvements that stimulate a balanced energy 
portfolio. The combination of those three removes uncertainty 
from the market and sends a strong signal that the U.S. is and 
will remain a safe investment for innovative energy technology 
development, manufacturing, and project development, as well.
    Now, there are many players in this effort, including the 
Federal agencies and their dedicated staffs that have been 
working closely with industry, the utility sector, and many 
stakeholders across the country. Federal technology programs, 
particularly those at DOE, have directly supported the 
development and commercialization of new energy technologies, 
such as geothermal, solar, wind, biomass, and water 
technologies. Agencies like Department of Defense and USDA have 
also funded the development and deployment of renewable energy 
technologies for many, many years. Department of 
Transportation, Commerce, and the Interior have also 
contributed consistently over the years to the development and 
deployment of advanced energy technologies.
    In conclusion, the legislation discussed today would build 
on these efforts today to bring us steps closer to realizing 
stronger economy, a cleaner energy future, enhance national 
security, and strengthen U.S. leadership in the global energy 
marketplace.
    Thank you, again, for the opportunity to appear before you. 
I am happy to answer any questions.
    [The prepared statement of Mr. Dougherty follows:]

             Statement of P.J. Dougherty, Vice President, 
                    Strategic Marketing Innovations

    Chairman Hastings, Ranking Member Markey, and other members of the 
Subcommittee, it is my pleasure to appear before you today to give 
testimony on a series of bills put forth by the Committee to accelerate 
the deployment of renewable energy technologies on federal lands. Thank 
you, along with your staff, for your efforts on this legislation.
    My name is P.J. Dougherty, and I am a Vice President with Strategic 
Marketing Innovations Inc., a government relations and federal 
marketing firm in Washington, D.C. Our firm represents numerous clients 
in the renewable energy arena, including the Ocean Renewable Energy 
Coalition. The Ocean Renewable Energy Coalition is the only national 
trade association exclusively dedicated to promoting marine and 
hydrokinetic renewable energy technologies from clean, renewable ocean 
resources. Founded in April of 2005, the Coalition has grown to over 50 
members.
    I will be speaking today on how these bills could impact our 
nation's ability to accelerate renewable energy technology development, 
demonstration and deployment on federal lands. I will also share my 
thoughts on the role of the federal government as a whole in achieving 
our national energy, economic, environmental and national security 
goals.
    My testimony is based on nearly 20 years as a senior official at 
the U.S. Department of Energy (DOE), with a focus on clean energy 
technologies and practices. During my time at DOE, I served in a 
variety of positions, including Deputy Chief of Staff for the Office of 
Energy Efficiency and Renewable Energy, Acting Program Manager for the 
Wind and Water Power Program, and National Coordinator of the Wind 
Powering America Deployment Program. I also worked across the EERE 
portfolio to engage and coordinate with other agencies on overlapping 
mission areas, including the Departments of Agriculture, Commerce, 
Defense, Interior and Transportation.
Renewables Overview
    The U.S. is blessed with abundant renewable resources on public 
lands. According to the U.S. Department of the Interior's Bureau of 
Land Management, renewable resources on public lands are estimated to 
potentially generate 2.9 million MW of solar, 206,000 MW of wind, and 
39,000 MW of geothermal energy. While this entire resource is not 
likely to be developed in our lifetimes, it represents a game changer 
for our nation's energy, economic, environmental and national security. 
Clearly, renewable energy can play a significant role in expanding our 
homeland energy supply and the power needs of our military facilities 
around the world.
    Federal commitment to creating a robust U.S. renewable energy 
industry will advance our national economic goals by creating high-
quality employment in rural communities, new sources of revenues for 
all levels of government, long-term investment in supporting 
infrastructure, and strengthening the thousands of businesses that make 
up the U.S. energy and industrial supply chain. However, it will take a 
concentrated and committed effort combining investment in research and 
development, effective regulatory policies, and coordinated federal 
processes to make these goals a reality.
Proposed Legislation
    The bills before us today, as written, would take a significant 
step forward towards increasing the development of renewables on 
federal lands. The bills are measured in their reach and scaled to 
allow timely testing and resource assessments while still ensuring 
protection of the environment and our natural resources. In general, 
these critical first steps in developing any energy project would be 
advanced in a timely and predictable manner by removing a level of 
uncertainty that exists within today's numerous regulatory frameworks. 
This uncertainty is the primary disincentive to further public and 
private investment in the development and deployment of new energy 
generation technologies.
    I would like to offer some specific thoughts on each of the bills 
and then close by offering my opinion on the larger role of government 
in developing and deploying cleaner energy technologies.
H.R. 2170--Streamlining Federal Review to Facilitate Renewable Energy 
        Projects.
    H.R. 2170 aims to focus NEPA requirements on proposed energy 
projects in federal lands and waters. The bill would also set a 
reasonable limit on comment periods and provides clear definitions of 
qualified renewable technologies within the scope of H.R. 2170. While I 
believe the majority of project developers and investors would find 
reason to support this language, it may be subject to legislative and 
legal challenge by other interested stakeholders. The Subcommittee may 
want to consider adding language advocating for an adaptive management 
approach similar to that contained in S.630, the Marine and 
Hydrokinetic Renewable Energy Promotion Act of 2011, which is pending 
floor action in the Senate. This language would ensure the intent of 
H.R. 2170 is applied to accommodate different sizes of pilot projects 
across technologies. The Subcommittee should also consider replacing 
``tidal or kinetic forces'' with ``marine and hydrokinetic energy,'' 
the statutory definition used in EISA 2007 to refer to ocean, tidal, 
and wave technologies.
H.R. 2171--Promoting the Timely Exploration of Geothermal Resources 
        under Existing Geothermal Leases.
    H.R. 2171 seeks to ease the regulatory burdens related to 
geothermal resource assessments to those tests and explorations that 
are very limited in areas affected and overall scope. The bill also 
sets timetables for federal officials to act on applications and would 
focus the consideration of NEPA requirements. H.R. 2171 is a reasonable 
fix given its limited scope. However, I would recommend the 
Subcommittee work closely with the Department of Energy and the 
geothermal industry to determine if the well depth limit under Sec. 2 
(a)(3)(A) is adequate to meet the goals of the legislation.
H.R. 2172--Facilitate the Development of Wind Energy Resources on 
        Federal Lands.
    H.R. 2172 is focused primarily on allowing installation of onshore 
wind resource assessment equipment with provisions similar to H.R. 2171 
regarding NEPA requirements scaled to project impact size and scope. 
The bill would also protect the data collected, thus protecting the 
investment of the project proposer. I would recommend the Subcommittee 
consider modifying this language to allow a two track system of data 
collection and disclosure, based on whether or not federal funds are 
used to collect the data.
H.R. 2173--Facilitate the Development of Offshore Wind Energy 
        Resources.
    H.R. 2173 is focused on allowing installation of offshore wind and 
other renewable resource assessment equipment and mirrors the 
provisions contained in H.R. 2171 and H.R. 2172. It also prescribes the 
process for decommissioning of testing equipment and remediation of 
affected areas, refocuses NEPA requirements given scale and scope, and 
sets timetables for federal officials to act on applications for 
resource assessments. The bill also protects data collected as in H.R. 
2172. While I would recommend the Subcommittee adopt this provision, 
the Subcommittee may wish to rename this bill the Offshore Renewable 
Testing Act, as it does include other technologies beyond offshore 
wind, including marine hydrokinetic energy technologies. The 
Subcommittee may also want to clarify that wave and ocean energy 
technologies are qualified under the definition of offshore energy 
resources and that the bill applies to collection of water energy flows 
as well as meteorological data. Finally, I would also recommend 
engaging the offshore wind development community and the Department of 
Energy's Wind Program to determine if the language under Sec. 2 (a) (1) 
(B) related to areas affected at the seabed is adequate to achieve the 
goals of the legislation.
Larger Federal Role in Renewable Energy Development
    While I believe these bills would play as significant role in 
removing barriers to project development and spur investment, the 
federal role goes beyond streamlining the regulatory regime. It 
includes ensuring a balanced investment in developing, testing and 
deploying advanced technologies as well as ensuring a clear, timely and 
predictable process for permitting and siting projects. The combination 
of proper policies, R&D investment, and process improvements are the 
key elements to demonstrate a national commitment to a balanced energy 
portfolio that utilizes our homeland resources. The combination also 
removes uncertainty from the market and sends a strong signal that the 
U.S. is and will remain a safe investment for innovative technology 
development, manufacturing and project development.
    I would like to touch further on the important role the federal 
agencies and their dedicated staffs are playing in the renewable energy 
arena. To do so, I will borrow some language previously used in 
testimony in 2009 by James Dehlsen, father of the U.S. wind industry, 
and with whom I have had the honor of working with and for over the 
past few years.
    First, the federal technology programs, particularly those at DOE, 
have over their 30-year history directly enabled the development and 
commercialization of new energy technologies such as geothermal, solar, 
biomass, wind and marine hydrokinetics. The Department's management--
political and career--and the technical experts at headquarters and the 
national laboratories can take much of the credit for helping to create 
today's global renewable industries. They closely collaborated with the 
emerging industry players to understand, and then mitigate risk; they 
requested the funds necessary to research, develop and demonstrate new 
technologies; they shared the pride when technology achieved commercial 
success and gritted through the setbacks along the way; and they 
promoted the new technologies, within the government, as well as the 
nation's utilities, and their consumers. They helped launch major 
industrial activity and large-scale renewable power generation.
    Second, the Departments of Defense and USDA have both funded the 
development and deployment of renewable energy technologies for many 
years. They have also been in the forefront in recognizing the benefits 
to not only their mission areas but the nation and world in developing 
substitutes for fossil fuels for transportation as well as using 
homeland resources to generate electricity. DOD in particular has 
voiced the danger to their critical mission areas and, more important, 
their men and women in uniform, from continued reliance on non-
renewable fuels, particularly in combat areas and forward operating 
bases.
    Third, many other federal and state agencies have also played and 
will continue to play a significant role in the success we have made to 
date in alternative energy technologies. DOT/FAA, Commerce's NOAA and 
NTIA, USDA's Forest Service and many state energy and economic 
development offices have also contributed consistently over the years 
to developing our cleaner energy technologies. These partnerships, 
along with the U.S. generation, transmission and distribution 
industries, are all necessary to our success.
    The legislation discussed today will build on these efforts to date 
and bring us steps closer to realizing a stronger economy, cleaner 
energy future, enhanced national securing and strengthened U.S. 
leadership in the global energy marketplace.
    Thank you again for the opportunity to appear before you today and 
I am happy to take your questions.
                                 ______
                                 
    Mr. Lamborn. Thank you. Mr. Taylor?

 STATEMENT OF CHRIS TAYLOR, CHIEF DEVELOPMENT OFFICER, ELEMENT 
    POWER, TESTIFYING ON BEHALF OF THE AMERICAN WIND ENERGY 
                          ASSOCIATION

    Mr. Taylor. Thank you, very much, Chairman, Ranking Member. 
I appreciate the opportunity to testify today. My name is Chris 
Taylor. I am the Chief Development Officer of Element Power. We 
are a global wind and solar development operation company with 
headquarters in Portland, Oregon. I am also here representing 
the American Wind Energy Association.
    As we had testified before this Committee back on June 1st, 
far and away the biggest challenge our industry is facing 
today, right now, is the looming expiration of Federal tax 
incentives for renewable energy, as well as the lack of 
progress on the demand side policy, such as renewable energy 
standards and we certainly look forward to talking about the 
benefits of these bills and what they would do. But, it is 
important to note that any change in siting projects on public 
land will not result in the full utilization of our Nation's 
renewable potential unless we also have policy action on the 
incentive and demand side.
    With respect to the bills under consideration today, in 
AWEA's testimony two weeks ago, we suggested that the Committee 
consider legislation that would provide categorical exclusions 
for temporary met towers to test wind speeds. BLM's current 
wind energy development policy, which I do want to note, we 
think, in general, is well drafted and BLM, in general, has 
been a good agency to work with. There are some exceptions, 
which I am about to talk about; but, overall, have been 
supportive. They do currently allow for categorical exclusions. 
However, as you heard today, a significant percentage of those 
met tower applications are not being processed that way. I 
guess I have a high number of my projects that are in the 32 
that went through the full EA and we feel that this is an 
unnecessary waste of resources.
    The issue really has to do with inconsistent application at 
the field office level. However. some offices routinely require 
EAs, while others routinely use the CATX<plus-minus>, and in 
rare cases, we are even asked for a full EIS. So, we very much 
appreciate the introduction of H.R. 2172 by Representative 
Noem; and as long as met towers meet certain conditions spelled 
out in the bill, such as limiting road building, we think that 
using the categorical exclusion makes sense. We thank the 
Representative for her leadership on this issue.
    We do believe that the met tower application process can be 
improved within the confines of NEPA. We support providing 
CATX's, except in cases where ``extraordinary circumstances are 
present,'' as described in the existing regs, and we think this 
would be providing an appropriate balance between the need to 
support development and the protection of natural resources.
    I have a few specific examples here. It is hard to see, I 
know, for you up on the bench there, but this is a picture of 
one of the sites where we had to perform a full EA. We had to 
take the equipment in. We had to have a week's worth of Native 
American monitors, archaeological monitors, biological 
monitors. As you can see, there is not a plant to be found at 
this site. There is an existing track. You can see the two 
tracks to the left of the tower. That piece of junk in the 
front was there when we got there. We did not bring that, but 
there is an existing ``trail'' going up there. We could not 
drive on that. We had to carry the equipment on our backs. This 
is an area that is opened to OHV use. In fact, some OHV guys 
came up and said, <plus-minus><plus-minus>what are you guys 
doing carrying that stuff,'' as they zoomed off to recreate.
    So, this is a fairly egregious example. I don't want to 
represent this as typical or the norm for BLM, but these are 
some of the examples that we run into. Having some legislation 
that is black and white, that we can wave around to say this is 
crazy, would be helpful to us.
    We are also being asked to monitor. This gives you the idea 
of what a met tower is. That is a four-by--that piece of metal 
at the bottom is much smaller than this table we are sitting 
at. We are not talking about a lot of ground disturbance, but 
they are requiring us to use literally shovels to dig out the 
holes to stick in the anchors, rather than an auger, which also 
seems a little unnecessary. And we are being asked to monitor 
this, have someone walk out there, because you cannot drive out 
there to look and see if any birds have run into this six-inch 
pole, which we certainly support for wind projects; but for a 
met tower, it is a little crazy.
    I also want to point out the two other issues I want to 
bring out--the BLM using more discretion, and how they 
incorporate comments from other agencies. Sometimes a comment 
from a relatively low-level field biologist from the U.S. Fish 
and Wildlife Service that is not even official policy of the 
agency, is not based on science, suddenly becomes virtually the 
word of God and it is adopted by BLM as such and we are forced 
to comply with that, even when there is no reason to do so. I 
think that policy can be strengthened.
    Last, with respect to the builds and alternatives analysis, 
we do share some concerns that the other witnesses mentioned 
about potential unintended consequences of increasing 
litigation. But, I think we could restrict the geographic scope 
of these and the credibility of these alternatives. They should 
be things that are actually likely to get build, that are 
actually moving forward, not just something somebody uttered 
once one day that are not credible proposals.
    Finally, cumulative effects analysis is another area where 
currently the process is skewed because we are forced to look 
at every project that has ever been proposed, not just those 
that appear to be moving forward that actually have a plan of 
development on file, that actually have an interconnection 
request on file, et cetera.
    So by limiting the scope of both the alternatives analysis 
and the cumulative effects analysis, we think those are 
important and we do not want to get rid of those, but they 
could be done in a way that is a little more reasonable and a 
little more limited to what is likely to actually happen, and 
we would really like to work with the Committee and other 
stakeholders to implement those.
    Thank you.
    [The prepared statement of Mr. Taylor follows:]

Statement of Chris Taylor, Chief Development Officer, Element Power, on 
  behalf of the American Wind Energy Association, on H.R. 2170, H.R. 
                     2171, H.R. 2172 and H.R. 2173

    Subcommittee Chairman Lamborn, Subcommittee Ranking Member Holt and 
other members of the Subcommittee, thank you for the opportunity to 
testify today.
    My name is Chris Taylor. I am Chief Development Officer for Element 
Power. Element Power is a global wind and solar energy development 
company with U.S. headquarters in Portland, Oregon and regional offices 
in California, Minnesota and Virginia. Element Power has wind energy 
projects under construction or in operation in both the U.S. and Europe 
and thousands of megawatts (MWs) of wind energy projects under 
development across the United States, including eight proposed wind 
projects on BLM-owned land. I oversee the development of all of our 
wind and solar energy projects in North America.
    I am testifying on behalf of the American Wind Energy Association 
(AWEA), where I currently serve on AWEA's Siting Committee Steering 
Committee.
    AWEA is the national trade association representing a broad range 
of entities with a common interest in encouraging the deployment and 
expansion of wind energy resources in the United States. AWEA members 
include wind turbine manufacturers, component suppliers, project 
developers, project owners and operators, financiers, researchers, 
renewable energy supporters, utilities, marketers, customers and their 
advocates.
    As AWEA testified before the full committee on June 1st, far and 
away the biggest challenging facing the wind energy industry right now 
is the lack of stable federal policy support, namely long-term 
financial incentives and a demand-side policy like a clean or renewable 
electricity standard.
    I recognize that these issues do not fall within the jurisdiction 
of this Committee. However, it needs to be clear that any changes that 
are made to make it easier to site projects on public lands will be of 
limited use if projects aren't able to be built because federal tax 
incentives, including the production tax credit and investment tax 
credit, expire for wind energy next year or because the lack of demand-
side policies limit the market for renewable energy.
    With respect to the specific bills under consideration today, in 
AWEA's testimony two weeks ago, we suggested the Committee consider 
legislation providing categorical exclusions for temporary 
meteorological towers to test wind speeds. BLM's wind energy 
development policy current allows categorical exclusions, but the 
option is inconsistently applied at the field office level. Some 
offices often require an environmental assessment (EA) for these 
temporary towers, which leave no permanent site disturbance. In rare 
cases, we are asked for a full-scale environmental impact statement 
(EIS).
    We appreciate the introduction of H.R. 2172 by Representative Noem, 
which would exempt met tower applications from the National 
Environmental Policy Act (NEPA) as long as the application meets 
certain conditions spelled out in the bill, such as limiting road 
building and soil and vegetation disruption. We thank Representative 
Noem for her leadership on this issue.
    AWEA believes the met tower application process can be improved 
within the confines of NEPA. We support providing categorical 
exclusions except in cases where extraordinary circumstances are 
present as described in existing regulations. This would provide an 
appropriate balance between the need to support development as well as 
protect natural resources.
    I have a few examples to share of requirements applied to met tower 
installations that add unnecessary time and expense to the process. My 
company has been required to hire environmental specialists to survey 
an area prior to construction and then the same specialists, often 
multiple individuals, are required to be on-site during the entire 
installation, which can take up to a week.
    We are also required to haul equipment to the site by foot or 
helicopter and install met towers without the use of machinery in areas 
with high OHV use. In one case the installers were approached by OHV 
drivers while carrying met tower equipment to an installation site. 
These examples highlight how the renewable energy industry is held to a 
higher standard than other uses on BLM lands.
    AWEA is also concerned that the BLM does not use enough discretion 
when applying the recommendations of cooperating agencies like the U.S. 
Fish and Wildlife Service (USFWS) in the NEPA process. Often times 
right-of-way (ROW) applications are held up by the USFWS commenting and 
then requirements for evaluation and mitigation are applied without any 
existing scientific data to support the suggested impacts.
    With respect to H.R. 2170, introduced by Chairman Hastings, AWEA 
appreciates the Committee's interest and leadership in attempting to 
make NEPA more manageable from a development perspective. There is no 
doubt that getting through the alternatives analysis process can be 
difficult and add a lot of additional cost and time to the NEPA 
process.
    However, AWEA is concerned that limiting analysis to only the 
proposed project and a single no project alternative could have the 
unintended consequence of more agency decisions rejecting projects. By 
limiting the flexibility to consider alternatives, including relatively 
modest adjustments, such as relocating a road or a turbine or two that 
might be considered by the agency too close to a resource of concern, 
out of an abundance of caution the agency may just say no.
    We are also concerned that limiting the alternatives analysis could 
have the perverse effect of increasing litigation, as affirmative 
decisions are targeted for not being protective enough of resources. It 
would be difficult to demonstrate otherwise in court without analysis 
to which to point.
    That said, in the spirit of the Chairman's interest in streamlining 
the NEPA process, clarifications of requirements for the alternatives 
analysis would be helpful. For example, it is reasonable that 
alternatives to be analyzed should be economically and technically 
feasible. Additionally, alternatives analyzed should be limited to a 
reasonable number of alternatives focusing on potential environmental 
impacts identified during site specific field studies. Similarly, a 
geographic limitation on alternatives to be considered would help 
ensure the alternatives are in fact reasonable.
    AWEA also believes it would be helpful to better define cumulative 
effects analysis. BLM and the USFWS require analysis of a variety of 
projects that are unlikely ever to be built (due to a lack of 
transmission, market, adequate wind resource or other key factors), 
which skews the analysis by implying a far higher degree of cumulative 
impact that is likely to actually occur. Today, cumulative effects 
analysis includes projects that have merely submitted a ROW application 
or have even just begun wind measurement. These thresholds need to be 
strengthened so only those projects that are truly likely to come to 
fruition are analyzed.
    AWEA would be interested in working with this Committee, the 
Department of the Interior and other stakeholders to discuss what 
sideboards on alternatives and cumulative effects analyses might be 
helpful while still balancing preservation of our nation's resources.
    Thank you again for the opportunity. I am happy to answer any 
questions you may have.
                                 ______
                                 
    Mr. Lamborn. OK, thank you. Mr. Thomsen?

  STATEMENT OF PAUL THOMSEN, DIRECTOR OF POLICY AND BUSINESS 
             DEVELOPMENT, ORMAT TECHNOLOGIES, INC.

    Mr. Thomsen. Thank you, Mr. Chairman, distinguished members 
of the Committee. It is my honor to testify today on behalf of 
Ormat Technologies. My name is Paul Thomsen and I am the 
Director of Policy and Business Development and I am also the 
President of the Geothermal Energy Association. I would like to 
make note that the Geothermal Energy Association did submit a 
letter of support for H.R. 2171.
    Ormat Technologies is a world leader in the geothermal 
power plant sector. The company has four decades of experience 
and is responsible for the development of over 1,000 megawatts 
of geothermal generation throughout the world and over 400 
megawatts of generation in the United States. Important to this 
hearing is the fact that Ormat is engaged in the largest effort 
undertaken by a single company within the last 20 years to 
categorize, map, sample, and drill green field geothermal 
prospects in the United States.
    The U.S. Geological Survey has estimated that the 
geothermal industry has the potential to generate 39,000 
megawatts of electricity in the United States using existing 
technologies. This sort of potential is remarkable and can even 
be used reliably to power state capitals, such as Idaho's state 
capital in Boise, which has been using geothermal power since 
1982. Today, 144 projects are estimated to be under some form 
of development in the United States and are projected to 
produce 624,000 construction jobs, if permitting that work can 
be done efficiently. These 144 projects will require $26 
billion in capital over the next five years, with approximately 
50 percent allocated to the exploration and drilling phases to 
develop these projects.
    In order to open the capital markets to develop these 
projects, the U.S. must commit to finding permitting solutions 
that support greater development activity. H.R. 2171, Exploring 
for Geothermal Energy on Federal Lands Act, supports greater 
geothermal development by clearly defining and enhancing the 
existing categorical exclusion policy and setting time lines 
that create accountability and remove the uncertainty from the 
NEPA process. This bill does this by limiting the size of the 
disturbance, the time allowed at the site, and the time 
required to respond to the notice of intent, all of which are 
not currently regulated under the existing CX. This removes 
much of the subjective nature of the current process, allowing 
for BLM staff to be more confident in their decisions and allow 
developers to know in a timely manner if their exploration 
efforts will be granted a CX.
    We believe H.R. 2171 falls in line with the BLM and DOE's 
focus on exploration and development on Federal lands. As noted 
earlier, the Energy Policy Act of 2005 was designed to promote 
and streamline domestic renewable energy production. This is 
evident to Ormat in the superior work of Director Bob Abbey, 
who hails from Nevada as their former state director, and our 
Acting Director, Amy Lueders, who have worked tirelessly with 
our industry to shepherd projects through the EA and EIS 
process in a timely manner.
    A DOE blue ribbon panel recently recommended that the DOE 
geothermal program also focus on locating geothermal resources, 
and in the near term they suggested using rapid recognizance 
surveys, surface exploration, and temperature gradient 
drilling. DOE will be better able to do this work under the 
provisions of this bill.
    For those that might be worried that a developer might CX 
its way through the regulatory process, you need not worry. 
BLM's geothermal regulations govern the various stages or 
phases of project development, including exploration 
operations, drilling operations, utilization operations, and 
finally commercial operations. At each phase, the project 
proponent submits separate applications to conduct operations, 
which correspond to the development phase. The information 
needed to access potential and environmental increases in 
detail and focus, as the intensity of the use moves from 
exploration phase to an energy facility operation phase.
    In December of 2008, BLM issued an instructional 
memorandum, which provided guidance for the approval of a 
notice of intent to conduct geophysical explorations with no 
road construction by means of a CX. The BLM did this after 
reviewing 244 geophysical exploration projects and determining 
that geophysical exploration operations that do not include the 
construction of a road do not individually or cumulatively have 
a significant impact on the human environment.
    H.R. 2171, the Exploring for Geothermal Energy on Federal 
Lands Act, supports greater geothermal development by clearly 
defining and enhancing the existing CX policy and setting time 
lines that create accountability and remove uncertainty from 
the NEPA process.
    That concludes my statements. Thank you, very much.
    [The prepared statement of Mr. Thomsen follows:]

     Statement of Paul A. Thomsen, Director of Policy and Business 
          Development, Ormat Technologies, Inc., on H.R. 2171

    Mr. Chairman, members of the committee, it is my honor to testify 
today on behalf of Ormat Technologies regarding H.R. 2171.
    Ormat Technologies is a world leader in the geothermal power plant 
sector. The company has four decades of experience in the development 
of state of the art, environmentally sound power solutions, primarily 
in geothermal and recovered energy generation. Ormat is responsible for 
the development of over 1,000 MW of geothermal generation throughout 
the world and over 400 MW of generation in the United States.
EXPANDING THE GEOTHERMAL FOOTPRINT:
    Geothermal electrical generation is a baseload renewable energy 
source that uses heat from the earth to create electricity. Baseload 
means that it's a power source that is constantly producing energy, 
just like fossil fuel combustion, but clean and renewable--and a 
renewable that doesn't rely on the wind to blow or the sun to shine. 
The U.S. Geological Survey estimated the geothermal industry has the 
potential to generate 39,000 MW of electricity in the United States 
using existing technologies.\1\ This sort of potential is remarkable 
and can even be used to reliably power State Capitols such as Idaho's 
State Capitol in Boise, which has been using geothermal heat since 
1982! We congratulate the State of Idaho for its vision and use of this 
remarkable, clean and reliable renewable source of energy.
---------------------------------------------------------------------------
    \1\ http://pubs.usgs.gov/fs/2008/3082/pdf/fs2008-3082.pdf
---------------------------------------------------------------------------
    Today, 144 projects estimated to be under development in the United 
States \2\ are projected to produce 624,000 construction jobs if 
permitting the work can be done efficiently. These 144 projects will 
require $26 billion in capital over the next five years with 
approximately 50 percent allocated to exploration and drilling phases. 
In order to open the capital markets to develop these projects, the 
U.S. must commit to finding permitting solutions that support greater 
development activity.
---------------------------------------------------------------------------
    \2\ http://www.geo-energy.org/reports/
GEA_January_Update__Special_Edition_Final.pdf
---------------------------------------------------------------------------
    H.R. 2171 ``(the) Exploring for Geothermal Energy on Federal Lands 
Act'' supports greater geothermal development by clearly defining and 
enhancing the existing Categorical Exclusion (CX) policy and setting 
timelines that create accountability and remove the uncertainty from 
the NEPA process
    BLM and DOE recognize the importance of permitting and exploration 
on Federal Lands:
        <bullet>  Energy Policy Act of 2005--The Energy Policy Act of 
        2005 (``EPAct 2005'')\3\ was designed to promote and streamline 
        domestic renewable energy production. It also includes 
        provisions specifically aimed at making geothermal energy more 
        competitive with fossil fuels.\4\
---------------------------------------------------------------------------
    \3\ Pub.L. 109-58.
    \4\ See EPAct 2005 Sec. Sec. 221-237.
---------------------------------------------------------------------------
        <bullet>  Implementing Statements and Directives--Consistent 
        with the mandate to encourage renewable energy development 
        contained in the EPAct of 2005, the Department of the Interior 
        (``DOI'') has taken steps to make the production, development, 
        and delivery of renewable energy top priority.\5\ Furthermore, 
        BLM's 19 Priority Renewable Energy Projects for 2011 include 
        five geothermal projects throughout the western U.S.\6\
---------------------------------------------------------------------------
    \5\ BLM News Release, Secretary Salazar Issues Order to Spur 
Renewable Energy Development on U.S. Public Lands (March 11, 2009), 
available at http://www.blm.gov/wo/st/en/info/newsroom.html.
    \6\ BLM News Release, BLM Announces 2011 Priority Renewable Energy 
Projects (March 8, 2011), available at http://www.blm.gov/wo/st/en/
info/newsroom.html.
---------------------------------------------------------------------------
        <bullet>  The DOE Blue Ribbon Panel--The U.S. Geological Survey 
        estimated in 2008 that 30 GWe of undiscovered geothermal 
        resources could be found in the western United States.\7\ The 
        panel recommended that the DOE geothermal program focus on 
        locating these resources in the near term using rapid 
        reconnaissance surveys, surface exploration, stress 
        measurements, fracture mapping, temperature gradient drilling 
        or even cost-shared exploration drilling. The Program should 
        also partner with other agencies, including the Department of 
        the Interior, the U.S. Geological Survey (USGS), and the Nevada 
        Bureau of Mines to share knowledge and data.
---------------------------------------------------------------------------
    \7\ Williams, Colin F., Reed, Marshall J., Mariner, Robert H., 
DeAngelo, Jacob, Galanis, S. Peter, Jr., 2008, Assessment of moderate- 
and high-temperature geothermal resources of the United States: U.S. 
Geological Survey Fact Sheet 2008-3082, 4 p.2008-3082. 2008. http://
pubs.usgs.gov/fs/2008/3082/
---------------------------------------------------------------------------
Regulatory Process Governing Geothermal Energy Development:
    BLM's geothermal regulations govern the various stages or phases of 
project development, including exploration operations, drilling 
operations, utilization operations, and commercial use. At each phase, 
the project proponent typically submits separate application to conduct 
operations which correspond to the development phase. The information 
needed to assess potential environmental impacts increases in detail 
and focus as the intensity of use moves from the exploration phase to 
an energy facility operation phase.
        <bullet>  Exploration Operations--A BLM-approved geothermal 
        exploration permit, also known as an approved Notice of Intent 
        to Conduct Geothermal Resource Exploration Operations 
        (``NOI''), is required to explore any BLM-managed public lands 
        open to geothermal leasing.
        <bullet>  Drilling Operations--A BLM-approved geothermal 
        drilling permit \8\ is required to drill wells and conduct 
        related activities for the purposes of performing flow tests, 
        producing geothermal fluids, or injecting fluids into a 
        geothermal reservoir.
---------------------------------------------------------------------------
    \8\ ``Geothermal drilling permit means BLM written permission to 
drill for and test Federal geothermal resources.'' 43 C.F.R. 
Sec. 3200.1.
---------------------------------------------------------------------------
        <bullet>  Utilization Operations--BLM authorization is required 
        prior to starting preliminary site investigations that may 
        disturb the surface, building pipelines and facilities 
        connecting the well field to utilization facilities not located 
        on Federal lands leased for geothermal resources, testing a 
        facility that is not located on Federal lands leased for 
        geothermal resources, starting commercial use operations, or 
        building or testing a utilization facility.
        <bullet>  Commercial Use--Finally, before using Federal 
        geothermal resources, the applicant must submit a completed 
        commercial use permit.
Focusing on Exploration Operations and CX's:
    In December of 2008, BLM issued Instruction Memorandum No. 2009-044 
which provided guidance to 516 Department Manual 11.9 B. Fluid 
Minerals: Approval of Notice of Intent to Conduct Geophysical 
Exploration with No Road Construction, by means of CX.
    The BLM did this after reviewing 244 geophysical exploration 
projects and determining that geophysical exploration operations that 
do not include the construction of roads do not individually or 
cumulatively have a significant effect on the human environment. 
Therefore, the BLM determined that establishment of the new geophysical 
exploration CX was warranted (see 72 Fed. Reg. 45504 Aug. 14, 2007). 
BLM recognized that geophysical operations had evolved so that there 
are far fewer environmental impacts; the BLM and operators also employ 
BMPs that further reduce the impacts of these operations. In addition, 
the BLM has developed many COAs that can be included in any approval of 
geophysical operations that, like BMPs, further reduce the impacts of 
the proposed operations. The consistent use of these BMPs and COAs 
precludes the need for a new environmental evaluation specific to each 
new proposed action \9\.
---------------------------------------------------------------------------
    \9\ http://www.blm.gov/wo/st/en/info/regulations/
Instruction_Memos_and_Bulletins/national_
instruction/2009/IM_2009-044.html
---------------------------------------------------------------------------
    H.R. 2171 ``(the) Exploring for Geothermal Energy on Federal Lands 
Act'' supports greater geothermal development by clearly defining and 
enhancing the existing (CX) policy and setting timelines that create 
accountability and remove the uncertainty from the NEPA process.
    Once the delay in permitting is resolved, the true power of 
renewable energy will be unlocked, creating a workforce to satisfy the 
geothermal industries' labor-intensive demands in science, sub-surface 
research, exploration, drilling, construction, and operation and 
maintenance. Replacing fossil fuels with domestic labor creates a 
market for U.S. export of services and equipment.
    Improving project permitting has the potential to mobilize a 
workforce reminiscent of the U.S. Maritime ``Liberty Ships'' program, 
which engaged a similar sized workforce of 640,000 to produce, among 
other things, 2,700 ``Liberty Ships.'' The program engaged a new 
workforce from various employment sectors and, in doing so, developed 
partnerships that improved shipyards, pre-fabrication and sub-
contracting. Streamlining the geothermal permitting process would 
enable the industry to follow in the footsteps of the ``Liberty Ships'' 
program and help expedite the construction of 144 geothermal plants 
while affording an opportunity to create jobs, build similar 
partnerships and foster innovation across a number of sectors.
Technical Suggestions:
    Since this bill deals with NEPA, and NEPA is primarily directed in 
this case at surface disturbance, it really doesn't make any sense to 
limit the depth of the hole, nor what kind of vehicle is used (wheeled 
or tracked), so long as the disturbance is less than 5 acres. The well 
has to be permitted under state rules as to type of well, depth, 
protections and casing design.
    Therefore we suggest striking lines 17-19 on page 2 and lines 4-5 
on page 3 since those variables are defined by the well pad size.
    We also suggest adding language to Line 12 on page at the end of 
the sentence that states ``. . .within three years unless project 
becomes part of larger project.''
    We would also propose that Section 106 of the National Historic 
Preservation Act be completed during the leasing process which would 
significantly curtail further delays.

Best Regards, Paul A. Thomsen, Director, Ormat Technologies, Inc.
                                 ______
                                 
    Mr. Lamborn. OK, thank you. Now before we hear from Mr. 
Lyons, I want to clarify an issue. Under Committee Rule 4[a] 
and House Rule 112[g][5], witnesses appearing in a non-
governmental capacity are required to file with their testimony 
a completed disclosure form describing their education, 
employment, and experience, and provide other background 
information pertinent to their testimony the purpose of this 
information is to help the members of the Committee judge the 
testimony in context. Committee Rule 4[a] indicates that 
failure to comply with these requirements may result in the 
exclusion of the written testimony from the hearing record and/
or the barring of an oral presentation of the testimony.
    Mr. Lyons, recognizing that your disclosure statement was 
submitted to the Committee late and includes a statement where 
you admit that it remains incomplete, before you make a 
statement, will you verbally commit to us that you will provide 
a complete disclosure form to the Committee in a timely 
fashion?
    Mr. Lyons. Yes, Mr. Chairman. I apologize for submitting it 
late. We were notified late of the invitation to testify. I was 
not aware that it was incomplete, but will gladly complete that 
information. I apologize.
    Mr. Lamborn. OK. Well, thank you, so much, and at this 
point, I would like to welcome you and hear your testimony.

           STATEMENT OF JIM LYONS, SENIOR DIRECTOR, 
            RENEWABLE ENERGY, DEFENDERS OF WILDLIFE

    Mr. Lyons. Thank you, Mr. Chairman, and members of the 
Committee. I certainly appreciate the opportunity to testify 
before you today and want to thank you for your interest in 
renewable energy and trying to accelerate the development of 
renewable energy in the United States. I am Jim Lyons. I am the 
Senior Director for Renewable Energy at Defenders of Wildlife, 
an organization dedicated to the protection and restoration of 
wild animals and plants in the natural communities.
    We certainly appreciate the efforts to encourage renewable 
energy development, but would suggest that a different set of 
solutions is needed than what is proposed by the legislation we 
are discussing today. I think we would all agree that what is 
needed is greater certainty. What you heard from witnesses at 
your June 1 hearing is that uncertainty associated with 
financing for projects, and certainly that financing will 
affect the available, primarily from Treasury grant program 
funds and from the DOE loan guarantee program, poses the 
greatest challenge to wind and solar development in the United 
States.
    For example, Roby Roberts noted on behalf of the American 
Wind Energy Association, ``without more stable Federal 
financial incentives and demand-side policies, any changes to 
make developing wind energy projects on public lands more 
attractive will be of only marginal benefit.'' Dan Reicher, who 
also testified before you on June 1, is the Director of 
Stanford's Steyer-Taylor Center for Energy Policy and Finance, 
and also is associated with the law and business communities 
schools said ``What I worry more about than the siting of 
renewable energy projects on public lands is successfully 
navigating the long and complicated road that takes the 
renewable technology to the routine construction operation of 
hundreds of full-scale commercial plants with low-cost 
financing.''
    Oil and gas continue to benefit from generous tax breaks 
and Federal subsidies, many of which are permanent. However, 
renewable energy continues to struggle to gain something close 
to a level playing field. Similarly, without the market 
mechanisms in place to provide for increased demand for 
renewable sources of energy, which Mr. Taylor alluded to, it is 
reasonable to ask if private capital will flow to solar wind 
and geothermal energy production. As you have heard, without 
the certainty of long-term capital for investments, companies 
interested in entering this market, or simply investing in the 
U.S. market, are forced to scramble to prove the viability of 
their technologies and of their investments.
    In addition, companies have been forced to scramble to 
secure access to lands with potential for solar development, in 
particular in the hope public capital will be there to help 
track the private capital to bring utility scale projects on 
line. This scramble is the bane of good business planning and 
of thoughtful and smart project siting and planning.
    We argue that this can best be achieved by employing what 
we refer to as ``smart from the start'' principles. If I could, 
Mr. Chairman, I would like to include for the record as part of 
my testimony a letter that we wrote to President Obama in 
February of this year, which highlights the need for ``smart 
from the start'' planning in those principles. Knowing where 
critical habitats and sensitive landscapes are located, 
determining where critical migratory corridors exist, where 
water resources are scarce, siting projects in low conflict 
areas, and the benefit to conservation advocates is obvious, 
but the benefit to developers is also substantial. Developing 
in high conflict areas can substantially increase project 
costs, as you know. Impact in wildlife resources can require 
mitigation and the development of mitigation strategies can at 
time be costly. And of course, controversial projects in high 
conflict areas oftentimes face tough scrutiny.
    Better approached project development is to begin by 
determining where highly valued habitats, sensitive landscapes, 
and natural resources exist and the tools, in fact, and 
technologies do exist to do that in a much more expedited way. 
We think there are many innovative strategies in the works to 
help further reduce the potential impacts of renewable energy 
development and I want to credit the industries, solar, wind, 
and geothermal, for working with us, with the Department of the 
Interior, and others to try and find remedies for the 
impediments that they have run into.
    As one example of innovative approaches, Kansas Governor 
Sam Brownback recently announced his road map for wind energy 
policy. The road map included a plan to protect tall grass 
prairie area from commercial wind development. In announcing 
this plan, the Governor noted, ``we will continue to encourage 
the expansion of an unparalleled economic development 
opportunity that will allow our state to regain its energy 
exporter status, while also protecting the ecological jewel of 
our state and nation.''
    I want to end my comments today, Mr. Chairman, by 
emphasizing that we think certainty is the key to improving and 
accelerating the development of renewable energy. Project 
developers seek certainty in order to attract capital to build 
their projects and sell their product, which, of course, is 
clean energy. Utilities seek certainty that the power they 
purchase will actually be produced. Investors seek certainty 
that they are going to get a return on their investment, which 
is one of the principal reasons they are making these 
investments. And conservationists seek certainty that clean 
energy can be produced to address the impacts of climate change 
to produce jobs and economic benefits, which are critical--and 
can do so without harming wildlife, wildlands, and other 
natural resources.
    We certainly appreciate your help, Mr. Chairman, in 
addressing these issues, but I would submit to you that I think 
the critical issue associated with certainty is that of 
providing long-term stable financing, so that the industry does 
not have to beg from year to year to receive the funds that are 
necessary to provide that certainty from the investments that 
they seek.
    Mr. Lamborn. OK, thank you for your testimony.
    Mr. Lyons. Thank you, very much.
    [The prepared statement of Mr. Lyons follows:]

     Statement of Jim Lyons, Senior Director for Renewable Energy, 
  Defenders of Wildlife, on H.R. 2170, H.R. 2171, H.R. 2172, and H.R. 
                                  2173

    Mr. Chairman and Members of the Committee:
    Thank you for the invitation to testify before you today. My name 
is Jim Lyons and I am the Senior Director for Renewable Energy at 
Defenders of Wildlife. Founded in 1947, Defenders of Wildlife is a 
nonprofit organization with more than 1 million members and supporters 
across the nation and is dedicated to the protection and restoration of 
wild animals and plants in their natural communities.
    On behalf of Defenders of Wildlife, I am here today to express my 
strong support for renewable energy development. Defenders believes 
that this nation must accelerate efforts to promote the development of 
renewable energy in order to generate the multiple benefits that would 
result, including jobs, economic growth, and a reduction in greenhouse 
gas emissions. We believe that a clean energy future is an essential 
part of producing a healthy American economy and a healthy planet and 
we are working with renewable energy developers, investors, utilities, 
conservation leaders, and the Obama administration to help realize that 
future.
    We believe a clean energy economy is possible. To make it a reality 
we must promote thoughtful planning, effective use of technology, and a 
long-term commitment of resources to finance the development and growth 
of the renewable energy sector. These elements are critical to provide 
the certainty that the renewable energy industry, utilities, 
conservationists, investors, and the public demand.
    Part of our challenge is to find ways to tap into this vast 
resource for renewable energy production while avoiding, minimizing, 
and mitigating the impacts on wildlife, wild lands, and other important 
natural resources associated with public and private lands. We need not 
sacrifice the conservation gains of the 20th century--leading to the 
conservation of millions of acres of public lands and the protection of 
wildlife, wilderness, and water resources--for the sake of our efforts 
to solve the conservation challenges of the 21st century.
    Today the Subcommittee is examining four bills with the intention 
of removing impediments to developing renewable energy on federal 
lands. We applaud this Committee's efforts to examine the challenges of 
developing renewable energy industry. We can and will work with all 
parties to improve the administrative processes affecting project 
siting, permitting, and development. I firmly believe we can achieve 
these outcomes without additional legislative assistance. In fact, some 
of the proposed shortcuts and ``work arounds'' intended to short 
circuit NEPA may do more harm than good, precisely because they will 
introduce added uncertainty to the process. We appreciate the offer for 
help with these issues, but I am not convinced that legislative 
remedies are needed or would help, nor do they address the real 
roadblocks to clean energy development
    The successful development of clean energy in the United States is 
dependent upon three things. We need energy resources, technology, and 
capital. I would submit that the most significant roadblock to our 
efforts to develop clean energy resources in the United States is 
capital. The long term commitment of capital and with it the assurance 
that the financial resources will be there to cover the high front end 
costs associated with the development of solar, wind, or geothermal 
energy is the Achilles heel of this energy sector.
    To illustrate this point, I want to reference the comments to two 
of the witnesses at the June 1 hearing of the House Natural Resources 
Committee on this subject.
    At that hearing, Roby Roberts noted on behalf of the American Wind 
Energy Association (AWEA):
        ``Without more stable federal financial incentives and demand-
        side policies, any changes to make developing wind energy 
        projects on public lands more attractive will be of only 
        marginal benefit.''
    And, Dan Reicher, Director of Stanford University's Steyer-Taylor 
Center for Energy Policy and Finance and a faculty member of the 
Stanford Law School and the Graduate School of Business, stated,
        ``What I worry more about more than siting renewable energy 
        projects on public lands is successfully navigating the long 
        and complicated road that takes a renewable energy technology 
        from the first gleam in a scientist's eye and an early pilot 
        project all the way to the routine construction and operation 
        of hundreds of full-scale commercial plants with low-cost 
        financing and good paying jobs on all kinds of land--private 
        and public.''
    In this regard, Mr. Reicher and other witnesses at that hearing 
cited the importance of the DOE loan guarantee program and the Section 
1603 Treasury Grant program as essential sources of capital for 
renewable energy projects as a means to spur private sector investment 
in these new technologies. Both of these programs are set to expire at 
the end of this year. Lacking assurances that federal grants and loan 
guarantees will continue to be available to provide the long-term 
capital for utility scale renewable energy, the future of our Nations' 
renewable resources will remain uncertain.
    Oil and gas continue to benefit from generous tax breaks and 
federal subsidies (many of which are permanent); however, renewable 
energy continues to struggle to gain something close to a level playing 
field. Of course, this is one reason that the Obama administration has 
proposed to end subsidies for oil and gas production (aside from the 
enormous profits these companies have been reporting). Redistributing 
this capital to improve the prospects for growth in the renewable 
energy sector and to improve the prospects of attracting private 
capital is critical to providing certainty for developers, investors, 
and a host of other stakeholders, including the conservation community.
    Similarly, without the market mechanisms in place to provide for 
increased demand for renewable sources of energy, it is reasonable to 
ask if private capital will flow to solar, wind, and geothermal energy 
production. While 38 states have established renewable or alternative 
energy standards, a national renewable energy standard is still 
lacking. And, with the recent development of technologies to tap 
abundant natural gas resources from sources such as the Marcellus 
shale, which is particularly abundant in the northeastern United 
States, can renewable sources of energy, such as wind, compete?
    As you have heard, without the certainty of long-term capital for 
investment, companies interested in entering this market--or simply 
investing in the U.S. market--are forced to scramble to prove the 
viability of their technologies and their investments. In addition, 
companies have been forced to scramble to secure access to lands with 
the potential for solar development, in particular, in the hope that 
the public capital will be there to help them attract the private 
capital to bring utility-scale projects on line. This scramble is the 
bane of good planning and of thoughtful and smart project siting.
    We all recognize that careful planning is essential to making good 
business decisions. Just as investors look to a good business plan 
before committing capital to a project, making good decisions about 
project siting and development are essential to reducing impacts on 
wildlife. This past February, 17 conservation organizations wrote to 
President Obama to express their support for accelerating the 
development of renewable energy on public lands. (I have attached a 
copy of that letter to my testimony.) We argued that this can best be 
achieved by employing ``smart from the start'' principles.
    Simply stated, ``smart from the start'' is good planning. Knowing 
where critical habitats and sensitive landscapes are located, 
determining where critical migratory corridors exist, and where water 
resources are scarce are key to siting projects in low-conflict areas. 
The benefit to conservation advocates is obvious, but the benefit to 
developers is substantial as well.
    Developing in high conflict areas can substantially increase 
project costs for biological surveys and inventories for rare plants 
and animals. Operating in areas that are home to threatened and 
endangered species requires federal agencies to consult with the U.S. 
Fish and Wildlife Service. And, impacting wildlife resources can 
require mitigation that may involve restoring habitats or acquiring 
similar lands to compensate for habitats negatively affected by the 
project. Of course, controversial projects in high-conflict areas face 
tough scrutiny. If approved despite high environmental costs, they may 
fact potential litigation which can further increase project costs and 
cause development delays.
    A better approach to project development is to begin by determining 
where highly-valued wildlife habitats, sensitive landscapes and natural 
resources exist and avoid them. This is actually easier than one might 
think, as the technology has improved our ability to identify and map 
key wildlife areas.
    For example, through support from the Department of Energy, the 
Western Governors' Association has worked with state fish and wildlife 
agencies to develop decision support systems to improve efforts to 
locate energy projects in low risk areas. And, the American Wind 
Wildlife Association has recently launched an online tool to help wind 
developers determine where wildlife conflicts may occur and how to 
avoid them.
    While guiding development to low-conflict zones is one means of 
reducing wildlife conflicts, it will not completely address wildlife 
impacts. For this reason, all interests acknowledge the need to develop 
mechanisms for mitigating project impacts on wildlife, which, in the 
state of California, is required by law. Mitigation strategies can seek 
to avoid or minimize project impacts, but they can also be designed to 
compensate for impacts by permitting the restoration of habitats 
similar to those that are lost or by acquiring similar habitat 
proximate to the project.
    At Defenders, we are exploring the prospect of mitigation banking. 
That is, working at the landscape level to identify areas that might be 
protected or restored in order to mitigate energy projects before they 
are designed and built. The benefit of this approach is that it helps 
achieve conservation goals such as minimizing impacts on wildlife 
populations, reducing the need to list species as threatened or 
endangered, and helping to restore habitat for threatened and 
endangered species. It also helps developers understand the mitigation 
costs they may face in developing a project in a particular landscape. 
In fact, BLM Special Status Species policy directs the agency to not 
only minimize threats to sensitive species, but also ``improve the 
condition of the species habitat'' and ``initiate proactive 
conservation measures'' to minimize the likelihood of ESA listing.'' 
(BLM Manual 6840.2; 6840.02).
    Many innovative strategies are in the works to help further reduce 
the potential impacts of solar, wind, and geothermal development on 
wildlife, wild lands, and important natural resources. And, to its 
credit, the renewable energy industry is increasingly playing a role in 
helping to identify both the problems and potential solutions. We 
encourage the use and expansion of efforts like the regional habitat 
conservation planning process in the central flyway for Whooping Cranes 
and Lesser Prairie Chickens. And we support efforts such as that of 
Kansas Governor Sam Brownback, who recently announced his Road Map for 
Wind Energy Policy. The plan includes a plan to protect a tallgrass 
prairie area from commercial wind development. The governor noted,
        ``We will continue to encourage the expansion of an 
        unparalleled economic development opportunity that will allow 
        our state to regain its energy exporter status while also 
        protecting an ecological jewel of our state and the nation.''
    Similar efforts are underway in Wyoming and Oregon to protect 
remaining sage grouse habitat while facilitating further wind energy 
development.
    We are also encouraged by the progress that is being made by the 
Department of the Interior, working with the wind energy industry and 
through its federal advisory committee on onshore wind energy 
guidelines, to address the need to provide greater certainty for 
developers with regard to requirements for reducing the impacts of wind 
energy on wildlife and protecting bald and golden eagles. In response 
to draft guidance issued by the U.S. Fish and Wildlife Service, we 
joined with the American Wind Energy Association (AWEA), National 
Audubon Society, the Union of Concerned Scientists and others in 
suggesting that a properly designed and implemented voluntary, risk-
based approach for minimizing and mitigating the effects of wind energy 
on wildlife can work. (I would like to also submit a copy of our joint 
comments for the record.) We support this strategy because we believe a 
risk-based approach is consistent with the notion of guiding renewable 
energy projects to low-conflict areas and is consistent with good 
business practices. And, we believe that developers who engage in good 
planning will seek to operate in low risk areas where the successful 
development of their project is more likely and their ability to 
successfully attract investors and capital is also greater.
    This same concept, guiding renewable energy project development to 
low-risk areas, is at the heart of identifying zones for development 
for utility scale solar projects and is one of the alternatives 
presented in DOI and DOE's draft solar Programmatic Environmental 
Impact Statement. We support this concept as well, because we believe 
it will accelerate project development, shorten planning horizons, and 
help simplify the requirements for coordination and consultations with 
state and federal agencies entrusted with the protection of our 
wildlife and other public land assets. And we continue to work with the 
U.S. Fish and Wildlife Service, with Department of the Interior 
officials, and with our colleagues in the conservation community to 
find ways to improve and accelerate the project siting, permitting, and 
development process.
    I want to end my statement this morning, by returning to where I 
began. Certainty is the key to improving and accelerating the 
development of renewable energy resources in the United States. Project 
developers seek certainty in order to attract capital, to build their 
projects, and sell their product--clean energy. Utilities seek the 
certainty that the clean energy they buy will be produced and available 
to help them meet renewable energy standards and an increasing public 
demand. Investors seek certainty so that they have some assurance of a 
return on investment which, of course, is the primary reason they 
choose to invest in projects. And conservationists seek certainty that 
clean energy can be produced to address the impacts of climate change, 
produce the jobs and economic benefits attributed to the new clean 
energy economy, and do so without harming the wildlife, wild lands, and 
other natural resources Americans treasure.
    As I mentioned previously, we need your help in providing greater 
certainty that the financing will be there, over an extended period of 
time, to support the R&D and development essential to proving the 
viability of utility-scale solar energy and to getting solar, wind and 
geothermal projects built. Having to beg for clean energy financing one 
year at a time is not conducive to good planning and will not provide 
the assurances to private investors, markets, and utilities that clean 
energy will be there when they need it or that it is, in fact, worth 
the investment.
    We look forward to working with you, Mr. Chairman, to find 
solutions to these challenges and to identify remedies to the 
roadblocks that are impacting the development of clean energy in 
America. Working within our existing environmental laws will, in fact, 
result in better renewable energy development and greater certainty, 
assuring the viability of the renewable energy industry for the long 
term. This is our future and we are committed to helping realize the 
vision of a clean energy economy with all the benefits it can provide.
    Thank you, again, for the opportunity to testify before you today.
                                 ______
                                 
    Mr. Lamborn. We will now have questions from members of the 
Committee. I will recognize myself for five minutes.
    Mr. Dougherty, in your testimony, you say that the 
uncertainty that exists within today's regulatory framework and 
that it exists and that this uncertainty is the primary 
disincentive to further public and private investment in the 
renewable energy market. Do you believe that having firm time 
lines for the permitting application and for reducing research 
project time lines will help to alleviate some of this 
uncertainty?
    Oh, I am sorry.
    Mr. Dougherty. I think you missed a witness, sir.
    Mr. Lamborn. Yes. We had a gentleman, who sat in the wrong 
order, so we will now--before I ask the questions, we will now 
go to Mr. Huntley. Yes, I see that, Mr. Holt.
    Mr. Huntley. Thank you, sir. My apologies, sir.
    Mr. Lamborn. We are supposed to sit in the order in which 
we are invited to be on the panel. So, we have a little mixup 
here. But, I would like to hear your testimony, so I recognize 
you for five minutes. Thank you.

             STATEMENT OF CHASE HUNTLEY, DIRECTOR, 
        RENEWABLE ENERGY POLICY, THE WILDERNESS SOCIETY

    Mr. Huntley. Thank you, sir. Mr. Chairman, Ranking Member 
Holt, and members of the Subcommittee, thank you for the 
opportunity to testify today regarding development of renewable 
energy resources on Federal lands and waters. My name is Chase 
Huntley. I am Director for Renewable Energy Policy with the 
Wilderness Society. We strongly support efforts to tap into the 
rich renewable resources found on our public lands and forests. 
As I will detail in a minute, we have pressed hard for a 
``smart from the start'' approach that sites renewable energy 
in the right places, and builds what we need with the right 
input from the very beginning.
    We agree with this Subcommittee's goal of accelerating 
development on public lands, but we cannot support the bills 
under discussion today because we feel they are based on a 
false assumption, that the National Environmental Policy Act is 
a roadblock to development. These views are further detailed in 
my written statement, but rest on our belief that there is 
sufficient flexibility under the law.
    Rather, we believe the best way to speed up permitting is 
to work within existing law, to end the scatter shod approach 
of project-by-project permitting that we see today. For too 
long, energy development has been characterized by conflict and 
controversy, attributed in most cases to poor siting decisions 
that were not revealed until late in the permitting process, 
putting sensitive wildlife and wild lands at risk of severe 
damage and stranding company's investments. We cannot afford to 
repeat this experience with the renewable energy industry, so 
important to our energy security.
    Instead, we must move toward clear policies that guide 
companies to the right places with early engagement and 
consistent environmental review. We have seen progress at the 
Interior Department in this direction with the new guidance for 
solar and wind by identifying and avoiding environmental and 
other impacts early, ideally before projects are even proposed. 
This approach can prevent the conflict and controversy 
responsible for increased project costs and time delays. This 
is developing ``smart from the start,'' and we believe that 
this approach will provide the certainty sought by project 
developers, investors, conservationists, and other 
stakeholders.
    But let me address directly the often heard charge that 
NEPA, along with other environmental requirements, unduly 
restricts the pace and advancement of renewable energy. We know 
that this is not true from our recent experience with the 
Interior Department's fast track projects. After nearly a 
decade of inattention and inactivity, this Administration's 
commitment to moving ahead with renewable energy on public 
lands resulted in permits for more megawatts of renewable 
energy than ever before. The public involvement afforded during 
environmental review has been indispensable to ensuring that 
projects are built in a manner that maximizes their energy 
potential, while avoiding the impacts that would undermine the 
viability of sensitive resources.
    In our work on projects permitted to date, environmental 
reviews has not been a roadblock, rather it has served as a 
road map to better outcomes. For example, of the six solar 
projects permitted in 2010, which we supported, and none of 
which we challenged legally, all saw significant changes as a 
result of the review process. In fact, it is unlikely we would 
have been able to support these projects in the absence of that 
opportunity.
    To be sure, more can be done to improve the efficiency and 
effectiveness of the existing review process, but shortcutting 
or sidestepping this process will only result in more conflict, 
more delays, and more costs to developers and ultimately to 
consumers. We understand the interest to move forward quickly, 
but ample authority exists to enhance permitting without these 
legislative remedies.
    We will continue to work diligently with the industry, with 
the Administration, and with Congress to find solutions that 
work as well for wind and solar, as they do for wildlife and 
wild lands. But focused only on the permitting system, we 
overlook the proverbial elephant in the room. Time and again, 
we have heard clearly from developers, investors, and business 
leaders that siting and permitting is not the real barrier to 
renewable energy developments, rather it is the on again, off 
again nature of critical financing, like loan guarantees and 
refundable tax credits, both of which expire at the end of this 
year, and the lack of policies, like a national renewable 
energy standard that create the market demand for renewable 
power. If we are to reach our common goal of dramatically 
expanding clean, renewable energy, we must remove these 
barriers to success. In our view, this is what Congress should 
concert its considerable influence.
    In conclusion, real progress is being made to develop 
renewable energy on the public lands. The environmental review 
process has provided a critical road map for successes to date. 
We are encouraged by the approaches under development at the 
Interior Department to guide wind and solar energy development 
using existing authorities, away from conflicts with the 
wildlife habitat, sensitive wild lands, and other important 
resources. But, ultimately, the biggest obstacle remain stable 
financing and market demand.
    Thank you for the opportunity to offer these views. I look 
forward to answering your questions.
    [The prepared statement of Mr. Huntley follows:]

    Statement of Chase Huntley, Director, Renewable Energy Policy, 
 The Wilderness Society, on H.R. 2170, H.R. 2171, H.R. 2172, and H.R. 
                                  2173

    Mr. Chairman, Ranking Member Holt, and members of the Subcommittee:
    Thank you for the opportunity to provide testimony regarding 
development of renewable energy resources on federal lands and waters. 
My statement focuses only on onshore permitting of energy resources on 
forests and public lands for typically categorized as `renewable'--that 
is, geothermal, solar, wind, and biomass energy development. It does so 
drawing on the collective experience of The Wilderness Society's staff 
across the country.
    The Wilderness Society works on behalf of its 500,000 members and 
supporters to protect wilderness and inspire Americans to care for our 
wild places. This includes working to ensure that the development of 
needed new energy resources is done in a way that protects the 
ecological integrity of the land.
    For The Wilderness Society, that includes enacting policies that 
would correct the market failure that allows fossil energy providers to 
dump emissions harmful to the public health and welfare into the 
atmosphere for free. It also means avoiding the construction of 
unneeded generating facilities by simply increasing the efficiency of 
our electrical grid, buildings, gadgets and appliances, and 
transportation system. And it means promoting more sustainable home-
grown sources of energy, especially electricity, to meet future demands 
and replace the dirty fuels of our past with adequate financial 
incentives.
    We are strong supporters of efforts to tap the rich renewable 
resources found on our public lands and forests. As with any form of 
development, however, not all places are appropriate for this kind of 
activity. Some places are simply too wild or too sensitive to develop. 
And where it occurs, it must take place in a responsible manner.
    We are opposed to H.R. 2170, H.R. 2171, H.R. 2172, and H.R. 2173 
because these four bills are predicated on the false notion that a 
principal roadblock to the successful approval of renewable energy 
projects on the public lands is the National Environmental Policy Act 
(NEPA). (These views are detailed in Appendix A.) These bills are 
simply not needed to accelerate renewable energy development on public 
lands and forests. Rather, all of our experience has shown us that 
attempts to shortcut and undermine environmental values actually delays 
projects.
    Instead, we believe that the best way to rapidly deploy renewable 
energy projects on our public lands is to end the scattershot approach 
to permitting that we see today. We can use existing law to move away 
from project-by-project permitting, and toward clear policies that 
guide companies to the right places, with early public engagement and 
consistent environmental review. To us, this kind of ``smart from the 
start'' approach includes several key elements:
        <bullet>  Policies that guide projects to areas that have high 
        clean energy potential; minimal conflicts with wildlife, wild 
        lands, and other important resources and uses of the 
        surrounding environments; and, wherever feasible, access to 
        existing transmission.
        <bullet>  Early and ongoing input and coordination with 
        interested stakeholders.
        <bullet>  Thorough analysis of the potential environmental 
        impacts of renewable energy projects, including their 
        cumulative impacts.
        <bullet>  Policies that fully and fairly value public lands and 
        forests, and reinvest significant portion of the revenues 
        generated in conservation activities.
        <bullet>  Effective mitigation measures to address unavoidable 
        impacts.
        <bullet>  Consistent and careful monitoring at the project and 
        landscape level to improve existing and future projects and 
        permitting and mitigation processes.
        <bullet>  Discouraging speculation by evaluating the financial 
        and technological capacity of project proponents to design, 
        build, operate, and decommission projects.
        <bullet>  Policies that encourage new transmission projects and 
        upgrades that connect clean renewable energy resources.
    We believe that a smart from the start approach, if properly 
implemented, will provide added certainty for project developers, 
investors, conservationists, and other stakeholders by avoiding 
conflicts that result in costly delays.
    We are seeing these concepts become a reality as the Interior 
Department works to break a five year solar stalemate on public lands. 
The ongoing programmatic environmental impact statement has the 
potential to bring order to a process that has frustrated all parties. 
By identifying zones for development and screening these areas for 
conflicts with significant natural and cultural resources, the 
Department can enhance the likelihood that projects permitted will 
result in projects successfully built. For this reason, we have seen an 
emerging consensus amongst developers, conservationists, and utilities 
that a zone-based system for development is the preferred approach as 
evidenced in a joint comment letter from the members of the California 
Desert Renewable Energy Working Group that I request be included in the 
record. Zone-based development can greatly improve both the permitting 
process and outcomes for wildlife and wild lands.
    Central to the `smart from the start' concept is a commitment to 
take stock in the early stages of a proposed federal action of the pros 
and cons of alternatives, and choosing the one that gets you the best 
result with the least conflict. That's what Congress recognized when it 
passed NEPA, and that is the role that NEPA continues to serve.
    ``The NEPA process is intended to help public officials make 
decisions that are based on understanding of environmental 
consequences, and take actions that protect, restore, and enhance the 
environment.'' 40 C.F.R. Sec. 1500.1(c). This is the overarching 
principle by which the agencies charged with administering our public 
lands must, and should, make decisions that best balance renewable 
energy development with management of the many other uses and resources 
found on these lands.
    In its forty year history, the NEPA process has improved the health 
and well-being of communities, saved billions in taxpayer dollars, and 
unequivocally improved the quality of decision-making. NEPA's common 
sense axiom is ``look before you leap.'' NEPA requires that agency 
decisions are transparent, grounded in rigorous scientific analysis, 
and fully informed by the collective expertise of all stakeholders.
    NEPA recognizes that the public--which includes industry, 
landowners, local and state governments, tribes, and business owners 
among others--can make important contributions by providing unique 
expertise. In 2008, a groundbreaking review conducted by the National 
Academy of Sciences confirmed the benefits of public participation. The 
panel found:
    When done well, public participation improves the quality and 
legitimacy of a decision and builds the capacity of all involved to 
engage in the policy process. It can lead to better results in terms of 
environmental quality and other social objectives. It also can enhance 
trust and understanding among parties. Achieving these results depends 
on using practices that address difficulties that specific aspects of 
the context can present.\1\
---------------------------------------------------------------------------
    \1\ Thomas Dietz and Paul C. Stern, Editors, Panel on Public 
Participation in Environmental Assessment and Decision Making, National 
Research Council, 2008.
---------------------------------------------------------------------------
    The business community has also awakened to the value the value of 
public participation afforded through the NEPA process. For example, in 
October 2009, the project manager for the SunZia power line testified 
before a hearing jointly held by this committee and the Subcommittee on 
Energy and Power that ``NEPA still works.'' In discussing the effects 
of input received from the environmental community, for instance, he 
observed that, ``the result is a better one for all involved'' and 
``[t]he contributions provided to SunZia by these important 
stakeholders have been immeasurable.'' \2\
---------------------------------------------------------------------------
    \2\ Testimony of Tom Wray, Project Manager, SunZia Transmission 
Project. November 5, 2009. Available at http://
naturalresources.house.gov/UploadedFiles/WrayTestimony11.05.09.pdf.
---------------------------------------------------------------------------
    Public participation via NEPA has made important contributions 
leading to real improvements. Numerous examples have been compiled by 
the Environmental Law Institute in NEPA Success Stories: Celebrating 40 
Years of Transparency and Open Government.\3\
---------------------------------------------------------------------------
    \3\ Available at http://ceq.hss.doe.gov/nepa_information/
NEPA_Success_Stories.pdf.
---------------------------------------------------------------------------
    As the National Academy of Sciences recommended: ``Public 
participation should be fully incorporated into environmental 
assessment and decision-making processes, and it should be recognized 
by government agencies and other organizers of the processes as a 
requisite of effective action.'' (emphasis added). NEPA plays an 
invaluable role in making review of renewable energy projects 
meaningful and, ultimately, leading to projects that will be less 
likely to be challenged or derailed once approved.
    Let me address directly the often-heard charge that NEPA, along 
with other environmental requirements, unduly restricts the pace and 
advancement of renewable energy projects. We know that this is not 
true. Of the nine solar energy projects permitted in 2010, the average 
time for environmental review was 527 days, or 1.4 years. Permitting 
that was initiated during the Obama Administration and received ``fast-
track'' status took an average of 423 days, or 1.1 years to reach a 
final record of decision. This is well within other permitting time 
frames for similarly sized projects, and is remarkable given that these 
projects are unique in scale and complexity. That NEPA is working as 
intended is equally true of permitting of resource testing facilities 
as of commercial-scale generation. For example, more than three-
quarters of the 38 wind testing facilities permitted on public lands 
between 2008 and 2011 were processed using categorical exclusions under 
the law. Ample authority exists to enhance the effectiveness of 
implementation of this statute without these proposed legislative 
remedies.
    However, several roadblocks do stand in the way of faster 
deployment of renewable energy. Time and again major companies, 
financial houses, market watchers, and others deeply steeped in the 
business of building projects have pointed to the need for policies 
that create markets for these technologies and alleviate fiscal 
uncertainty as the chief roadblocks to the industry. The renewable 
energy industry is at a critical point in its maturation process. 
Significant, targeted investments in this industry will leverage 
private equity, produce new megawatts of power, put Americans to work, 
and strengthen our competitiveness in the global marketplace for 
renewable energy technologies.
    Congressional involvement to promote renewable energy development 
on public lands would be best directed toward ensuring that federal 
financing tools will be predictably available, establishing policies 
that create market demand for renewable power, and support smart from 
the start policies, including a zone-based approach to solar energy 
development on public lands, will ensure consistently good permitting 
decisions are made over time.
    In conclusion, The Wilderness Society appreciates the efforts of 
the Subcommittee to accelerate development of these important clean 
energy resources on public lands and forests. We support the 
Subcommittee's goal of faster, cheaper, and better outcomes for those 
interested in developing the rich renewable energy resources found on 
these lands--of developing renewable energy smart from the start.
    Successfully advancing development of wind, solar and other 
renewable energy resources requires us to do better than we've done 
with other forms of energy on the public lands and forests. Putting in 
place policies designed to avoid known conflicts as early as possible 
is just common sense--but it is a new way to do business for federal 
agencies. This smart from the start approach relies on the type of 
information and input received by federal agencies through the NEPA 
process. To be sure, more can be done to improve the efficiency and 
effectiveness of the existing review process, but shortcutting or 
sidestepping this process will only result in more conflict, more 
delays, and more costs to developers and, ultimately, consumers. Rather 
than turning our backs on this essential federal law, we should be 
putting effort into expanding the marketplace for renewable power and 
creating the fiscal certainty needed to attract private investment.
    Thank you for the opportunity to provide our views.
Appendix A. Detailed Views on Proposed Legislation
Cutting Red Tape to Facilitate Renewable Energy Act (H.R. 2170)
    The Wilderness Society opposes this bill. This bill offers a `rifle 
shot' approach that offers the agency--and ultimately the project 
proponent--too narrow a scope of review: one document, one alternative, 
and only one chance at getting it right. This approach is not supported 
by our recent experience with developing renewable energy resources on 
public lands and forests. Concerns related to the pace of environmental 
review could be ameliorated by ensuring that federal and state agencies 
responsible have the resources, personnel, direction, and technical 
expertise necessary to thoroughly evaluate development zones to speed 
project review time, prioritize applications most likely to be built 
for review, and conduct a robust stakeholder process to minimize 
conflict and controversy.
    Limiting environmental review to one action alternative may seem 
more expedient, but the fact is that the majority of renewable energy 
projects proposed for public lands are very large and complex projects 
involving first-of-a-kind technologies at this scale with which neither 
the agency nor the company have much experience. It sets up a decision 
between build and no build based on the agency's interpretation of the 
proposed project, existing and almost always imperfect data, and no 
formal consultation with states, tribes, and other stakeholders. Our 
experience with the Interior Department's fast track projects 
underscores this point. In all cases, significant changes were made 
between the draft and final environmental impact statements, often 
incorporating elements of multiple alternatives. The agency and project 
proponents need the ability to consider more than one alternative as 
has already been shown.
    Moreover, the inclusion of biomass in this bill is highly 
problematic as biomass more commonly involves the sourcing of wood 
materials, particularly use of secondary materials, and not the siting 
of plants on public lands. This bill as written could foster public 
distrust in biomass proposals resulting in delays and complications as 
the U.S. Forest Service moves to a restoration focus as Secretary 
Vilsack has proposed.
Utilizing America's Federal Lands for Wind Energy Act (H.R. 2171)
    The Wilderness Society opposes this bill. This bill will not result 
in faster or cheaper completion of wind projects on federal lands--in 
fact, we have concerns it could have exactly the opposite effect. By 
putting these facilities outside the very law designed to gather the 
critical information and input from states and other stakeholders 
necessary to ensure quick and intelligent deployment of commercial 
scale projects, project developers may find significant investments 
stranded at the project review stage when conflicts are uncovered 
through the environmental review process. Concerns related to 
meteorological permit processing time should be dealt with by the 
agencies administratively, under existing law and with full 
consideration of the current use of categorical exclusions.
Exploring the Geothermal Energy on Federal Lands Act (H.R. 2172)
    The Wilderness Society opposes this bill. The agency can address 
concerns about how existing categorical exclusions are applied or if 
additional exclusions are needed administratively, through a public 
process.
Clean Energy Promotion Act (H.R. 2176)
    The Wilderness Society supports redirecting revenues to permit 
process improvement, but recommends also seeking to authorize the 
Interior Department to reinvest in other key activities that would 
mitigate impacts on human and natural communities.
                                 ______
                                 
    Mr. Lamborn. OK, thank you for your statement. Thank you 
all for being here.
    Now, we will begin the questioning. I would like to start 
my five minutes with Mr. Dougherty. In your testimony, you say 
that the uncertainty that exists within today's regulatory 
framework, that this does exist, and this uncertainty is the 
primary disincentive to further public and private investment 
in the renewable energy market. Do you believe that having firm 
time lines for the permitting application process and reducing 
research project time lines will help to alleviate some of this 
uncertainty?
    Mr. Dougherty. Yes.
    Mr. Lamborn. Good. Then, Mr. Taylor, I have a question for 
you. In your testimony, you say--but, wait, before we go on, do 
you want to amplify on that any? You are welcome to do so, if 
you would like.
    Mr. Dougherty. Yes. I think from my experience with the 
wind industry, with the geothermal industry, with the water, 
marine, hydrokinetic industry, and others, a clear timely 
predictable process is key to alleviating any uncertainty and 
then taking away risk that you do not need to have, in order to 
do a project. I do agree that--my focus here was on the siting 
bills, so I do agree that a predictable Federal incentive 
process is also critical. I think the combination of the two 
would do well to help spur the clean energy future that we are 
all looking for.
    Mr. Lamborn. OK, thank you. Now, Mr. Taylor, in your 
testimony, you say that categorical exclusions are 
inconsistently applied at the field office level and that some 
offices require an environmental assessment for meteorological 
met towers, and you are sometimes asked to do a full 
environmental impact statement. Can you tell us how long a full 
EIS takes to complete, how long an assessment takes, and give 
an indication of how these costs impact your business?
    Mr. Taylor. Thank you, Chairman. So, yes, in my testimony, 
I alluded to that. I would say for an environmental impact 
statement, for me, that would be reason to walk away. It is 
just not worth it. It is just way too much cost and time to put 
up a met tower. I mean, you expect to do that to build a 
project; but to put a met tower, as a business decision, for me 
that would not be worth the effort.
    An EA, it really depends on how much detail they are 
looking for, how reasonable the office is, what kind of 
comments they receive. But, it is many months that that can 
drag on.
    I do not have the estimates with me today for the cost. I 
would be happy to follow up in writing with that, of the EA. 
But, what I do have would be the cost for all the monitoring I 
described, which is in the tens of thousands of dollars just 
for that monitoring. That does not include the EA. It is just 
having the people sit around for a week, watching. I will be 
happy to submit the other information, if you would like.
    Mr. Lamborn. If you could, please, that would be great. OK, 
thank you. I am going to yield back the balance of my time. I 
would now like to recognize the Ranking Member for five minutes 
and I am going to ask Mr. Landry of Louisiana to take the gavel 
for the remainder of the hearing.
    Mr. Holt. Thank you, Mr. Chairman. Several of the witnesses 
or a couple of the witnesses have talked about the real delays 
here; not the NEPA process, but the financial process, the 
technical process, all those other things. Mr. Thomsen, I would 
like to look at your experience in this. Your company was 
recently awarded a multi-hundred-million-dollar loan guarantee 
for three geothermal facilities in Nevada, is that correct?
    Mr. Thomsen. That is correct.
    Mr. Holt. And it would be more than 100 megawatts of base 
load power, is that correct?
    Mr. Thomsen. Correct.
    Mr. Holt. Sizeable project. Was the loan guarantee through 
the ARRA, the so-called Recovery Act program?
    Mr. Thomsen. Yes, it was.
    Mr. Holt. How many jobs will that create?
    Mr. Thomsen. A little over 300 construction jobs and about 
30 full-time positions in very rural counties in Nevada.
    Mr. Holt. So that is significant. You know, the spending 
plan for this current year, H.R. 1, would have rescinded all 
remaining funds in the loan guarantee program had it become law 
four or five months ago. And so, I suppose you would not have 
gotten this loan guarantee that will make possible hundreds of 
construction jobs and dozens of permanent jobs; is that 
correct?
    Mr. Thomsen. It is. And to be clear, we have not received 
the loan yet. We received----
    Mr. Holt. It has been approved.
    Mr. Thomsen.--conditional commitment from the Department of 
Energy. And, unfortunately, that loan is actually contingent on 
two of those three projects finishing NEPA permitting.
    Mr. Holt. I see.
    Mr. Thomsen. Both are in the public review phase and both 
have been in that process for well over 24 months.
    Mr. Holt. Well, I suppose the headline that will come out 
of today's hearing is ``death panel dooms Old Faithful.'' But, 
I do not want to engage in histrionics. I just want to make--or 
exaggeration. I just want to make the point that there is a 
reason for the environmental review and I would like to 
understand kind of how that works.
    Let me stay with Mr. Thomsen for a moment. I do not know 
your exact expertise. It might be financial. It might be public 
policy. But, you have people in the consortium, the company 
that is working to build these geothermal projects. You have 
experts in financial. You have experts in plumbing and piping 
and all of those other things. You probably do not have on 
staff, except the extent that it is required by NEPA, an 
archaeologist or someone who would be an expert in endangered 
species. We rely on the process to bring those considerations 
in, is that correct?
    Mr. Thomsen. We do not have an archaeologist; but when you 
are developing as many projects as we are, we have a very 
competent permitting team, consisting of well over 10 
individuals, biologists and permitting experts, who have come 
to us through other fields----
    Mr. Holt. And that is because there are----
    Mr. Thomsen.--with specific expertise.
    Mr. Holt. It is because, is it not, NEPA requirements are 
imposed on you for----
    Mr. Thomsen. Well, NEPA does not impose that. We have to 
hire experts in each one of these fields. You know, you touched 
on the process and I think this is an interesting debate. I 
would like to just take a moment. The lands that we are working 
on for Federal lands are leased to us by the BLM. The BLM 
geothermal program conducted a programmatic environmental 
impact statement, looking at lands that were reasonable for 
development. Those lands then go to state offices that look at 
them and see if they fit into their resource management plans. 
Then those lands go for lease to developers and the 2005 Energy 
Policy Act was a fantastic piece of legislation that allows--
freed up the leasing process, to allow developers to 
competitively bid for leases for development.
    We compete against other developers with the intent that 
BLM has put these lands up as acceptable parcels for renewable 
development. We competitively bid on that. The bonus bid comes 
back to the--it is actually divvied up kind of interestingly, 
where 25 percent goes to the BLM, 25 percent goes to the state, 
and 25 percent goes to the local jurisdiction or county in 
which those lands were leased. Then, we have these leases and 
we go into a permitting phase.
    Mr. Holt. Just to truncate your comment, I think you are 
illustrating the point that I think is important to make, which 
is BLM, these agencies, and Congress, itself, have a 
responsibility to balance many competing interests. That is the 
role of government, to balance competing interests, and that 
happens because this process is set up. And if we remove pieces 
of the process that make it impossible for those to be 
balanced, then it is not included. Well, I should yield my time 
now or my time is in the negative, so I thank you for your 
comments. We should pursue that more.
    Mr. Landry [presiding]. I was going to let you go on a 
little longer.
    Mr. Holt. You are kind, but I----
    Mr. Landry. I understand. The Chair now recognizes Mr. 
Labrador.
    Mr. Labrador. Thank you, Mr. Chairman. Mr. Thomsen, 
apparently, we found an area where NEPA regulations are 
creating jobs, right, because you have to hire additional 
people to comply with those NEPA regulations, so maybe that is 
a good thing about NEPA regulations. Would you agree with that 
statement or not?
    Mr. Thomsen. I would begrudgingly agree with that 
statement.
    Mr. Labrador. But, it is not really the kind of jobs that 
we want to be creating because they are not really productive 
jobs. They are just complying with more Federal regulation.
    Mr. Thomsen. They often pale in comparison to the jobs that 
would be created if we could develop these projects.
    Mr. Labrador. Thank you. I would rather have you developing 
the projects than going through more regulatory requirements.
    Let us go back to Old Faithful here for a second. Do you 
agree with the Ranking Member's description of how H.R. 2171 
would actually destroy Old Faithful?
    Mr. Thomsen. Absolutely not.
    Mr. Labrador. And why not? Is it even possible under the 
law to destroy Old Faithful?
    Mr. Thomsen. I believe, you know, as I have discussed the 
process for BLM, to be compliant with their programmatic 
environmental impact statement, to be compliant with their 
range management plans, and for them to put up a lease in the 
area of Old Faithful for developers to bid on would not happen.
    Mr. Labrador. OK.
    Mr. Thomsen. Second, I think it is--you know, it is 
probably not rational to think that business would try to 
destroy one of our national treasures by trying to develop a 
project there.
    Mr. Labrador. You are expecting Congress to be rational, 
though, right, and government agencies? Now, are you familiar 
with the 1988 Geothermal Steam Act Amendment?
    Mr. Thomsen. I am.
    Mr. Labrador. Under the 1988 Geothermal Steam Act 
Amendments, it has the units of a national system that are 
listed as significant thermal features, and we have some really 
strong requirements before you can even lease lands on these 
units that are part of the national park system--that are 
significant thermal features. Would you be surprised that 
Yellowstone National Park is part of one of those units?
    Mr. Thomsen. Would I be surprised? Yes.
    Mr. Labrador. Yes. So under this Act, Yellowstone National 
Park is actually protected. And, in fact, it tells us that the 
Secretary has to determine, number one, if a lease is even 
appropriate, and the determination is whether there is going to 
be any significant adverse effect on these lands. The one area 
that is protected is Old Faithful in Yellowstone National Park. 
Not only does it do that, but it gives special protections for 
these units and even if a lease is agreed upon--and none of us, 
I think, believe that a lease would be approved for Old 
Faithful--but even if it were approved, it tells the Secretary 
of the Interior that he must remove the lease if it is having 
any significant adverse effect. Would you agree with that?
    Mr. Thomsen. I would agree and I think to elaborate, the 
way we read page four, lines eight through 19, take that to 
even if you were to receive a geothermal lease, a typical 
lease, let us say in the Nevada desert, and the Secretary or 
the BLM were to find a significant impact there, they have the 
right clearly outlined to determine that you are not eligible 
for a CX. Then as a developer, we would go to the environmental 
assessment phase or an EIS, which we currently do, to continue 
to see if we may drill. Simply what this CX does, in places 
that have previously been scoped, approved, and are part of the 
plan, is allow us to look and do very non-intrusive temperature 
gradient holes, to see if there are resources so that we can 
decide, as a company, whether we want to designate our time and 
resources to looking to fully permit and fully develop those 
projects.
    Mr. Labrador. OK. Now NEPA was not intended to apply to 
projects that individually or cumulatively have no significant 
impacts, right?
    Mr. Thomsen. I cannot comment directly on that statement.
    Mr. Labrador. OK. Do you think the waiver in section 2b of 
H.R. 2171 is consistent with the BLM's current findings on NEPA 
and exploratory practices and the type authorized under the 
bill?
    Mr. Thomsen. I do and I think, you know, in my statement, I 
think it actually refines the actions. Currently, the 
categorical exemption for geophysical activity only has one 
factor, which is you cannot build a road and you--excuse me, 
two, you cannot build a road and you cannot build a pad. And 
this allows for, I think, a lot of interpretation, which we 
have heard from this panel that makes BLM wary. It also allows 
for a lot of potential mischief under those broad scopes. H.R. 
2171 reins that in and says you can only disturb an acre. You 
cannot build a road. It limits the depth. It limits the time, 
really, you know, handcuffing developers to doing what was the 
intent, looking for temperature gradient and nothing more.
    Mr. Labrador. All right. Thank you, very much.
    Mr. Landry. OK. I guess it would be my turn. And if you do 
not mind, after, we are going to do a second round. Mr. Holt 
has some additional questions.
    Mr. Thomsen, I am going to go out on a limb here. The 
industry that you and Mr. Taylor are in are considered a 
renewable energy industry or a green energy, is that not 
correct?
    Mr. Thomsen. Yes, it is.
    Mr. Landry. And I would believe that you all would not be 
here today unless you were passionate about your industry?
    Mr. Thomsen. It is our core business.
    Mr. Landry. Well, I am so sorry to welcome you to the 
Federal Government, OK, because the frustrations that you see 
and the frustrations that the oil and gas industry has been 
facing and many other energy industries in this country, and I 
think it is inexcusable. I want you to know I am with you, all 
right. So make sure any of the liberal bloggers out there, who 
take me as big oil, I want you to know I am with you to try to 
cut through some of that red tape.
    What I do not understand is do you believe that NEPA 
balances the environment with the economic impact?
    Mr. Thomsen. I believe it attempts to and I think it is 
very hard. The question was asked earlier about the impact of 
delays on a project and the cost. We have heard some examples 
where you simply walk away from the development of a project. 
But, I can tell you, you know, when you have many projects in 
the pipeline, unexpected delay is very difficult to deal with, 
and I think a long lead time or the work required to do the 
proper work up front is respectable and we support that. What 
you need in business is consistency or an expectation. When you 
do not have that, that is where the trouble comes. When we can 
file for a CX, we may get it in six weeks, we may get it in six 
months, or we may find out that it needs to be an EIS. That is 
where the real trouble comes in.
    Mr. Landry. Would you say certainty is what you are looking 
for?
    Mr. Thomsen. Yes, sir.
    Mr. Landry. Mr. Taylor?
    Mr. Taylor. Same question?
    Mr. Landry. Yes.
    Mr. Taylor. Yes. I think that predictability and certainty. 
One other point I would add, which I assume Mr. Thomsen would 
agree with, is one of the challenges in our industry is you 
have multiple different time lines that need to all come 
together. You have a whole separate process that is regulated 
by FERC, for access to the transmission good, for example, and 
that is a highly regulated process with defined time frames. 
And if you get to the point where you are ready to build the 
substation and connect to the grid, but you do not have your 
permits, you are often told by the grid operator, you have to 
put millions of dollars up and if you do not know you are going 
to get a permit, how can you commit to the millions of dollars 
to build the interconnection that is necessary to transmit that 
power onto the grid, to say nothing of power contracts, 
financing, and all the other complexities. So knowing when 
these things are going to happen, so that you can plan for them 
to coincide is critically important in our industry.
    Mr. Landry. Well, just to clarify something. Mr. Huntley or 
Mr. Lyons, either one, I do not know anywhere under NEPA where 
in the studies, they are required to balance the environment 
with the economic impact of it. Do you all know? I do not know 
if Mr. Thomsen might have been confused whether or not he and 
his own company try to balance whether or not they want to do a 
project under NEPA. But, under NEPA, do you all know of any 
provisions where when we do the studies, we look at what is the 
cost of the environment and what is the cost to the economy?
    Mr. Huntley. Thank you, sir. That is an excellent question 
because I think one of the biggest misconceptions about the 
statute is that it does not dictate outcomes. It creates 
process where many factors can be balanced. That includes 
economic considerations, considerations of environmental 
impacts, considerations of impacts to states, to tribes, to 
other assets.
    My reading of NEPA is that the process that NEPA creates 
affords all stakeholders the opportunity to bring their 
concerns to bear and that would include economic 
considerations.
    Mr. Landry. But when you include the economic 
considerations, are you just looking at it from a one side, as 
to if we impact the environment, what is the economic impact of 
impacting the environment? In other words, you are looking for 
it in one dimension, rather than saying, OK, what is the impact 
on the environment and what is the benefit to the economy if we 
go ahead and allow the project to continue? What is the overall 
economic impact based upon how many jobs it is going to create? 
What is it going to do to the price of energy? Does it take 
that into account as well?
    Mr. Huntley. I believe that, again, the process that is 
created affords the opportunity for all of those considerations 
to be brought forward. And what I have heard from the panelists 
today is that all too often, these concerns are raised late in 
the permitting process. What we have offered as an alternative 
is a way to look at these considerations much earlier, to give 
companies the predictability and certainty that they crave by 
having a better sense of what the impacts would be on places, 
to find the right places, and get development to those places--
taking into account not just environmental considerations but, 
again, the full suite of impacts to society.
    Mr. Landry. Well, I am going to abide my time and then the 
Chair recognizes Mr. Holt for five minutes the second round.
    Mr. Holt. Thank you. Thank you, Mr. Lamborn. Mr. Thomsen, 
in your testimony, let us see, in the printed testimony, it was 
page two and I think I heard you also say this in your oral 
testimony, you said that H.R. 2171, that you support it because 
it will lead to ``clearly defining and enhancing the existing 
categorical exclusion.''
    Now, I have read 2171. It does not do anything to clarify 
or better define categorical exclusion. What is says is under 
some circumstances, NEPA shall not apply. So did you really 
mean to say that it defines and clarifies categorical 
exclusion?
    Mr. Thomsen. To the Chairman, to Mr. Holt, you know, this 
was a question that came up with staff. I think the words NEPA 
exclusion in line 13 could be revisited on page three of the 
bill. You know, I think the intent, and I----
    Mr. Holt. So, you would like it to clarify categorical 
exclusion; is that what you mean?
    Mr. Thomsen. Well, I do not think it is my place to speak 
to the intent of the bill. The way I read it is this exclusion, 
as written, is permissible with the approval of the Secretary 
and the BLM. In my mind, that is the same as a categorical 
exclusion.
    Mr. Holt. No, it would be in the statute. Yes, in the 
statute, you would say, it shall not apply. So, that is--the 
NEPA shall not apply. It does not say categorical exclusion 
shall be imposed in a certain circumstance or clarify that.
    The other point I would like to raise is you said, again 
fairly categorically, that lands next to Yellowstone would 
never be leased from the BLM. I would suggest that maybe in the 
President Lamborn Administration, if there were oil there or in 
some other administration, where energy production is foremost 
or is the sole concern, then, in fact, it might be leased. So, 
I do not think that we would want to then get into a situation 
where NEPA would be raised.
    Mr. Taylor, according to your testimony, the Wind Energy 
Association supports the consistent use of categorical 
exclusions. This is along the same line that we were talking 
about a just a moment ago with Mr. Thomsen for meteorological 
towers, is that correct?
    Mr. Taylor. Yes.
    Mr. Holt. In your testimony, you acknowledged that there 
may be extraordinary circumstances in which the categorical 
exemption from NEPA would not be appropriate; is that correct?
    Mr. Taylor. Yes.
    Mr. Holt. Yes. Yet, H.R. 2172 simply exempts meteorological 
towers from NEPA. In other words, it does not clarify; it does 
not say it should; it just says, NEPA shall not apply. So, it 
seems to me that the bill does not mandate the use of 
categorical exemptions or say that there might be extraordinary 
circumstances. Would you not agree that because of such a broad 
exemption, it might actually be counterproductive in moving 
along with these projects?
    Mr. Taylor. Representative Holt, Chairman, if I could maybe 
expand a bit on that. I think the challenge is this: under 
current BLM policy, it allows the use of categorical exclusions 
today and most BLM offices apply that in a rational matter. 
There are some specific offices, and it is well known which 
ones they are, in particular, the California Desert District 
Office is the one that is the biggest challenge, does not do 
so. So, we are open to a variety of strategies to getting to a 
reasonable outcome. I think what we are looking for is some 
more clearer direction that we can point to, to say that this 
is what the appropriate policy is. And the reason that we would 
be concerned about categorically exempting from NEPA any met 
towers, my company would never propose this, but what if 
someone proposed to put one----
    Mr. Holt. So, you want uniformity and predictability in the 
implementation.
    Mr. Thomsen. Without having----
    Mr. Holt. You are not advocating that NEPA be thrown aside?
    Mr. Thomsen. If we can get to an implementation that is 
consistent with what the policy currently is, we would be very 
happy with that and I do not think that necessarily requires a 
total exemption through NEPA.
    Mr. Holt. OK. So, you would like a consistent process that 
does not promote more litigation or does not, because of 
limited options, lead the agency to say no prematurely?
    Mr. Thomsen. I think that is a fair statement, yes.
    Mr. Holt. Thank you. I thank you for your courtesy, Mr. 
Chairman, and we look forward to the Lamborn Administration.
    Mr. Landry. Mr. Labrador?
    Mr. Labrador. Mr. Chairman, thank you. Just to make it 
clear for the record, the 1988 Geothermal Steam Act Amendments 
has the following language it, and I am having fun, I guess, 
with this going back and forth, but if the Secretary determines 
that the exploration, development, or utilization of the land 
subject to the lease application is reasonably, reasonably 
likely to result in a significant adverse effect on a 
significant thermal feature, and we already determined that 
Yellowstone is one of those significant thermal features, 
within a unit of the national park system, the Secretary shall 
not, shall not issue such a lease, just to make it clear for 
the record.
    Mr. Thomsen, geothermal exploration test project under H.R. 
2171 is to last no more than 45 days. If you have to go through 
a full NEPA review, how much time would you likely spend on 
NEPA assessments and processing?
    Mr. Thomsen. In our experience, for exploration, to receive 
an EA takes about 12 months.
    Mr. Labrador. OK. How many worker hours would be required 
if a NEPA review were required for every permit?
    Mr. Thomsen. A lot.
    Mr. Labrador. Hundreds? Dozens?
    Mr. Thomsen. I would say thousands of man hours.
    Mr. Labrador. Thousands, OK. What efficiencies are gained 
by having BLM employees focus a NEPA review on when the project 
is ready to go at the development stage, rather than at the 
exploration phase?
    Mr. Thomsen. To the Chairman and Mr. Labrador, a great 
question. I think, you know, we have brought this up. BLM has 
limited resources and if they try--you know, we need to drill 
lots of temperature gradient holes to start to delineate where 
the resource is and if it is a viable resource. Then, we move 
into the full exploration phase, where we drill wells, 
observation wells in much larger diameter, much deeper, to see 
flow testing and know if there is a project. During these 
phases, we are like oil and gas wildcatters and the success 
rate is getting lower and lower in this country, as we move 
East, away from anomalous resources, such as the geysers in 
northern California. So, the success rate is going down 
dramatically.
    If they were to do an EA for every TGA hole or exploration 
hole, the resources would be spread very thin. And we think 
that if we do this responsibly, through the research management 
plans and the programmatic environmental impact statement, we 
can allow them to focus their resources on the viable projects 
that may come to fruition, resolving some of the other concerns 
we have heard, which is getting those real projects through the 
process expeditiously, while, you know, addressing all of the 
concerns from the environmental community and through NEPA. 
Oftentimes, I think we take it out on NEPA, the bigger problem, 
which is, maybe, you know, staff resources and so forth. So, we 
think it can have a large impact and allow not only developers 
like Ormat Technologies and the industry; but also the 
Department of Energy geothermal program to start doing this 
work, to start to identify where this resource is, so that we 
can more rapidly develop the emerging geothermal resource in 
the country.
    Mr. Labrador. Thank you. H.R. 2171 addresses likely 
environmental impacts by limiting the project's footprint, the 
well's depth, and surface disturbance. What additional factors 
might be considered should NEPA apply?
    Mr. Thomsen. You know, again, it is dependent on field 
offices. But, we have been asked questions that related to 12-
mile bird studies for a rig that might be up for 45 days; 
comprehensive numerical water models, trying to see what the 
reservoir impact will be, that we have had to go through. So, 
these can become costly and quite timely. And this is really 
the result of taking it to the staff level experts, who want 
this data for projects that may or may never come to fruition.
    Mr. Labrador. OK. Now the provisions of H.R. 2171 talk 
about 2,500 feet well depth and one acre of soil disruption. Do 
you think these are sufficient to facilitate improved 
exploration for geothermal energy?
    Mr. Thomsen. I think it is and I also think it is a 
compromise. When we talk to the industry, they would love to go 
deeper and bigger under the CX and I think that the one-acre 
disturbance really limits their ability to do so. And I think, 
again, it focuses the existing CX or at least policy that is 
there today that allows for some of this to occur.
    Mr. Labrador. All right, thank you. Mr. Huntley, in your 
testimony, you say that the legislation before us today is 
predicated by the false notion that NEPA approval is the 
principal roadblock to renewable energy projects. However, 
witness after witness has told our Committee that these 
projects are tied up in the permitting process for years or 
months. I just want to make sure that the record reflects that 
you disagree with the other witnesses, who have said that the 
delays, uncertainty, and environmental process is a primary 
reason for delays in the renewable energy projects. Do you 
agree or disagree with the renewable energy witnesses, who have 
come before this Committee?
    Mr. Huntley. Thank you, sir. With respect, I think we have 
heard different messages from both this panel and the prior 
panel. What I have heard is that there are challenges to the 
implementation, especially the consistent implementation of the 
statute, a statute that affords the opportunity to consider 
economic and other costs. We continue to work with many of the 
companies represented at the table and with the agencies you 
heard from on the first panel, to improve the efficiency and 
the effectiveness of implementation of the law. So, I 
appreciate the question, but I heard a different message.
    Mr. Labrador. All right. Thank you, very much.
    Mr. Landry. Thank you, Mr. Labrador. I wish Mr. Holt would 
have hung around just a little longer, so I could address 
something. I want to thank Mr. Labrador for inserting the 
language that Mr. Holt spoke about. I think it is necessary 
that we exclude NEPA from the process and I will tell you why: 
because for too long, you cannot create certainty unless you 
legislate it, unfortunately, because when you leave it to the 
whim of the Administration, it becomes a subjective argument, 
instead of an objective one, and this Administration seems to 
not be able to calculate reason from fiction when it comes to 
creating jobs. And so, I think it is necessary that after we 
have hearings, it is Congress's role to come in and to create 
that certainty by legislating those things.
    And Mr. Huntley, I know your testimony, you expressed 
support for a zone-based system of renewable energy development 
and I am sure you know that BLM manages about 120 million acres 
of land and that I understand is some of the best land for 
creating solar energy projects. And of the 120 million acres, 
only 22 million acres would be available for right-of-way 
applications and of that, 677,000 or so acres have been 
identified as solar energy zones. So this amounts to less than 
one percent of the total land viable for solar development.
    Now, if you are a strong supporter of tapping into 
renewable resources, do you believe that setting aside one 
percent of our public land and locking away the rest is an 
effective way to expand our renewable energy production in this 
country?
    Mr. Huntley. Thank you for the question, sir. I believe 
that what we have been presented with from the Bureau of Land 
Management were two options, neither of which, I think, would 
be satisfactory for the majority of the stakeholder's interest 
in seeing solar developed. However, in that analysis that the 
Bureau put forward in December of last year, they jointly, with 
the Department of Energy, estimated that less than one-half of 
that 600,000 acres would be required to support utility scale 
development on public lands to meet the needs of the six states 
over the next 20 years.
    I do not believe that the particular places in that 670,000 
acres are necessarily the right places for the rest of time, 
but what is most attractive to our organization with the zone-
based approach that has been put forward--and we believe could 
be improved upon--is that it identifies the right places to 
start. I think for that reason you will find in the letter that 
I submitted for inclusion in the record, which we signed 
jointly with the large-scale solar association and six utility 
companies, there is an emerging consensus amongst the solar 
industry that this is an appropriate way forward.
    Mr. Landry. So, basically, under your analysis, .5 percent 
is all we need, because you said half of that amount would be 
necessary. I guess--well, let me ask you this, take a look at 
this, I mean, this is the industry. Does the industry feel that 
they could use more land, that stakeholders would like to see 
more land become available?
    Mr. Taylor. Thank you, Representative Landry. To answer the 
question, so 600,000 acres, if you assume that all of that were 
available, and my company does solar photovoltaic, the panels, 
we do not do solar thermal, so I am not as familiar with the 
acreage requirements for solar thermal, but for photovoltaic, 
the sort of rule of thumb is somewhere around seven acres per 
megawatt of output. So, with that kind of a figure, if you 
truly had 600,000 acres available, you could produce a massive 
amount of solar energy.
    I think the challenge is more about, from my personal 
perspective, having looked at the maps and what the areas BLM 
identified, I do not think they did as good a job as they could 
have done consulting with the industry and other stakeholders 
on where are practical places to develop. I think they did a 
good job--I do not want to speak for Mr. Huntley or for Mr. 
Lyons, I do not know if the environmental stakeholders feel 
like they picked places that were environmentally unacceptable. 
I think they picked some of the right places, but they picked 
some other places that just are not feasible from a 
transmission and market standpoint, and that is evidenced by 
the fact that there are no applications. Even though they have 
given these sort of a green light, many of those locations do 
not have anyone applying to go there because there is no 
business reason to do it.
    So, I think they are on the right track. I think we share 
the view that getting to buy in up front makes our life easier. 
But, I think there is still some more work to do to really 
tailor that to where the need is.
    Mr. Landry. Well, you see that is my frustration, is that I 
do not think you all allow the stakeholders an opportunity to 
sit at the table when you all and the bureaucrats decide where 
the stakeholders should be placing their projects. You know, at 
the end of the day, it comes down to dollars and cents, all 
right. It does not come down to a forest dream of where you 
would like them to place a solar panel. The question is whether 
or not they can place their solar panel on a particular piece 
of acreage and can they make money placing it on it. If they 
cannot make any money, they will not put it in there.
    So, I think the lesson here is that, again, you are all not 
allowing the stakeholders an opportunity to give their input as 
to where they need to place them and what acreage they need to 
place them. At the same time, it again shows that this Federal 
Government is just incapable, OK, of promoting any energy 
industry. I mean, I just find it fascinating that I can sit in 
this Committee and hear from wind and solar and thermal 
industries that are basically singing off the same hymnal, as 
oil and gas and coal industries. So with that, I think you all 
should take into consideration more of what the stakeholders 
need.
    That is the end of the questions that I have. I think that 
we--I am going to ask unanimous consent to submit for the 
record a letter from the Chamber of Commerce supporting all 
four bills and the project number report that Chairman Lamborn 
mentioned in his opening statement. And, of course, since I am 
the only one here, I guess we can consent to it.
    [NOTE: The letter from the U.S. Chamber of Commerce and the 
U.S. Chamber of Commerce's study titled ``Progress Denied: A 
Study on the Potential Economic Impact of Permitting Challenges 
Facing Proposed Energy Projects'' has been retained in the 
Committee's official files. The study can be found at http://
www.uschamber.com/reports/progress-denied-study-potential-
economic-impact-permitting-challenges-facing-proposed-energy
    Mr. Landry. Thank you all, so much, for your participation 
in this hearing. I thank you all for your testimony and any 
members of the Committee that have additional questions for the 
record, I will ask that they respond to those in writing. If 
there is no further business, without objection, the 
Subcommittee stands adjourned.
    [Whereupon, at 12:51 p.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

   Statement submitted for the record by the Bureau of Ocean Energy 
Management, Regulation and Enforcement, U.S. Department of the Interior

    Mr. Chairman, and Members of the Committee, the Bureau of Ocean 
Energy Management, Regulation and Enforcement (BOEMRE) submits the 
following statement for the record to discuss its renewable energy 
program, efforts to facilitate and expedite the development of the 
Nation's offshore wind energy resources, and comments on two bills 
before the committee, H.R. 2170, the Cutting Federal Red Tape to 
Facilitate Renewable Energy Act, and H.R. 2173, the Advancing Offshore 
Wind Production Act.
    These bills were introduced little more than one week ago, so the 
Department of the Interior has not had time to conduct an in-depth 
analysis of them, but we appreciate the opportunity to outline our 
general views at this time. The bills exempt certain federal actions 
from compliance with the National Environmental Policy Act (NEPA)--the 
cornerstone law guiding environmental protection and public involvement 
in federal actions. The Department opposes these two bills.
Outer Continental Shelf (OCS) Wind Resources and Energy Development 
        Goals
    BOEMRE manages the energy and mineral resources of the OCS, which 
comprises some 1.7 billion acres of submerged lands generally located 
between three and 200 nautical miles off the continental U.S., Alaska, 
and Hawaii. The U.S. Department of Energy (DOE) estimates that the 
total offshore wind potential is over 4,000 gigawatts (GW) for areas up 
to 50 miles from shore with average wind speeds of seven meters per 
second or greater at 90-meter elevation. This estimate includes the 
resources of the Great Lakes and the coastal submerged lands under 
state jurisdiction, which are not managed by BOEMRE. However, OCS lands 
constitute the vast majority of what DOE considers ``offshore'' in its 
wind energy estimate.
    According to a report prepared and issued jointly by DOE's Office 
of Energy Efficiency and Renewable Energy and BOEMRE earlier this year, 
each average GW of wind power capacity can generate 3.4 million 
megawatt-hours of electricity annually.\1\
---------------------------------------------------------------------------
    \1\ A National Offshore Wind Strategy, Creating an Offshore Wind 
Energy Industry in the United States, February 7, 2011
---------------------------------------------------------------------------
    This amount of power would replace the use of 1.7 million tons of 
coal or 27.6 billion cubic feet of natural gas and reduce the carbon 
emissions associated with those fossil fuels by 2.7 million metric 
tons. The Nation's vast offshore wind resources are located close to 
our largest electricity demand centers, allowing offshore wind to 
compete directly with fossil fuel-based electricity generation. 
Northeastern and Mid-Atlantic coastal states especially can benefit 
from OCS wind resources to meet ambitious renewable energy portfolio 
standards and related policy goals calling for the use of a stable and 
clean supply of energy resources for electrical generation.
    In addition to these energy and environmental benefits, offshore 
wind energy development would have considerable direct and indirect 
economic benefits. The National Offshore Wind Strategy suggests that 
offshore wind development would create approximately 20.7 direct jobs 
per annual megawatt installed in U.S. waters. Many of these jobs would 
be located in economically depressed port areas that could become 
important fabrication and staging areas for the manufacture, 
installation, and maintenance of offshore wind turbines.
    The National Offshore Wind Strategy addresses these goals and 
discusses three focus areas that are central to achieving them--(1) 
technology development, (2) market barrier removal, and (3) advanced 
technology demonstration. BOEMRE is working closely with DOE and with 
other federal agencies, state, local, and tribal governments, and other 
stakeholders to establish an effective process for siting and 
permitting offshore renewable energy projects.
OCS Renewable Energy Regulatory Framework
    The Energy Policy Act of 2005 provided the Secretary of the 
Interior with the authority to administer an OCS renewable energy 
program. This authority, including the mandate to promulgate necessary 
regulations, was delegated to BOEMRE (then the Minerals Management 
Service) in March 2006. In early 2009, at the start of the Obama 
Administration, a draft rule had been issued, but a final regulatory 
framework was not yet promulgated. On taking office, Secretary Salazar 
addressed the remaining issues, leading to the publication of BOEMRE's 
final OCS renewable energy regulatory framework on April 29, 2009.
    The regulatory framework is a comprehensive approach to managing 
the full life cycle of OCS renewable energy activities, from initial 
study and leasing, through site characterization and assessment and 
project construction and operation, ultimately to cessation and 
decommissioning. The regulatory framework reflects a renewable energy 
program which embraces a ``life cycle'' approach that encompasses:
        <bullet>  Coordination through task forces established with 
        state, local and tribal governments;
        <bullet>  Lease and grant issuance including competitive and 
        non-competitive leasing as well as commercial and limited 
        leases;
        <bullet>  Plans and operations oversight, including site 
        assessment, construction and operations, and general activities 
        plans, plan approval, and environmental and safety monitoring 
        and inspections;
        <bullet>  Payments to cover bonding activities; and
        <bullet>  Decommissioning at the end of a project's life span.
    Additionally, key mandates for the Renewable Energy Program 
include:
        <bullet>  Safety;
        <bullet>  Protection of the environment;
        <bullet>  Coordination with affected State and local 
        governments and Federal agencies;
        <bullet>  Collecting a fair return for the use of Federally-
        owned resources; and
        <bullet>  Equitable sharing of revenue with States.
    With over 20 existing laws and Executive Orders that apply to the 
OCS, consultation and coordination is critical to a successful 
renewable energy program. As BOEMRE strives to facilitate sustained 
development of a domestic offshore wind industry, we are working with a 
wide array of stakeholders to find ways for offshore wind projects to 
proceed with minimal adverse effects on other uses and resources. Our 
most valuable consultation and coordination tools have proved to be the 
state-by-state intergovernmental task forces that we have established. 
These bodies bring together all interested and affected government 
parties to facilitate information sharing and foster informed and 
efficient decision-making with the goal of advancing environmentally 
responsible offshore renewable energy development. To date, we have 
nine task forces on the Atlantic coast that are helping BOEMRE to 
proceed with commercial wind energy leasing, as well as one on the 
Pacific coast that may focus on marine hydrokinetic energy development.
    Since the OCS renewable energy regulatory framework was established 
in 2009, Secretary Salazar and BOEMRE have sought to outline, refine, 
and streamline our siting and permitting processes for wind leasing and 
development. BOEMRE has launched several initiatives to support our 
efforts as summarized briefly below.
Atlantic Offshore Wind Energy Consortium
    In early 2010 Secretary Salazar invited the governors of the 
Atlantic coast states to join with the Department of the Interior in an 
Atlantic Offshore Wind Energy Consortium (AOWEC) for the purpose of 
facilitating federal-state cooperation and coordination for the 
efficient, expeditious, orderly, and responsible development of wind 
resources along the Atlantic coast. On June 8, 2010, the Secretary and 
11 governors signed a Memorandum of Understanding (MOU) outlining the 
scope and objectives of the Consortium and establishing working groups 
charged with formulating an action plan addressing issues relating to: 
(1) siting and permitting, (2) data and science, and (3) investment in 
infrastructure. DOE is serving an advisory role to BOEMRE by assessing 
national infrastructure investment requirements as described in the 
National Offshore Wind Strategy. The action plan was completed in 
February of this year, and BOEMRE is considering its recommendations, 
which relate to improving coordination, implementing pilot projects, 
revising existing statutory and regulatory authorities to streamline 
permitting, and improving data acquisition and sharing.
Smart from the Start Atlantic Wind Initiative
    On November 23, 2010, Secretary Salazar announced Smart from the 
Start, a program to expedite commercial wind lease issuance on the 
Atlantic OCS. This initiative has three main elements:
        <bullet>  Streamlined processes, including more efficient 
        National Environmental Policy Act (NEPA) compliance review, for 
        renewable energy lease issuance;
        <bullet>  Identification of Wind Energy Areas (WEAs) followed 
        by information gathering to stimulate investment in Atlantic 
        OCS wind leasing and development; and
        <bullet>  Processing of OCS energy transmission line proposals 
        on a parallel but separate track from generation projects.
    Work has begun to identify as WEAs those areas of the OCS that have 
high wind energy resource potential and relatively low potential use 
conflicts. BOEMRE will then conduct an environmental assessment (EA) to 
analyze potential impacts associated with issuing leases and conducting 
site characterization and assessment activities. If the EA leads to a 
finding of no significant impact, we will be able to issue leases and 
will not have to prepare an environmental impact statement (EIS). This 
will allow developers to acquire leases on an expedited basis and 
enable them to acquire necessary financing of their projects. BOEMRE 
will conduct a full EIS when the lessee submits a construction and 
operations plan for review.
    Smart from the Start also calls for enhanced coordination on 
offshore wind within the federal government. The Department of the 
Interior has led the formation of the Atlantic Offshore Wind 
Interagency Working Group--which includes executive level officials of 
DOE, Commerce, Defense, Homeland Security, the Environmental Protection 
Agency, the Council on Environmental Quality and other federal 
agencies--to facilitate the sharing of relevant data. In response to 
our January 2011 data call to the Working Group, we received 180 
entries from our federal partners. BOEMRE will use these data sets when 
conducting environmental analysis and during the identification and 
modification of WEAs, and when possible, we will share this data 
publicly through the Multipurpose Marine Cadastre.
    Smart from the Start has been well received by federal and state 
stakeholders and the offshore renewable energy industry.
Additional Cooperation with Other Federal Agencies
    BOEMRE is also working with interested federal agencies to 
establish agreements to facilitate coordination on OCS renewable energy 
development. For example, we have in place an MOU with DOE to 
facilitate and expedite OCS wind and hydrokinetic development. 
Consistent with this MOU, DOE is making available up to $50.5 million 
over 5 years to develop offshore wind technology and to reduce specific 
market barriers to its deployment. We also have an established MOU with 
the National Oceanic and Atmospheric Administration (NOAA) on OCS 
energy development and environmental stewardship, a MOU with the U.S. 
Fish and Wildlife Service concerning the Migratory Bird Treaty Act and 
a MOU with the Federal Energy Regulatory Commission regarding the 
leasing and licensing of marine hydrokinetic projects. Other MOUs in 
development are with the Department of Defense (Secretary), the Army 
Corps of Engineers, and the U.S. Coast Guard. We are confident that 
these inter-agency groups will ultimately improve permitting processes 
and promote efficient and effective decision-making.
BOEMRE Research and Studies
    BOEMRE has two main scientific research programs. The Environmental 
Studies Program (ESP) has completed numerous research projects and has 
several more that are planned or ongoing to determine and evaluate the 
effects of OCS activities on natural, historical, and human resources 
and the appropriate monitoring and mitigation of those effects. For 
example, the ESP has completed or is conducting a number of scientific 
studies that explore the potential effects of offshore wind projects on 
birds, marine species, and other aspects of the environment. BOEMRE and 
DOE co-fund a number of studies within ESP and also partner on research 
efforts led by the International Energy Agency. Pursuant to the MOU 
mentioned above, DOI and DOE have also formed an interagency working 
group with other federal agencies including NOAA, Department of 
Defense, Army Corps of Engineers, and the Department of the Navy which 
will facilitate an integrated national network for characterization of 
offshore wind resources and design conditions. BOEMRE's Technology 
Assessment and Research (TA&R) Program also conducts research 
associated with operational safety, engineering standards, and 
pollution prevention.
    One noteworthy research project just completed under our TA&R 
program is on Offshore Wind Energy Turbine Structural and Operating 
Safety. BOEMRE asked the National Research Council's Marine Board to 
conduct a study relating to the structural safety of offshore wind 
turbines. The study addresses three specific areas: (1) standards and 
guidelines for design, fabrication and installation of offshore wind 
turbines; (2) expected roles of third-party entities, called Certified 
Verification Agents (CVA), in overseeing the design and construction of 
offshore wind turbines and identifying standards for monitoring, 
inspection and compliance verification; and (3) expected qualifications 
to be considered a recognized CVA. BOEMRE received the final report on 
April 28, 2011, and is in the process of analyzing the recommendations 
to determine whether to modify the relevant offshore renewable energy 
regulations.
The National Ocean Policy's Coastal and Marine Spatial Planning
    BOEMRE is implementing the OCS renewable energy program in 
accordance with Executive Order 13547, which President Obama issued in 
2010 to establish a comprehensive and integrated national policy for 
stewardship of the oceans, our coasts and the Great Lakes, including a 
framework for coastal and marine spatial planning (CMSP). We fully 
understand and support the need to work together with all OCS users and 
regulators, and we look forward to coordinating with the National Ocean 
Council and leading and participating in regional planning bodies 
undertaking CMSP. We believe our intergovernmental task forces are a 
valuable vehicle for informing these efforts. We will use an integrated 
interagency marine information system, developed in collaboration with 
the National Ocean Council, to implement Executive Order 13547. Part of 
this system will be the Multipurpose Marine Cadastre, which provides 
legal, physical, ecological, and cultural information in a common 
geographic information system framework. This tool was created in 
partnership with NOAA to comply with a mandate in section 388 of the 
Energy Policy Act of 2005.
Outreach to Non-governmental Stakeholders
    BOEMRE has repeatedly engaged non-governmental organizations (NGOs) 
to obtain feedback on its regulatory framework and associated 
processes. During promulgation of our renewable energy regulatory 
framework rule, we conducted several stakeholder information gathering 
sessions, as well as workshops on the draft and final regulations. 
Since the final framework was issued, we have continued meeting with 
NGOs and stakeholders, including The Nature Conservancy, the National 
Wildlife Federation, and the Mariners Advisory Committee and have had 
valuable information exchanges. We have also communicated with 
representatives of fishing interests through the special working groups 
established by Massachusetts and Rhode Island, as well as the regional 
Fisheries Management Councils. BOEMRE also has continued its dialogue 
with industry representatives, primarily through the Offshore Wind 
Development Coalition. Based on all of our conversations with 
stakeholders, we have identified regulatory revisions that we will 
pursue to bring more clarity and efficiency to our processes. Our first 
such revision--designed to simplify the leasing process for offshore 
wind in situations where there is only one qualified and interested 
developer by eliminating a redundant and therefore unnecessary step--
became effective on June 15.
Status of OCS Wind Development
    All of the initiatives discussed to this point are helping BOEMRE 
to identify areas where there are relatively few impediments to 
offshore wind development and move forward quickly and efficiently to 
promote the establishment of an offshore renewable energy industry.
    BOEMRE's efforts have already resulted in significant 
accomplishments in offshore wind development:
        <bullet>  The Bureau has issued 4 short-term leases that permit 
        the installation of data collection facilities to inform 
        planned commercial wind development activities (three off New 
        Jersey and one off Delaware). These leases were issued in 2009 
        under an interim policy initiated while the OCS renewable 
        energy regulatory framework was being developed.
        <bullet>  Interior issued the first ever U.S. offshore 
        commercial wind energy lease in October 2010 for the Cape Wind 
        Energy Project in Nantucket Sound off Massachusetts. Shortly 
        thereafter, the lessee submitted a construction and operations 
        plan, which BOEMRE approved on April 18, 2011. The lessee hopes 
        to begin construction later this year. The Cape Wind Energy 
        Project proposal contemplates building 130 wind turbine 
        generators, 3.6 megawatts each, with the maximum capacity to 
        produce about 468 megawatts. The average expected production 
        from the wind facility could provide about 75 percent of the 
        electricity demand for Cape Cod and the islands of Martha's 
        Vineyard and Nantucket. At average expected production, Cape 
        Wind could produce enough energy to power more than 200,000 
        homes in Massachusetts.
        <bullet>  BOEMRE announced the first four WEAs--off the coasts 
        of New Jersey, Delaware, Maryland, and Virginia--established 
        under Smart from the Start on February 9, 2011, in a Notice of 
        Intent to Prepare an Environmental Assessment for Mid-Atlantic 
        Wind Energy Areas. We have determined that there is no 
        competitive interest in leasing the area made available off 
        Delaware and we will complete the noncompetitive leasing 
        process in response to NRG Bluewater Wind's commercial wind 
        lease request. We hope to make a final decision on lease 
        issuance by the end of this year. By contrast, we have 
        determined that there is competitive interest off Maryland, and 
        we believe there will also be competitive interest off New 
        Jersey and Virginia. BOEMRE plans to complete competitive 
        processes for these three states by early 2012. We will 
        continue to consult with our intergovernmental task forces on 
        all of these leasing processes.
        <bullet>  BOEMRE intends to designate a second set of WEAs--
        potentially including areas offshore Massachusetts, Rhode 
        Island, New York, and North Carolina--by the end of this year. 
        We have already received numerous expressions of interest off 
        the coast of Massachusetts, and we will be soliciting 
        nominations and other relevant information in the other three 
        areas in the coming months. We will continue to consult with 
        the intergovernmental task forces in these states.
        <bullet>  BOEMRE will consult with the established Maine 
        intergovernmental task force concerning possible future 
        deepwater wind leasing and development and anticipates 
        establishing new task forces in Georgia, South Carolina and 
        Hawaii later this year. The University of Maine's DeepC wind 
        program, funded in part by DOE, is working on developing new 
        technologies, including floating wind turbines for use in deep 
        waters. BOEMRE will work with Maine in the event that we 
        receive an unsolicited application for a commercial wind lease 
        offshore Maine. We also have received an application for a 
        short-term lease for data collection off Georgia under the 
        interim policy, and are currently processing that application.
        <bullet>  BOEMRE also received a request for a right-of-way for 
        a 750-mile backbone transmission line running about 10 miles 
        offshore from New York to Virginia. The developer has ambitious 
        plans for this transmission line, believing that it can link 
        future Atlantic OCS wind energy installations in a manner that 
        can facilitate efficient interconnection to the onshore 
        electrical grid. We held initial meetings on the proposed 
        project with members of our New York, New Jersey, Delaware, 
        Maryland, and Virginia Task Forces in early June, and will 
        continue to consult and coordinate with our Task Forces and 
        other stakeholders in processing this request.
H.R. 2170 and H.R. 2173
    H.R. 2170, the Cutting Federal Red Tape to Facilitate Renewable 
Energy Act, and H.R. 2173, the Advancing Offshore Wind Production Act, 
were introduced only a week ago, and the Department has not had 
sufficient time to conduct a comprehensive analysis of the bills or 
their potential effects on BOEMRE's offshore renewable energy program. 
The Department appreciates the committee's efforts to accelerate the 
development of renewable energy projects on federal lands and waters. 
However, these bills make sweeping changes to environmental review of 
renewable energy projects both onshore and offshore. Since the final 
regulations for the OCS Renewable Energy Program were announced in 
2009, BOEMRE has been working extensively with other federal agencies, 
Atlantic coastal state Governors, and other stakeholders to seek ways 
to improve the leasing and permitting process for developing this vital 
component of our nation's comprehensive energy policy without cutting 
corners on safety or environmental protection. The Department opposes 
these bills.
    While H.R. 2170 and H.R. 2173 limit or exempt NEPA review of 
offshore renewable energy projects and offshore meteorological site 
testing and monitoring projects, the projects would not be exempt from 
consultations mandated by several other laws including the Endangered 
Species Act (ESA), Magnuson-Stevens Fishery Conservation and Management 
Act (MSFCMA), National Historic Preservation Act (NHPA), National 
Marine Sanctuaries Act (NMSA), Marine Mammal Protection Act (MMPA), and 
Coastal Zone Management Act (CZMA). Depending on the location, 
government-to-government consultations may also be required with 
affected tribal governments. The important consultation BOEMRE performs 
in conformance with these laws is often informed by the NEPA analysis 
customarily undertaken by BOEMRE, and we are concerned that the 
elimination or limitation of NEPA analysis contemplated by this 
legislation would deprive those consultations of valuable information 
and analyses.
    H.R. 2170, the Cutting Federal Red Tape to Facilitate Renewable 
Energy Act, limits Federal NEPA reviews for all renewable energy 
projects to the ``proposed action'' and ``no action alternative'', 
eliminating the consideration of alternative locations and other 
project modifications. By limiting the federal agency to a ``Take It or 
Leave It'' option, the bill constrains the federal agency's ability to 
consider reasonable alternatives to a proposed renewable energy project 
that could ultimately generate a comparable amount of energy but with 
less environmental impact. Limiting consideration of a reasonable range 
of alternatives prevents BOEMRE's ability to work with applicants to 
explore different technologies, siting, and project plans that would 
advance responsible renewable energy development.
    H.R. 2173, the Advancing Offshore Wind Production Act, would 
completely eliminate NEPA review and analysis of meteorological site 
testing and monitoring projects on the OCS. This bill may conflict with 
section 8(p) of the OCS Lands Act (OCSLA), because it may eliminate the 
Secretary's ability to consider all impacts of meteorological testing 
and monitoring projects and to consider environmental impacts of 
renewable energy projects on the OCS.
    Section 8(p) requires BOEMRE to issue a renewable lease, easement 
or right of way for these types of activities, and to determine if 
competitive interest exists for such a grant. The bill appears to allow 
permits for meteorological site testing and monitoring activities while 
remaining silent on the need for a lease, easement or right of way.
    H.R. 2173 also sets up a permitting process--which could be read as 
an additional step in addition to the leasing process--by describing 
``permit timeline conditions.'' This section includes a public and 
interagency comment period during the permitting process while at the 
same time establishing a 30 day deadline for the Secretary to act on 
permit applications--thus inherently constraining opportunities for 
comment.
    BOEMRE's comment and consultation process, currently established as 
part of the leasing process, is extensive. BOEMRE works closely with 
federal agencies, such as the U.S. Coast Guard (USCG), the Department 
of Defense, NOAA, and the Federal Aviation Administration (FAA), during 
the renewable energy leasing process. These agencies have provided 
invaluable input, assisting us with the acquisition of useful data and 
information, resolution of multiple use challenges, and identification 
of key nongovernmental stakeholders. For example, in deciding what 
areas to offer for lease, consultation and discussions with the Coast 
Guard resulted in the Coast Guard withdrawing its objection to a 
significant portion of an area that it initially had objected to, and 
allowed a larger area to be included in further considerations for 
leasing.
    Several federal laws mandate BOEMRE consult with other federal 
agencies and tribes, such as the ESA, MSFCMA, CZMA, MMPA, NMSA, and 
NHPA. The ESA and MSFCMA consultations are generally completed within 
time periods greater than 30 days. The NHPA allows up to 30 days for an 
affected tribe to submit a response to BOEMRE's request to initiate a 
consultation, and the consultation itself can take much longer. The 
NHPA also requires consultation with State Historic Preservation 
Officers. The CZMA allows affected states up to 60 days to respond to a 
BOEMRE-prepared consistency determination (under Subpart C) and six 
months to respond to a lessee's consistency certification (under 
Subparts D and E). The NMSA requires notification with a description 
and potential impacts of actions that are likely to destroy, cause the 
loss of, or injure any sanctuary resource no less than 45 days before 
final approval of the action. Consultation may take an additional 45 
days longer, and reasonable and prudent alternatives may be 
recommended. In addition to these mandated consultations, BOEMRE also 
consults with the Department of Defense to resolve possible multiple 
use conflicts; FAA regarding conflicts with air navigation, and USCG 
regarding conflicts with marine navigation. The time to complete these 
consultations, as well as any others that may be required, varies 
depending on a variety of factors, including previous activity in the 
area and, most importantly, with the complexity and controversy of the 
many safety, environmental, and operational issues to be addressed.
    Finally, since only governmental entities may take part in Task 
Force meetings, BOEMRE frequently participates in stakeholder outreach 
efforts with entities such as maritime navigation organizations and 
commercial fishing groups that may be affected by offshore renewable 
energy activities. BOEMRE believes that continuing this effort will be 
crucial in order to avoid or minimize user conflicts and diffuse 
potential litigation challenges, and that 30 days will likely be 
insufficient time to meaningfully engage with these groups.
    Both bills are inconsistent with sound and long-standing NEPA 
environmental reviews and with BOEMRE's technical and engineering 
reviews necessary to promote safe operations and environmental 
protection for responsible renewable energy activities on the OCS.
Conclusion
    BOEMRE has set ambitious but achievable goals to help the U.S. make 
development of domestic sources of clean, renewable energy a reality. 
The combination of streamlined processes along with the increased 
involvement of state and federal partners is helping BOEMRE make good 
strides in reaching those goals. BOEMRE is excited to have a prominent 
role in the nation's renewable energy future, and looks forward to 
working with stakeholders to develop a thriving domestic offshore wind 
industry that is coordinated and supports Executive Order 13547 and the 
national policy for stewardship of the oceans.
    Mr. Chairman this concludes BOEMRE's statement for the record.
                                 ______
                                 
    The following documents were submitted for the record and have been 
retained in the Committee's official files.
        <bullet>  Alaska Wilderness League, American Rivers, Clean 
        Water Action, Defenders of Wildlife, Environment America, 
        Friends of the Earth, Greenpeace USA, Izaak Walton League of 
        America, League of Conservation Voters, National Audubon 
        Society, National Wildlife Federation, Natural Resources 
        Defense Council, Physicians for Social Responsibility, Sierra 
        Club, The Trust for Public Land, The Wilderness Society, Union 
        of Concerned Scientists, Letter to President Barack Obama dated 
        February 9, 2011.
        <bullet>  California Desert & Renewable Energy Working Group, 
        Letter to Robert Abbey, Director, Bureau of Land Management, 
        U.S. Department of the Interior, dated May 2, 2011.
        <bullet>  Defenders of Wildlife, National Audubon Society, 
        American Wind Energy Association, The Sonoran Institute, AES 
        Wind Generation, Inc., Element Power, Western Resource 
        Advocates, Mass Audubon, The Union of Concerned Scientists, 
        MAP, Horizon Wind Energy, NextEra Energy, Inc., Ridgeline 
        Energy, LLC, Pattern Energy Group, LP, Iberdrola Renewables, 
        Inc., Sierra Club and others, Letter to Hon. Rowan W. Gould, 
        Acting Director, U.S. Fish and Wildlife Service, U.S. 
        Department of the Interior, dated May 19, 2011.
        <bullet>  The New York Times article entitled ``Regulation Lax 
        as Gas Wells' Tainted Water Hits River '' dated February 26, 
        2011.
        <bullet>  The New York Times article entitled ``Wastewater 
        Recycling No Cure-All in Gas Process'' dated March 1, 2011.
        <bullet>  Pittsburgh Tribune-Review article entitled ``Public 
        water safe from radioactivity throughout region'' dated June 
        21, 2011.
        <bullet>  The Wall Street Journal article entitled ``The Facts 
        About Fracking.''

                                 <all>

</pre></body></html>
